27-FA-15-499

. ..

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

.. ..
•

1:) ) J 1::"t"i1--'f'i,

-J,n
Ei6""2'-,
t=1 vJ
1"T
Jr;l
1PJ
,.,
I?)

iJZob0

• •

0

~

J!·>-H-J
1EIA""--i'
1r::iJ□ ,~t=el~v--rd-

-C::

l-t
r1'S'JA-g;s
PJ □ '"-'' 1-=1

Eil::;o,ftt(T) 1c-'2'0c::tc1f&~i1.tt,i0,

-iltJ
r-,~ftj:A""
□ -~- 1£.J
/.f~

Lil v
c...

J '2:: 11:'2'0, Jm•t0¥JJlt,

,1,:

*~.&U~-ITT~~w~~0-mllia'2::~0$

&-~~b~;o,~k•&~,
c1::Gi10;:::
ITTJ-M'an,

J!Jlf4~'0"tI§ tc~J£~ i1
c1::'2::

-r vi 0,

J r::, 1oJ7 fi El;o,i; s

J '2:: (W~G, -'c(T)~6EI*~A~Gk,

1lli~Gk,

fiEl~~0t(T)

(1'17:'
1·
J:::.A.

JI::

j:rj=J=-JJ
:
6, 1 7 fr El(T)1Sfii£2 6 ff- 7 J=l2 9 ElJ (T)ilfH:1Jm'fil';
-=ti1.-t'i1.G!l:i1loJ
"i'-G it,
c1::

JigI::® 01:ll:£-@~I::tll:£ ffl:c1::
J1'f'¥!¥fiffi
El,ls:i:: A IE1.~, Jm•+ll=J=-JJ

c1::t:i I::fiS1iGt

t,l -g, J '2::)JD;;t.0,

13) loJ7 JiJ:1 5 i'i El5krl!\I:: 1-f-G It, loJff- 9 fl , loJt; t±1' ::,,:$7-j-::,,

:7- Jvfit'li!I (DI

SK)

::1

T Jv7-

l::A~'J:Gtc, J ~JJl]?L0,

(T)c1::-t:ol:JiJZil60,
loJ8 JiJ:2 4 fr El'2::>,x

14)

I '7

wi
lo]Mc

(Ll T- I 2

*'):$7 wlJ
gJi:

c1::l, l

'5

0

)

1::-t:oIt 0 Jm.

~3

G (T)
ll A (T)-f-

m+1.&U~i.'Yfas'Jr~i1::~90$lLtt:-:::>'e', 1oJ1f-1o fl 1 g EI, 1oJ~t1Jm1;:1:,
I::~ 9 0 ~$:Ii~~ G t.t t,i c1::Gt, JJl'i:
r~9
U~lll([Jey
t G (T)mflrr.&
.::_f
2 l'- ') :$71-IH;
• $ lLA (T)J: Ileicpit

-r '2::tiflr

)E cLl r
'"t 0 t11:

1:ld::-t:ot,i t ,
I;t, 2 ;t ') :$71-M
'2::G tc , -'c(T)JilliEl3

illJ(T)6
~ oo~tw:.
0c::~6,

vi '5,
c1::

ftj:c1::Gt
!Jli=
~ $:Ii(T)

1::fiSfiG-rvit.t rti'Liit.t Gt.t vi
;o,FJr~ilol1'M

l

"i'-G;o,=f=-

-rl, i

i; i'L
)Ei\1)
c1::

=r=-•!ffl~lls'}(JJl'l:5ffl=J=-JJffi$lL5(T)ili-~~0k5fJi£27'.tf-4

J=l2 7 B) 1::s

l,l

r::
l::fiSfiG t-t:o G9, -'c(T),f:(:fltJ:!c)Ei\1)
L-f' G l;l:loJfli

-:l3l,l t 6 7Jl F1O)Wj r~9r::~ ob0
-5 t,(T)c-0~tc
2

r .::t- '/ 5' tk:)EJ

(Z:,

5 4,

c1::~

h0

1-lls'}11),fffJ r::t,

l,l
~ tc G t.t l,l c1::

7 0) , J

~-~(T)§m~~EB(T)~\§~>,x~I::

$~.&V:$~~~90~-~(T)~~~,

- 4-

151a.

. .

27-FA-15-499
o

o

,.

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

e ,.

.• • •.
. ..
3

~-~O)&m~~~O)~~~~O)c~D~ilS0.

(o ml:• ~,l[ A 0) t';;is-£Jgr:t1
Y

4ftJi?,s c-'f 0)
rn iff mtm ~

suint=-:::i1,--c

*

i

c 1..,--cO)I,lb 11:i0
El:1

-=r0) 1\Uiil crt 2 s ~

o0
1 J.ITT5 -0) ~ g,:g

ftc- D T,
izl!-«---C1,101-:_'liJE
--Cfi, G) ),ji t:::-'f7'.i!iffifilt:::~!l'~'cl::
~ t;:-:::>
;~:if:::

i\i0),1;"--iffilil~ J1_0
~ ~1-t;:
c-25D , @ 7:\%
7'.lt&;,~

~

cc- fitJ:

<,

'il\'@m:lili

.J,IBm
tc1:
rt~1-ittc1:G--r,® i\' J:1111¥
ilil ~ ~1-0~ c t=-:::i1,i --c0) ~t.m~tc1:
OO-"--iff

C' tJ:fth fitJ: G tJ:I,l
l:::]; ·:::f<Jl'ilillfl

J:gf(I.\JiJ:(YT

,1J f:::
L,1J'0 l:::, Nt•*[liJ~'flJFJri'Jl:'§

O

J
rml:iHJlilil:'§tJlil'ill:cl,,-),

) fi,

J:g20)J:-)tJ:-'fO)~

'X 1,,t;: ~ ~ fitJ~1-1;:u O)c-0 0.
mi:::J;J-90 ~friijfc ~2r.ir'cl::
Gkffi-:::>--C,Nt&•ft'§ ■ l:O)M*~~O)~~*#O)~~O)ft~~9
t;: 9 J: -3tJ:-'f 0) ~ ~lfl7'.1!
0 ~ c f;t c- 2" tJ:1,,L,, J: t2Q)tJ:viL,@0) ~ {tj:~ rib~

o6'Q ~ C t) T 2°tJ:I,)
izl!« Ght;: C 1\,'t;t

W

O

DltW ■ l:'§·•~M90~~&U=~

;/J gjJ
,& tf,[!,~jj
il,'<;(9;(JiJg:

=F~ tJ:!ie~ ~~ft,

c••~~12a)

0)-JZ!!~,

G 0)
7'.i!*t.::-l-:frt=~~ L,tJ:l,l ~ ~, llii:Wt~=f-7J7'J'
--Cl,l 0 ~:kl'JlTc-tJ:~ ~1-t;:
Fi@-::>
l'Jl
O)~:kl:::
JOi/t!r!/,iF,lt:71-

D I s
Ii,), f& G O)jlmizl!fi, B ,is:c-0)1,r! (~hfi,
O)r:_
D
0. ) 0) tt 1,i mH£7'.1,
t, O)c·i!S
tc1:~t~1c2i:J=i,e,,c 1..,t--=
Kc 1,i -s~uO)!J45JiJ
t)

0
O)c·i!S

0

~

*001:'0)1,r!O)fil\l,lfiljf;:l:)Jl D ~If5(D _tif--c

-~If5(D _tff--C~{l::;90-:;/j,

~k,

~h~~/t,)g't)O)c~-:::>L~D,
-:;/j,
~ 0)

llii:Wffl=f-:;/jil::n~#~-~90

l,--CI,l 0
f:::n'¾Ml
llii:8$ ll:)d:::M L,l fi~'.i'El¥.Jtct~'l'filfi

,B1J',;u, :Ek~.&tr=~

0)

- 5-

152a.

0

1: l,@O)
J:t2r,tiztt'cl::v-:::>--c, _1:il2G)tc1,i

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

• •
0

..

..

..

"

.
. ..• •

•

•

• •

<

~ ·:5 <s=ii].~,

tJ:Jflll IE !:
ti, d) g-l,'Jl.i'r-

T ib 0
t,i h'l;M~
,J iJfil
ft-JtJ:
*f1J:!{
~{is:r't:1,

c.

1ut-::·~.ti0) ti
:m
£:Tlj: \,ix tJ:v,.:: c., @ *001: JRt11£w~J;(:Jl:c:N:ff'.wtn1..,
c c'O)~ li5~ j'c}F,llT ~ 0 2: c , ® :N::t([:,flf.=~1:'J vl --Clj:;)\(00"--0) jgilif;ll

w,sm¥n~2:ni=~~1..,--c*m1:JR0Tib05.::c~

~GGnt.:J;(~,

=

$9' 0 «>cr
J0) mm 1: J:: l'Ji!Kilit
rYr
&5z:r !13t=-:'.)\,l --cti ~&'!:I
,~ rm:gn 1t, :N:!\1
~T

ib 0

(2) W,Sf0¥
7

o

'a'flll r±1
750) in:

4fi-,g1 ('/j;@-rJifillOO)

f;::-:'.)\,l"[

m 'if,•@ PTT0) li,iIEn rtc 'f
a

m

r=-:'.)\,i --c
H5 filloo
G 0) '.1¥;

) T,
1h:}Uf, iifii~O,;s-]t
& U:f!~*Rti'i'&H:
t.H:t0 ~ 1i'IJ101
~k:(_J;t,/ii~:t:'JOO
!r ,tii;@ir/j t:, JZlj:-'f
IEciy9f: 'f iJirlii;@-L,t,::Jifs-, 'f 0) 'm@Plj:,
t-tM>cr

c t.J.0 o
Trlii;@-5t;
O)f~filMFa9
W,S

W,$ffl¥n&zJ'fGO)*Bl:5t;ft~~~~tl~$~-;s--WT,
cO)Fa9T, ~ff'. 8 J=I2 9 B £:Tt:'fG

$ftAcW-Sf0¥n
9'§,g-]t

~

n --cvi 0 n!.

>cr;,\tOOl:!J<

9'e:'-f, 'f G 0)
.::nlj:Vlli1Eft-Jt.J.-;s-~1:

a *O)

R lb
TftlE~ tJ::M~fj:IE
¥ n c 0) r.~
1: 1,,i --c. W-S~,"frA c Jw:'?ii'0
1:-:'.)
11ri1:
l --c0) ~ ~
~RI:-:'.)\,
O)J1lj
G;J1 --c\,l t,J.7J\? t.:: ts L,0 ' 'f G0) B 0) i!lf-tE

*

0

~~n&U'fGO)~-~-

W,S$ftA~~-L,,

8000)J::')n~ffl~

c \,i 5 ,F r,1utu ti
T ~ 0 J:: '5 1=t,J.g £: --r-

0)

n'0 1:, ii',Ori
T 2b-:i 1.:, 1..,

~zf
r:-:'.)\,i --cfj:. w,s $ "frAfj:. r~tF~lir

0)

O)08':lx:li!I
?fr
i
;l\1H/
1.:lb O)ffa'

>cr~1t--c\,l 0iR~c-ib l'J. r-T'Y
--ct,,tJ:n' -:it.::, £:t.::. ~mt:

'J

1/ =1 ",I 7·r,1J•~0)1ii'@ti~f*{t

vi--cfj:, EI~O) □- :,,.,n,x:tL;z-r'ti'.:W

T ib? f,:, 2: 0) J::'5 I:,
--C-\,l 0 ~ktl,~
'a:iJito':1

- 6-

153a.

1..,

*B

I;:::J3\,l "[,
11'/j

t:
Fa9
filJ1ll

..

27-FA-15-499

...

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

. ..

K -""-0)

;,_

"'t =p:ii, "'t +x
~ m & u JCJN
1,,i :l$

( 1::Y

; l 1:::
-=i~ ti ;/J L,t-=
z::.c

iJ, ,; "t ~ lf i, WW~"l1:A 0) ;l,\tEt c L,--Cti , El*

0)

rllf{E tJ,~:lUtll
Fait:::~ 7

C ~'f".fJ:'.L,l l,,lfJ:?JI
-::J f-=:o;)ft EJ/:'.:II;;'(
L,l gJ'O)@PJ
dtJL,iJIN'J'~L,
9 0 Z::.

t:::~0~/itl~~•~El*c:®}..L,~~~~~~--r~0Z::.ct:::~0ti0)
C: ~

0, EJ*

z::.0)

~

0)

'5 f:::,

/l)f{:EiJ!~J:(Jl
Fa9
f;::;j'.ft
7 9 0 C TJE L,l

r,;

O)~@f;J:~J:(Jl
~)E/i69f:'.:tJ:~ ~,t.:: ti

'f-GO)m@m~, *Elffi~,

--r~0~G,

I,,l f,::?JI'::> Tf;JJJ:l,,l 0
0)

c l,,l'5 «

~

x~~O)•mWlMc:EJl5~

(wJ"tlHirfrJ:l!l)c tJ:0.

iJ!,:~,

DI

1 G"thf:f,
SK~%l:::}..-::i--CillJ.'.'J!=L,ci,,i0Z::.ciJ

illi"'t~

F,lcj~iiJ
Gt.=.IJir,x;
2 G :¥ g J=Jr:::rt, Jl'lf!ffim±l!lnt-=f,; O)'lt@mc tJ: -::i--c1,,i

f-=:o
({) 2.

*

c

'J >'¥1<:'.iE'.
0) F~1!'M:::-=i
1,,,--C

.::.*'J:7¥1<:YE~,
~-•~'g•tim~r:::;._n--c,

rGO)~~O)•~~

,; , :zls:{(j:
c f:H:if/il-O)fil1!1lH:::£·::ni--c,-=f,;0) ,F{Ef;J:r -l~B~J

c rtt1.'.o6,; t,tJ: 1,,i c tu ltfrG,

-r,;

0)

O)Mf!Jrfrn'-r,;

0)

c ~ ~,0 «~<:cl,

0o

~t-n&u~~ r:::F,11"t 0 ~ 11,mtu'g•

*

0)

JJUff&
UJlliM!i
0) r.,i!W
r:::-=i
~ fiil1'11
O)'g

M~ i'!i'YEL,t.::ti 0) <:cl, 0 , :zls:
{tj: t:::
.:/31,,,--C
ti~~
~ t-=. a*

tJ: ti

~1'f

"t 0 c:Jli¥
~ ~L0 0) f:::;);tL,, .::. 'J >'1'MM'¥1Jrfrf;J:
z::.n ~1'f L,tJ:I,,\ c ~ r:::'¥1J
li;lrG--cs

o,

z::.0) *U
1t1r
rt, fiil1,11
~ 0) m YE
1:., -r ,; tJ,4m
£11u1~
r:::fiil1-11
pqr:::17'

- 7-

154a.

27-FA-15-499
..

e

..

.. . ..

O

O

•

'dJt:::.=:

o

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

' '

0

....

o

o

o

. .

.

c.--r:,::f rttJ: ~ ~ c.tJ:0 t) 1t--r:r;J:tJ:
1.,i.

-g-2:~ -1.J/19r=li/Ji*g 0

-;:_
C.7<i:
i'J'dJ0 J::.'J fJ:(£Jlgf;J:f¥:(f[_,,
fJ:\,l,

T:~fJ:\,l

0

({) /)¥\Ji¥,,,
lL )d;J:, ::f (£ tJ:~ [Ht0)
~S$llA~.

f,~ft;f;Mf}!JJ
O)!J'/j-n:
t: fflbl!~ ~ t:::.L,--cI.,l 0

0

~-L,--c~MO)J::.':3~•stt0J::.':31:::~0*T:~GffiB

*f:::~1:f90~0)-g--~L,~f:::v~~bG~.
L,t:::.lr.'--i
,¢,\~ t "'.)
--c::f rttJ:l!8~ 0)

~ ftt a

-1.J~f:::;::::O)-g-K~li/Ji*

c.L,J::.':3c.L,.

t.i J -g-:it ~ li/Ji
• L,

t:::.tJl r=-:J t.i -c EIs i'k:'dJtJitJ.--c
t.i 0 t:::.'dJr=::fr£ tJ:ta:-/llit0) r,~Paa

0)

i~ni tJ,0s1

j\(H:::
tJ:-:Jt:::.c.J.l'!,
;/J ll 0 •
~-$_v:Affi-1.Ji¥J~-g-K~lii;i■ L,~=:c.~J::.-:J--C,

~Sffi¥1.Jffi~

G ~ B*l=RW1:E6tt0 =:c.7'J1::ft!tJ:'iil/llil:c.tJ:0bltT:f;J:tJ:l,l,
'/

ie1-,¢,i:
4

rn

(;i::;kfJ:JTI;~)f:::J l.,lC

:lsi::
~ :&u:= !J!l
r=J ~ -t

0)

*

~ ~ r=l; ~ t.i --c {4 $

_v:
--cnrtiflr 6 ~1.. :lsi::
:t<:

:&U:.=.!)!lI:::":J ~ iififiliJ!1ftrC G h 0 =:c.I:::J::.-:JT 1: G0

~ J:: ':3 t, i 5t~Jlt
O)

tRi!itf;J:, :11:t<:
:&u:.=:~
1:::c."'.)
--c$2 s

':3 r m::ktJ:m:~J

r=~ t:::.0.

§f: 1 JJl4 i°} r:::t.i

t.::

=:0) =:c.r;i:. fttt0)/l'fii*(_J
ooO)ml1Jiffu
tJ1 s v fJ/ls tJi--r:
~ 0.

tJ:.:/3, ~ J: ':3t.::t.i5t/1Jft
7<i:
illl It 0 t:::.'dJ
!::::11!J!l:&
U:=!J!l7'J1 El§ei¥J!:::*00!:::

fr<=: c.!:::tJ:~1.fi, :11~:&U:=!J!lO);j:IJiitiJ!~
L,< ~2: h0.
-:3t-::'t.i 51-µ11t
1: J::.0 ::fm-g-r;i:. ~ J:: ':3t-::'t.i

T@liJltT:~0 t,O)T:f;J:tJ:l,l,

- 8-

155a.

*t:::.,~ J::

r., x 1m~ wr: 9 0 =:c.r=J::."'.)
0)

27-FA-15-499
Cl

0

<;I

.. ..

Cl

Cl

Cl

O

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

Cl

O

Cl

O

O

•

0)

..

J::-::i--cf!FJ,; n1 c' i!SltJ, .:::0)
1.:::
fJ-HiE

.:::

J::-::i--c'ti,
c: 1.:::

n1J
tJ.m:~.9'!:
rill::;Jc

i!S0 c: t,i A 0 ,

m3
1

rrr 'J,uWr

~ 1t 'J,110)

gJ ({f1-;~ 1 )
r S 0) ',:;tHi;/iTr±!IJ
(I)

t,i --C
t.:::-::i

r nr',litHs/iTr~ ff L,
mt0) r,~kEt0) fifTnin.:::
Y. Ii fI-1
!]I c: Ii, iili:/1~ ltJ0) 11¥
:till
'h1® /iTr
·rit®rnc:1i, An1;1t11¥®1ig0J:~m1:, +1j

--cvit-::OOzt,it,icrt2~5XFll,
~

z t,i '3 c:fi~~ ;j,0 c:
: --c@119 0 tl\\m
r.,t.:::tJt-:-::i
:&Wl

=.:s, ~iJE~~(2H.:::J::

.::P-Sffi~~26~7~13B~*~~W~90*c'O)~@rTr~*OOI.:::
:t!IJ(J;I,r rX ~ J C:t, l '? • ) c' ® -::it-=:C:~g/;CJ,; h
~~ lL A wHlHi/iTr
® Q /JlHii'

h~,

*t-::, &fill c: Ii,

n',;
-=rnr~® rTrz 1ef9 0 oo

f,;--ct,i 0
~ ~~ "'-0)/J¼/mniwnn
1-!Ht.::P-O)

'3. l ~®~G--csltJ,

0) ~

Q•

ti:',!'filO)fft.:::st,i --c,
~-=r-0)

=c: z vis

crt 2 ~ 4 i5") c:

=.:s,

-=rsO)*OOA,_0)/J¼Mffi~~sn--c&aO)ttm

ffl~,

t.:::i!S0cz::.nffi~•m¥n~J::0~•$5'.z:AO)~••z~W90&~~~~
l z::.c:n1~~,1i0Sn0.
0nii;'nifi1&1.::::1,1JWrg0,
®:illJO)
0 gI.:::~t-::-::i--CIi, CDfi/~f,~fr;f;O)
~,1J!Jfr
r,; 0);;r,-@/iTr:t!IJ~OO
n1~·®rTr~11 t..,--ct,it-::ooOtt@m:ttllOOln1*00:iz1::ts 0) vifn
11¥,~1:-=r,;
11¥
g 0 &;,~ n1i!SltJ, -'c0) iW11¥c: L, l, @ r G 0) ffimt0) ImfrEt
c' i!S0 0) ?J'~ ~'BJE

c',
(2) -'cz::.

*

J::-::i--c,J;i,T,@,

MzmJE90~~~c1S0.
7

fi/~O)

OOfrt~Wl

.:l3\, --cIi,
*{*(.:::
l

'f- $

)JI

ooO)•r=•tt9-o,

r,;

0)*00

'Mi&L, --c\,l 0 !Jll:'ll¥ffl
'<!:
t.:::-=r,;
001&
?J',; 0)/:l:l

Wrc' 1! 0 Mi;~
r S z :;,!(:gJ 1.:::irJf.~it2"-tt tJ.t, ;/l}:l'!,'<!::>FL, t-::c:~®, S<JI.:::~,11
i

- 9-

156a.

..

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

.. . ..
. ..

c', ' Cf,; ~ fiilif 8 Fl 2 9 El¼:c' t:::;)f~00f:::J3<
* {l 15Jil°:=;J½
~ ~1t.::
imc:L,t iicr,x;
c. ([r'fJ
~ ~1 t.::C:::
c:;,ji'~:<_)
T 2::c., ;l,)(n 0) 15. r:::J:: f'.JIx,r El~ ~ 9!c' 2' 0 C:::
r)),

6<

jf[JifS Fl't'fiJ2::.6, fi!ij~·:jlff;J:, "f67J>lnJFl2 9 B~~7LL

1L,f;f

longer) J EJJ!;;:t:::N/f{:f

(for a while) J fd:t,;L, 1t,'.5'./>L, (little

'ill'E[llL A f;J:, loJif 9 Pl,
(4)::r:.), Jw:
T 0 2::.c.t:::15;~ L,t.::2::.c. (Iii.I

)JJ{.

f[1=fc

1 2 J~r fiJ~J'ffi~L,t.::.: c., }]Rill'
:;ljf:::ML,, r GO)j[iiain1j)tfl f:::"Jt,;"{_"ln]:-qc

1B=fcJJf;t , 2::.~1 f:::m r,~f;t iili« td:7J'-:it.::ti 0)

0) ,

10=f=JJc.L,t f;t r ,; ~
'file
Jfff

4~27if5Fl~6FlC:::6¼:c'B*O)¥ttf:::~b~0•~Tcli:,0c.€~~

c.= 6 ,

• ~,lf Jd;t,
})J(

= tu:: f;t li'i.l:Iii:Gtd:n 1 -:itt

=c

(7)Y td:v, G r; J ,
c1o.1

lw:8$llA~})J(8ffl=f=:;lj~j;j-L,, --~~r60)~

4~27:-qclpj~~.

-==r,;0)1oJ:-qc2FJi:pO)EJ*~ff~ff~-t0J::'.5~~~~c.

~~c'~*~f.

.&c/ ;t)
-:it t,, t.::::: c. (fiiJ::r:.

,

,t1 ll. )d
lw:'fflc

:-qc3 Fl 1
;t , lnJ

Jw:81'fl=f=n~=rt

:;ljf:::j;j-L,,rG~*OO~~T=f=~~T0J::'.5*~tt~.
f:::~G~;,j;-:itt-=:c.

(lo.I~)

n1m~Gh0.

=fc
.1'13

0 8 , Jw:

iw:sm

~~0)-~~J::h~.

:: 0) f;t
,
~~~Gt.
~td: t,;;l.ltJ.EI
~ 1L
tt G, -==r,;~;lfHm:::/!ll'R
1, r:::
n'1 JtA
Jw:zi'fr
-=J=15
~ti-:i'1."1¥/rrit0)
IJ'ilEl
4r,t2 7:-qc3Fl 1 O 8 .:6Tcli:,0c.~i:-~6h00)c',

c.v' '.5«
f#l!lE1ir.l'Wl

~T

® g.

00f:::"J v, t
-1 'iii"I§ )'frJ:lll
&aO)~Mir.l'Wl~~EYO)c.~f'.l4~27:-qc3JcllO8c'cli:,gc_-=:6,
Tr,;
1i?.
0) lr.l'
«iT
wa 1WJ/lE10)[&!

m~~ Gt
n!•)l;·@

l,,

nr* oox.rt s J!,:O)v,
t.=oo

0 ;,j;.f6'ifiT0.
ffL c' cli:,
¼:f, r6n'i4~2

-y':,O)~@ffi~*~~cli:,g~~~GB*

.Mt,~<.
~htt~~j

6:-qc7 Fl 138f:::*OO~l±JOOGt.::ir.'J',~cli:,0v,f;t-t-O)

1

.f6'iNTg, ~E~20)10)m~-~f:::J::h~.

- 10 -

157a.

cm~-~) ~R~
mi:•m=r=n~.

27-FA-15-499
..

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

....

0

..

... ..
•

~¥

i c,
-:::it,

. ..

c' It 21,Q ti 0)
iiJ
Fig
I::J:: i'J!Jt51:i:"
0) -@i-;§J
tf Fa9

0)

of r,x;2 6 "I=-8 J,J2
*~&lj005

~-ffi¥~~*-@;-•1=~b1J:n•~k~-@i-~.

9El*c'cG,

1
~1J:a~~J:Q~mm•~~n$~m ■ n cGtiQ~c~~m9~~~G

*~~/:l:\OOGt::::.F>3iH::ffrf'fGtt,;t::::.fnft0

t::::.~c rn,2''.ii::¥~(3)')) . rGn!,
0) @I i'J0)
It, :!B'

c

(In.II)

, ~.

;%;JJJ1Ht-'f G I:'.:
:,1'f

{>c
It,:;,* c'c' cli:,
~ Ji!,-:::i
lt~\\lPI, ll:An 1{±~Ji:
El* 0) ~if:t:E

Gc,
i'J,

~
1-zI::IIRGtL ct,; t::::.
r1i1i

=~

0)

&Bitil!c G c 'b . El*

0)

Gni*~

~~-

lIt 1 nI J=If1j!~ c J_illf11G t
Fa9
llfH:Ull

G c ::/3
1;i

~
t::::.

-'fGO)El*O)~~~~"F'-8J=l29El*c

3El~*~~lli00Gk~~c'~.
~ t,
c' cli:,

~ □J]

1::wl\~9 Q ~ cni-'f)E
-{-O)fJt*OO

~

)("Q n>G, r
4l t l;lf::::_Ocli:,

,
'b tel:<
~ 1;; lt-i-O)fJ€:Fa9
';'s\
cli:,
~ ill 00 G t::::.W/i',

-'f G O)J~•Jls-ffrni*~I:'.:

m•O)H~~c'cli:,~ofM27"F'-3J=llOB

-'fGniB*~~~--

n•~n•1§ti-J9 {>. ¾:9,
Q tJlX:~'.Bc tc1:~ t::::.
I::, ~,t@-i"JrniEl:,jq;:: cli:,
¾:c 0) Fa9
-'fGO)B*l::cli:,~ffiX:~'.Bc'O)Jls-ttM

~2ffi20)10)ffl'.tE¥~~J:h~.
~~.

ofM26"F'-7J=l~ffl~GffimO)H~~Mc'c!i:,~ofM27"F'-3J=l1O

Jls-{i@l~lt,
~ cn>'~BltiGfl{>, ¾:t::::.,
Fa91::tJ:{>
8 n>J=J
El¾:c'O)*<J

${Lj:-§-

El¾:c'O)M~~~)E~ti~

··~J:~-§-~~J:i'JofM26"F'-8J=l29

O)frif:i':Eccli:,~t-=~c. [PJ"F'-SJ=J~ffl~0. f,fj~¥:jliflt. -=tGni~J=J2

~-)EM~ffl~cEl$~-~9~~cl:'.:-@;-.Gk~.

m5$ll:A~.

I::~!ff~~it Q d::-5I: :,:Jt/tit::::.~c,

~

a

[PJ"F'-

5
ti I:'.:)('[G, mwm ¥~It-'¥ M 2 7 "I=-

m••~

J=Jn•6J=1~0~--r-=rG~B$0)~~~~bit{>•~~~~kn>',
~

g

-'fG~[PJ"F'-12J=I0)~0~?~0)Ml::*OO

9J=l~ffl. ~-ffi¥~1::)(;J-G,

A It,

El$

k ~ c n1~B/tJG41,{>~ c
It [PJ2 G l'J:n•~
41.I:'.:

- 11 158a.

n>G 9

2
{>C, :;:µ:r,x:

.. . . .
.. .. •

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

.

@{iWlFa9
L, --r!§tl,r-t ~ c , -'f ,; O)./{L~B:~L"O)
'2:J,t,,s-

i,tJ: 1.,,. J;J,_t 0) -~
fiJL::& -U,
:I)'(8 :1J1
C' 0)

~

-'c0) Fa9,-'f ,; f;tEl;j,: 0) $ tX ( D I S K) 1: A$ L, , El;,Jr

~m1:tJ: i_::1uC' f;t1.,,~ t

(1) 0),

Jls{i§

r.,

~ i,t::
~ :IJ'iWJ~ ~R'.li:'

l;tfnJ'fc 1 2 fiJ;f~~ -'3*--r1:::c c' * ~
F•9
i,t:: i/\f:{f}1Jl

~

c

El4~0)il\f

n,,;g ~ c,

-=f ,;

O)m@m#*~1=~~~~~GE1*1=~~m~-m:~1=~?~c~m~,;n
,.
tJ:1.,

~ 0) ~

I:~J: ~*~c'O)*nJO)I_Eii!ifl}~O)
$ }'l:AO)Jiit!IM
c f;t, /)f(\'B'

,;
i, ~ ~ c rng'.li:'•~(3)I, (4)I) . -=rJl!.i.6~7'J1'l[? --r1.,,tJ:1.,,.:: c :IJ'if!,'[b
C rng'.li:'-~(4)I)
Gt::~ib:V,1J
O)D Is KO)}-.cjt=f=.ml:::Jm\'B'El1}'l:)\7'J'
9
itJr'2::tr_;{j"
Eli:L,L t , J::tc:1,JJ

~

~~

I: JEI'.)tJ:\,l •

-=r-,;O)~a1:•g~•~~•O)m1:E'2::~acg~
))f(B~=r=-n~.
C tJ:~ {im~c ~tJ: ~W;;%~--r
C l;t, B*JJ~JtfO)]J/Jfi
:IJ'i, rt(:\,) -5'rif;@m
~s.

~

n,,;,

2 :t-'J 5 il!FWil:sft~ Jm\'B'$}'l:

L, ts:J: -5I:,
2 ;t- 'J 5 ~'.li:':IJq,IJ~

c~~2
=r=-mooM~

AO)-=r-,;O)m•&a~a~oo1:•g~$}'l:--r~J~,

,; 1.,,c
O)B!i'IJ~·:IJ>ltt/!6htJ:
fn11'l1
7 'fc 4 fl 2 7 El) t:::s 1.,,--r

L,--Ct,

'il;'@

:,.
~ t O)L"f;ttJ1.,
~rli:.;{j"g
,--r0) 1:.ia*JJW
m:tlli~r:::J 1.,
2

I: J
i/Rifil.1±1

\, l L

M~R'.li:'•~~J:h~. -=t-G#l

$27~§~ffl'.lEO)-=r-O)~i.fil·l±l~J~,

6 :tmr=~G--rv,tJ: 1.,,~ c Cfnl~ 1 ~ l , -=r-,;ni El*~p;J 1:::mrrG--r1.,,~
Cfnl2~l,

c2;t-'}5fflJ
m@m~~L"~~*~

A~-=t-G~M9~R ■ O)•~~~L,--rsl'.J,

B$

}'l:A 0)

~--9~ -'f ,; I:

-:J 1.,, --C0) ~ g 0)

- 12 159a.

O)ft%~J:n~.

~

c

Jm&$}'l:

))f(5~¥~1:::J:~-'fS(l)ffla~))f(

f1J~ {:;!:@:9
1lli

~

t

0)

c' il5~ ~

c (l'8'I3

27-FA-15-499

. • . ...
• •
..
. ..

.. ..
"

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

"

" " "

"

J::-:i --c, ,1;:iin:.:l3t,, --c Ii, -=.F0) ilzilirJ: r:1:11:
ll,!I9 9 rt 2 7 :f:&-~O) ~fliJL~fitff ~

hTv,9,

m

~M!HfrrO)::ffrft (4fJ-,¢,,:,
2l

1:"Jv,--c

/lRm'rcj'I1tA iJ,-=pG I: :M9 9 ~ :\l![1{R
O)ff{Je: ~
t,, C

fi
(2)

c: Ii, /lRti: )E0) 1J.filr:13
J tll\J
0) }.i13

§ ~ c')

0)

L, --Ct,,tJ:iJ, -:,t.::c: li[t'-li6 G ~,tJ:

2 (2) (JJR
¥fl:IE 2 5 ~ 3 fr § iJ, G 1 3

I: ~cff&O)c:.:l3IJc'il5 9 iJ, G, C t1 :a::iJIffl 9 9.

ffi @1:I:~ 9 9 [1i'I
;"~ ( 4Ji,¢,,:,3 ) I: "J t, l T

~-W¥15~,

-=.F-Gffi*OO:a::W0099., -=.F-G~ffl~&MOO~bk~--CB

*l:~ff99Cc:iJf~)E~h--C~IJ,

~•$1tA~'f-GO)ffial:[1i'IXG~6

±iJ!fgg,
,1;:~~--~J::g~Xl:J::h~,

L,~L,,

Gt.::iJ,, ~-~,l'z:Jdi,
J=.I0)

'f-G0)8,1;:0)$ff~~~26~

[1i'I~9 J=Ii:pii.J, ~W;J:~¥:151::ML,, -=.F-G
:a::lo.l~1 2

171) ;z 7 :::ZOJM I:* 00I:~"½002:i± 9 J::'5 I:;:)</JDt.::C c: , C h I: ;t;J-L, ,

~

•w¥:150J~~27~5,l=J~6J=IC~*c''f-G~B*O)$~~abi±◊-~

~{iifLt.::iJf,

~-

$ lt}di,

Chi: li[1i'IX L, tJ:iJ'-:it.::CC:iJ![7i;,c\D
Gh ◊CC:

~M~•)EO)c:.:J31Jc'il59,~'599c:,

~-$l'z:A~,

~-ffl¥:150J[1i'I~

3 J=J1 o a 0)-'f s OJ@~1: [1i'j;w:G--ct,, t.::ti 0) c: 1tltt1-li6
s ~,tJ:t,,.
~~,

~S$l'z:A~,

~~27~1J=JI:,

{1 L, t.:: ([t'-)E-J:~(7)X, ;,J-) iJ!, C hfi,

'f-Gc:O)@~~m&Ulo.l~2J=I

m1:-=.FG;ofB ,1;:l:r.va L, T

t,l

&Tc'~ ■ -~fi~L,~t,OJc:M99Cc:iJ 1 c'~90)c', k~-)E~~~9

- 13 -

160a.

g 1:k

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

• •

o

e

"

e

<1

..
. ..

•. • .•
•

-~ 4 ) 1:-:J vi--C
13) m::ktotfitI~ C-{µ7

1t2 s!iR 1 ,DJ:4~rJi)1:0)rm:ktotffiJ~J cti,

-=r~nrr1A¥iltv\1R&t:li:<

;::2:::1=~~--C':EG9fit~O)~ff~m::k--r~9;::c~K~99C$~h9C
-t0)000)-'fG
;::~, -=fG~. /:1:l':t~*· *00~*~9fflT':t~l--C.:l3~,
l':JG I: c
1:-=f
O)':E1t1Jc6ciJ>$fiJU

~

l vlt>0) c' il5~ t:: c fi~BcoGhtot
--Cfu}U:!t

9 ;::c iJ1 T~ totvi$fiJUt9tot*
vi;:: c, m•+B ¥ jjiJ,-=f G f: rol{!Jl , --C111t*9
-=fG t:J:tcm::ktotfitl~iJ'':EG 9$~t'l':Jtot.:l3-thiJ>~9 c fi~)U:!tvl,
-=rG~~599fit
m•$:uA~M~t'l':l~~~)1:--riJSo.
1 m•w¥1:f~.
c tot~ --C-=fGiJifitl~T il5
Jl'9, ma:•,(1.s'[A iJ1i%:/fl 9 9 c -=J"G t: @>1Jfl':J
i!fil:iil5

9§'±5N99o
;::O)~. ~~1:,
~e~mA,

~~fiA~»v.

fl':Jtot~Bl'.~c~t::O

ma:•$:u:A~&~fl':l

-=rGcmw,:u:AcO)roi@~~-

-=fG~Ml--r~•

M~fl':Jf:~~)Ec~O.
rnw,i'.*~(2)7, 1,

lt-:;::c

m
)H(. ~' :U:AO);r/Hljl1JcO)~~)E

I)

t>0) --ril5~
tot:J
~ iJ,rn-,litt'l'

fit'ciobGh9iJ'.
G
t:: c *c' fi~'l?,o/:)

~ filleI
u~iJitotM:
l
009 9 ]11)1: fi~t:71-/:1:l--C:¥
~ 1:1:l
-=rG O):,fi:OO
B NH~t: fi 7 11 7-.:$71.Ld: ~ 9 xifrtiJ, F9yijt:
~- l i'.::;::c C"fl 4 4) ,

~,totvi. *t::,

ffb~'l--Cvit-:;::c

*

(/i:2'.!E*~(5)7), 4Jilt2 6$1

OJ=H:B*ml~Tfrb

Gff: M
~,t-: llil5 $ :u:A c-=f G c 0) mi:ilcxifrE(li'iJ1 ) 0)1:~. m•$ :U:AiJ>-=
Ghtot vi;:: cf: Jll'!G l --C'b,
tot~/3t ~ c ~ t-: totc' 0)*1ilrf:l:/i:'2'co
l Jj/:.1'1':J

J*

Ghtot
~ tC ~ l vit:: C fi~'l?,ob
:UAiJi-=fG r: t..tl B 1tfl':J(2'.:Jj/:.fl':ltot~/3
!itotVl,
vl, {ill!:, )H(•ffl-¥jj0)_:Eijf*~ ~tNob9 !:)E ~ 9 fl':J~[totj):N
t
l t::n1 ~ --c.!H(5~0¥jj0) J:t2::tijJH:t~ffl9 9;:: 2:::n,--r~tovi.

• $

- 14 -

161a.

27-FA-15-499
0

0

0

o

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

O

.. . ..
•

. ..
/\ - 7 c' ilS0 -'f

0,
~ 1~tJ vi c .::::

t::!3c0 .::::c fi c' '2"g' 0 lZ:t:i /:::iill $ii"~-- 0

0) '.'i)v- 7°/::: ti Ah
,; fi 0 lZ:tXc' fi Y :J Y ;¾1iEl';0) '.'iJv-7°i::: :t ElA {EE\';

tJ m:,~i:::
=c :t, m::x

~

i
-:Sfctl>6ttJ,,.iH
vi c:il6r:::ill
--cti ,; ;t 9 ff 31J-t>

J::iJN"t0.
L,n1 L,tJTJ',;,

ts::0 '8

=

0 c:
lnJW1..,--c*~t:::ilil:HJL-t
=Johi:::s vi--c-=r,;r:::
JJJHil'tB

htJ Vl ;;jq1j:f:::.:l3Vl--C, T,; O):,j~
tJ~tr'JtJ>&.:>0 C:fi g,2,i\6,;
iJ>c''2"tJ Vl;'i\'.f(l(!fj(J
rj3' lL AC: 0) lnl@~ %:n;kg0 :t 0) C 't.) Vl x_tJ Vl L,,
~ t!n:::!m'IB
IE"'- O)jgmi'.tJ>

*

iE1
j@:::
c' )iX: L,--c< 0 r:jJ--r, vi c;<16-?:&lJIH
:!!t:,lt[~ 2 :t ') 5' 1'/1
t;, ti:\'.t.l;J,
J :t tJ Vl L,t.:.t;, '? --c, })R
~iSf
t;, '.:EGt.:. C ~ ~91¥.JT,'filt
/111
9 0 ~1* B'~tJFp9

r,;

=

O

c: TJ'c''2"tJ vi.
=f,)50) J:f/c±iJJHitfJfl "t 0 .::::
1li'ft0

x

JJR1li'fffl=fh0):t~-t0~0)~0)~

~s.
-t 0
frJ1t1r

~~•L,--c:t.

-'fGO),G~f=-~~&~-t~e•*

*IEf:::-=r,;~~-90.::::c~J::?--C,
I::,~1.fJvl
c: f;:):~!c,(i\6
0 lS
fJJTI;~fil:tJ>i

(M~~mO)~~~ei

0

~•~m~•~O)c:sl'.JrG4.A~A~*~~~•-t~"2":tO)c:
0)

J vi --c0) m\zil'.
*tJ m:1ttd:::
J::::'? --c'.t f' 0 m:
~11n:
vi 5J'--r, '2"J:: -:Stc:

+ti¥:;/jO)±iJNf:::-:JVl --cfillJ Wr~ ~ L,tJ:Vl

O

(4l -'fO)m,r4l(4ft,~ s i t:::-:Jvi--c

i&RJ'e~~
*!J5E(cf=!J5t:::-:Jv,--ctirt 2 s ~ 1 Jfils .\%rfrJEO)
ntJ v, c llJ
f:J:~'2,i\6,;
El3
i~•m~~
rnt;rtiii\6,; n, :li::ft& V:~ !J5t:-:J vi --cf::t1nJ
~ mtlJmfi,

1t1r-t0.~0)@EEJ~.

fi

§

J)R~JEO)r~rnJWO)ffi30)2(~(**JE27~1s

cS
t;,,; 3 O~ 1 8 fi El;l':c') f:::!2,!l,\:;O)

=n~ML,,

J)R.$lI:A~,

~1'-~&.i0c:±*T0TJ',

l'.Jc'i!S0

j)R---~--~::6~0-'fGO)ZMO)m•~

-

fB

:Z.11rii'-P-'..\,~J::~c,Jp;f,Jm
,l'd-,

*•m•gm•i=*•

*#E&~~NG--C:t,

$ lI:A±iJN0)1'1irnn'i!S0 c: fi~:Zi\6,; htJvi.
-;61'._

.::::~1.i,~ IHJ"t 0.
7'.J,,;

"b-h,J,t=l-+''_j
",Jlcn-"b-h,Z,7fG3="'--l'Jt!..."'---:
i8t./,J/J•/](/_:
i'J,e,,1-µ81::./J/,,X..L.

- 15 -

162a.

*t.:.,

*8$lI:)di,

*!J5&V:

J ~cl=
'f;
D.i~~'""
•77GJ.5:::V J:,1J;;:_o....,

1-)j

re,

//J',

27-FA-15-499
I>

.' .

.. '

0

e

O

e

ro

=~ Ii ,

0

.'

'

lj

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

~ I:::~
/lif)tR/,t 0) r,)t!l:1\
'lt:'§ F,)/u.~ Mi', 1 2 ri'&:9 i)',f.Jc t,i '3 £i=.
F,/l,J
AA'file

iJRW$nA·~•m¥~0)·~)J'G~0W~

GTSl'.J, ~--•'§1:::~L;,

ft~&U=~O)~

•n~~20)I~~~«~c~o6GhgZ:.c~G9h~.

Mic 3 (4)[fJEO)cS l'.J, ft~.&.U=~li:Jlc!;E]l:::izili'f~~1,g Z:.c~-refuTS

(I)

2 8 ~ 1 r.iei5 ~O)j&il/Hei's'*B:17J'~gci,'2Io6G

l'.J, ft!l5.&.U=~l:::'Jv>T(ft

=

~

ft~ & lj

J1,g , -'c L;T,

it L;,
ll'tI:::1 f]=.£),J: B :;fs:I:::S vl T '.'I:.

fi,

}JLr,)t 2

6£i=.9~~GDISKl:::~$L;Tffi~~~A~W0~~B:,fs:O)'.'f:.ffl~-~L;
Tl,,l.g

=c,

ft~&u·=~n>:JlcOOl:::igili'f~t,Tv,

G?J'TlitJ:
'.'ti!7'J!T~ g 7'J>i'l\'7'J>I¥]
*001:::iffilit90

<,

i'/J:fliJO)$;\xBz.lj'i§z&lTO)

Z:.O)~]J!l'.Jl:::Sv>Tfi,

ft~ & U=~

~

Gn• 1_;,

z:.cfift~.&.U=~O):f:1J~1=•90c1t1,,iAtJ:1,,,,

3) , ~m
Gh9 6cmri2
:&ft.&.U.=.J'l51:::-::i1,,,Tfi[PJ~O)jzjlitffii'§';,Jl=F.87J'iBo
~~cGTtl,

:&~.&.U=~l:::'J~$#$~T~~TG~W~l:::tl,

90c,

~l

:&ft&U-=-~~J~*\;fil~0)~-~$9«~T~gZ:.c7'J>G

c B:;fs:Cft~&u·=~l

g ixm
z:..:s, n•n•

~illHt 0 «

~~~I:::~~

1::::n"n•hT1!f:Jm90ikmctJ:0aJtJ~·11n,r'iliv'c

<ft~&

J 1,,,Tv*OO~O)iffilit ~$9
U=!Jl51:::

0Z:.cffift~&U=~0)~~1:::•907'J•~~~-M90~~ffi~0.
-'c Z:.T,

L;Tt ~T
T JJ-0c, -'f-G 4 ,AJ:1,J-JJ:::/Jltf
;tg'jj\l!J!IJ¥m0),\'i:I:::'J 1,,,

G9hlf,
f 1,,,c iBo6G~1,gZ:.c 7'.!>
v 5Tii
O),i:,,:fJlUt:JtJ:$
S l'.J, ffiliFa1

~~

~ [P]-0)
v, 'f G 4 A I:::~9 0 ii,\IJ'l!l:
E s 4 l 1:::J:n1t, !PlfHO)~fU¥m
c2::t--'J:$7il-:Jcz:,

I:::~9 0 IEo6I:::-::it,,T 0)'pl]Wi'I:::~ t-::.-::i T

mi,1¥m0) t cc·frp

'f G 0)

- 16 -

163a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

• •

0

0

0

0

0

... ..

. ..

u·=!Jl50);J;1J~1=t':f-t0
c:vi '3 c.::.cilc-~0.
~mmc:G,

-'t G-c, :&5'l.&V:=!ll51t, ~!f~g:

*001:::s~0~g~•~m~~~~vW~8*MhfflG~c-~

t'GI:::
s v1-Cv ElG0);i:t'i'.~ + :5:)-I=:Jill« 0 Fig;JJ~ :{,cfT 0
-Cs VJ, * 000) '/&liJ=f=c: ~,{i:i\l')G~l 0

c.::.c: i'.I'G9~L

Ii,

[P]1-M
0)'i&liJ=f=-!m
1:::
s

vl ""[ El G 0);!J:_m~Jill« 0

-e-J: -3t::t,i5:,'ill!tt:::J::0JTiW!-l:::-:Jvi-c1t,
:&!ll5&V:=!ll51t:i;JH:E
1 3 H~
;_v;:1:::,
1 n1J=J,:&ft&V::.=.!ll51tffli':E7tf&1 1 n1 Jclc-;r,,-:i-ct,1-f~,v*t::1,!Z:&WH:::;r,,
0

c.::.c: i'.)l G9~1 Ii,

c.::.O)iey.,¢.f.c'-eJ: '3 f[l,

(t(J, ,C,,Jfil
(t(Jta:!Wd!'e
W!ltm::k c'
~ n'!,Gt-::.
t-::.i\l),

~Gh,

;r,,0.

i ~:5:l'~Mt-t
0 c:, r GI=:.L5-;t0 ~1%'

~ t-::., :&ft

& V:::'::.5'l
I=:-=i-e:,Jr:
00-"-0)iffili't

m('i'l£'f§=f=--;/j7'.)!,&Y,:,&
v:-!J5ccvl:::*001:::

c:v+n'~

};i(:0 c.::.

-f-0)~€il:'.:R!ll5.&V:=~~JJf\~ffl=f=-1:,0)~RM~ff

~- 1=~~ 0

(ffi~fflG)

0)

c:It£, -f L,vili!iW.J
c: It vl;,L ta:vlo

c.::.

8LO)HSM~8€i-t0c,

R~.&V:=!ll5~-=i-e-, $28~1~$~~~

G@~J::VJ, ~~s~1=m~0•~~~0c:G-rv~mm~ooc-;r,,0*00~
R~.& V:=!ll5~illi&T 0

v c vi '3 « -e-

c.::.c:7'.l!R~.&V:=!ll5O);j;IJ:fu'i:1:::jf-t
0 0)

c' cf; 0. -f-C.::.c',$ 2 8 ~ 1 ~t.::t.::'L,:~;:r:::J::
VJ, :&!ll5.&V::=~1:::-=i-e-:,lH@-"-

(2)

JJf\'i'l£'f§
=i=-1:,
It,

-e-J: '3 t::vi5:,'~l!l~ il!Ht 0 t-=:
il1')
I=:, tr L,0 RY:& V:::'::.!ll5
I:::{!{;

0*~$~-C~~~9«~c'ir,,0~±~90i'.1\,

$27~~,

-=j'-O)~i\\'t-~

7'.)!~:gil1')
Gh0 i~€i I: It, 'i&liJml';J:-'f-O)iffili't
~ ifrtGta:Ith Ii ta:Gta:vi c:JEil1')-C
l:::J::~ iffili't:fe'e;'O)#Jililtta:t,1v 0) cfPt-~h0.
s VJ, '/&.fr!
ffi=f=-7JO)Li2±'l.&ltt;tm-t0

c.::.c:ntc--e-ta:vi.

- 17 -

164a.

L,t-::7'.l!-:i
-C, W,~

27-FA-15-499

" .,

..

... ..
•

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

• •
""

. ..

~~T. ffl~'.iE~)~. &~&U=~~~~fflm~rrAO)~~$ttT~~~L
~-~~n~ML&~&U=~
~~~~ffl$$rrAO)m%~¥~~nlJffiLT,
\1J\
fJ:l,m~-r
G Z:.h~
illF_i]iJ{
~:)jt[J]lt:::i/3irrlT0;:. c:~(ift G, /)il,W1:0~nO)mfs-fi£
0,
g :::c:c:L, ct Jt ~ c:.:13IJ11-':'.iET

l!ZJ12lt 8 "'F1 fl 2 8 El

IE

J:

- 18 -

165a.

83

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

iJI!Jt281flJ=l28B

166a.

;l;;W'i:(iti) 11-001404

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

2015 (Ra) No. 1404 Case of appeal against a decision on a petition for the return of
child
(Court of prior instance: Osaka Family Court, 2015 (Ka-Nu) No. 7 to No. 10)
Decision
Nationality
Address

United States of America
6264, Merrimac Lane N, Maple Grove , MN
Appellant/respondent (petitioner in the prior instance)
Cook, James Edward, 2nd
(hereinafter referred to as the "Petitioner ")
Counsel
Ai Kuroda, attorney-at-law
Counsel
Masami Kittaka, attorney-at-law
Subagent
Yusuke Kono, attorney-at-law

egistered domicile
ddress

51, Iai 5-chome, Matsuyama City, Ehime Prefecture
27-5, Shoyodai 2-chome, Nara City
(as indicated in the written petition)
Appellant/respondent (respondent in the prior instance)
Hitomi Arimitsu
(hereinafter referred to as the "Respondent")
Counsel
Tomoko Kamikawa , attorney-at-law

ationality
egistered domicile
ddress
Child

United States of America and Japan
Same as that of the Respondent
Same as that of the Respondent
Arimitsu
(date ofbirth: December 5, 2002)
(hereinafter referred to as the "First Son")

ationality
egistered domicile
ddress
Child

United States of America and Japan
Same as that of the Respondent
Same as that of the Respondent
Arimitsu
(date of birth: December 5, 2002)
(hereinafter referred to as the "Second Son")

ationality
egistered domicile
ddress
Child

United States of America and Japan
Same as that of the Respondent
Same as that of the Respondent
Maya Arimitsu
(date of birth: February 13, 2008)
(hereinafter referred to as the "First Daughter")

ationality
egistered domicile
ddress

United States of America and Japan
Same as that of the Respondent
Same as that of the Respondent

167a.

27-FA-15-499

Child

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

Arimitsu
(date ofbirth: February 13, 2008)
(hereinafter referred to as the "Third Son")

Main text
1. Based on the appeal filed by the Petitioner, the second paragraph of the main text of
the decision in prior instance is revoked.
2. The Respondent shall return both the First Son and the Second Son to the United
States of America.
3. The appeal filed by the Respondent is dismissed.
4. Both parties shall bear their own costs for the proceedings in the prior instance and
the appellate instance.
Reasons
I. Object of Appeal
(Petitioner)
The Petitioner seeks a decision to the same effect as the first and second paragraphs
of the main text.
(Respondent)
The Respondent seeks a decision to the effect that:
1. The first paragraph of the main text of the decision in prior instance is revoked.
2. The petition filed by the Petitioner to seek the return of both the First Daughter and
the Third Son to the United States of America is dismissed.
II. Outline of the Case
(The abbreviations used in this decision are as defined in the decision in prior instance.
With regard to citing evidence, branch numbers of evidence carrying serial numbers
followed by branch numbers are omitted.)
In this case, the Petitioner, who is the father of the Children, seeks against the
Respondent, who is the mother of the Children, the return of the Children to the United
States of America (hereinafter the "United States") under the Act for Implementation of
he Convention on the Civil Aspects of International Child Abduction (hereinafter the
"Act"), on the grounds that the Respondent has been retaining the Children in Japan. In
esponse, the Respondent contends that the Children's state of habitual residence
(Article 2, item (v) of the Act) is not the United States, and refuses to return the
Children, on the grounds that: the Petitioner was not actually exercising the rights of
ustody at the time of commencement of the retention of the Children by the
espondent (Article 28, paragraph (1), item (ii) of the Act); the Petitioner had given
consent to or approval for the retention of the Children by the Respondent (item (iii) of
aid paragraph); the return of the Children could cause a "grave risk" to them (item (iv)
of said paragraph); and the Children are refusing to be returned (item (v) of said
aragraph).
The court of prior instance made a decision in which the petition concerning the
irst Son and the Second Son was found to be groundless and dismissed, whereas the
etition concerning the First Daughter and the Third Son was found to be well-grounded
d the Respondent was ordered to return them to the United States. Both parties filed
ppeals against the decision in prior instance.

2

168a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

1. With respect to the findings of fact, we hereby cite what is stated in the decision in
prior instance, Section II-1 in the "Reasons" part (from page 3, line 7 to page 17, line
5), making the following corrections (hereinafter referred to with the item number in
that section, as "Finding of Fact (l)" or the like).
(1) Replace the phrase "the Petitioner (US national) and the Respondent (Japanese
national)" in page 3, line 10 of the decision in prior instance, with "the Petitioner
(US national; born on May 2, 1966) and the Respondent (Japanese national; born
on July 16, 1971)," and the phrase "the Children (the First Son, Second Son, First
Daughter, and Third Son)" from line 11 to line 12 on the same page, with "the
Children (First Son (born on December 5, 2002), Second Son (born on the same
day), First Daughter (born on February 13, 2008), and Third Son (born on the
same day)."
(2) Replace the phrase "In said agreement document, it is stated that. .. " starting on
page 6, line 2 of the decision in prior instance and ending on line 5 on the same
page, with "Said agreement document (hereinafter referred to as the 'Agreement
Document') was prepared as a document under oath certified by a notary, and it is
stated therein that the Respondent understands that ... , and that if she fails to
comply with the Agreement, legal measures including relief measures may be
taken by the United States and international governments," and the phrase
"departed from the United States" on line 7 to line 8 on the same page, with
"departed from the United States and entered Japan around that time"; and before
the sentence starting with "On July 29, 2014" on line 17 on the same page, add
"After entering Japan, the Respondent and the Children have been living with the
grandparents at the grandparents' house located at the Respondent's address
indicated herein."
(3) At the end of page 7, line 15 of the decision in prior instance! add "In September
2014, the Children entered Doshisha International School, Kyoto (DISK)."
(4) Correct the part on page 8, line 24 of the decision in prior instance as follows:
"On October 19, 2015, in response to the petition filed by the Petitioner in said suit
(hereinafter referred to as the "Minnesota Case") with respect to the parental
authority over and the custody time of the Children, said court made a decision to
dismiss the Petitioner's petition, holding that a court of the State of Minnesota has
no jurisdiction over the petition concerning the parental authority over and the
custody time of the Children (hereinafter referred to as the "Minnesota Decision")
on the following grounds: under the law of the State of Minnesota, a court of this
State would have no jurisdiction unless the Children had been living in this State
for six months before the commencement of the proceeding, but at the time of the
commencement of the proceeding (on April 27, 2015, when the Respondent
received the service of the written petition), the Children were not living in this
State, and the period of their absence does not constitute the period of "temporary
absence," which is prescribed by law as being counted as part of the six-month
period (Exhibits Otsu 54 and 70)."
. With respect to the issues and the parties' allegations on the issues, we hereby cite
what is stated in the decision in prior instance, Sections II-2 and 3 of the "Reasons"
part (from page 17, line 6 to page 23, line 15), except for adding the summaries of
the reasons for appeal submitted by the parties below .
. The summaries of the reasons for appeal submitted by the parties are as follows.
3

169a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

( 1) Reasons for appeal submitted by the Petitioner
A. Issue 5 (Children's objection)
(a) In order to accept a child's objection to being returned (Article 28, paragraph
(1), item (v) of the Act) as the grounds for refusal of the return of the child, (i) it
is not sufficient for the child to merely state an objection to being returned: the
objection must be stronger than a mere hope for being with his/her parent who
has taken him/her or staying in the country where he/she is currently retained, or
a preference to the country where he/she is now; (ii) the objection must be to
being returned to the state of habitual residence, rather than to being returned to
the hands of the left-behind parent; and (iii) it must also be supported by
reasonable grounds. However, the investigation by the family court probation
officer of the court of prior instance (hereinafter referred to as the "investigation
by the probation office of the court of prior instance") was conducted without
the understanding of and consideration to the child's objection as explained
above.
Consequently, the results of the investigation by the probation officer of the
court of prior instance cannot be used as they are as the basis for adjudicating
this case, nor can it be found that any such objection that meets the requirements
mentioned in (i) to (iii) above has been expressed.
(b) The First Son and the Second Son (aged 12 years at the time of the
investigation) made statements to the probation officer of the court of prior
instance, without their cognitive capacity and ability to think being fully
developed, and while they were under the undue influence of the Respondent or
suffering from parental alienation. Therefore, in their statements, they took up
only the good things about and romanticized their living in Japan (mainly in the
special environment of their school, DISK), while taking up only the bad things
and diminishing their living in the United States. Also, they praised the
Respondent unconditionally but evaluated the Petitioner negatively from the
beginning to the end.
In this respect as well, the First Son and the Second Son's statements cannot be
regarded as the evidence of an objection that meets any of the requirements
mentioned in (i) to (iii) above having been expressed.
B. Issue 6 (Return by court's discretion)
Even where it is found that the First Son and the Second Son expressed
legitimate objections that may be argued as the grounds for refusal of their
return, given that (i) it is too much to say that their objections are objective ,
specific, absolute and strong objections supported by reasonable grounds, (ii) if
they return to the United States, they would be able to resume their living in the
environment that they have been accustomed to for a long period since they
were born, and (iii) since the court has ordered the return of the First Daughter
and the Third Son to the United States, the Respondent is expected to go back to
the United States accompanying them, therefore the court should exercise its
discretion to order that the First Son and the Second Son should also be returned
to the United States.
(2) Reasons for appeal submitted by the Respondent
A. Issue 1 (State of habitual residence)
(a) Method of identifying the habitual residence and the Children's state of
4

170a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

habitual residence
a. According to the court decisions made and the interpretation guidelines
adopted in the Contracting States, if a child moves from one place to another
for a period with no definite end based on an agreement between the parents,
the place to which the child has moved becomes the child's habitual residence
at the time of the move or shortly after that.
In the Agreement Document prepared before the Respondent and the
Children came to Japan, the Petitioner and the Respondent had agreed to
return the Children to the United States by August 29, 2014, but this is only a
provisional agreement and the parties had not determined any definite end of
the Children's stay in Japan. Rather, the parties and the Children had an
uncertain forecast regarding the end of the Children's stay in Japan, i.e. until
the Petitioner would find a job and would be able to return to his previous
living conditions. However, the Petitioner still received public assistance for
job placement that was available to persons with mental disabilities, and had
not put his plan to open a doughnut shop into effect. As for his living
conditions, the Petitioner was trying to sell his house because he was unable
to pay its loan. Thus, at the time when the Respondent and the Children came
to Japan, there was no prospect that their stay in Japan would end soon.
Also in light of the facts that before the Children came to Japan, the
Petitioner had applied for their admission to Osaka YMCA International
School and consulted with the Providence Academy regarding their long
absence from school, and that after the Children came to Japan, the Petitioner
helped the procedure for their admission to DISK as well as their school life
and after-school lessons (piano), the Petitioner did not expect that the
Children's stay in Japan would end soon. When the Children came to Japan,
they brought with them only their personal belongings , because the freight
would be costly if they brought more baggage and because it would be
rational to buy them new clothes in Japan as they were in the growing stage,
and that was not because the Petitioner expected that their stay in Japan would
end soon.
Thus, it should be said that the Children moved for a period with no definite
end, and hence the place to which they moved (their address indicated herein)
became their habitual residence at the time of the move or shortly after that.
b. Given that the place to which the Children moved (their address indicated
herein) is the house of their grandparents with whom they have kept in contact
since their early years, and that they made many friends soon after starting to
go to DISK and they like to go there, their address indicated herein had
become their habitual residence by September 2014, when they started to go
to DISK.
(b) Relationship with the Minnesota Decision
While bearing in mind the aspect of international jurisdiction and relying on
almost the same evidence as that produced in this case, the Minnesota Decision,
from the perspective of ensuring the Children's interests, concluded that the
Children's absence cannot be regarded as "temporary" and denied the State of
Minnesota's jurisdiction over the petition concerning the parental authority over
and custody of the Children. Hence, the Minnesota Decision should be taken
5

171a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

into account as a helpful reference in this case.
In addition, while a court of Japan is considered to have international
jurisdiction over the petition concerning the parental authority over and custody
of the Children, the Minnesota Decision already determined that the court of the
State of Minnesota does not have such jurisdiction. Under the law of the State of
Minnesota, this determination would not be reversed automatically only because
the Children are physically brought back into that State. In this respect as well, it
is erroneous to order the return of the Children to the United States on the
premise of the determination that their habitual residence is located in the United
States.
B. Issue 3 (Consent to retention)
(a) In cases where a child is moved from one place to another based on an
agreement between the parents, and either the father or the mother revokes the
agreement seeking the return of the child, the retention does not become
wrongful from that point on. There is no law that permits such unilateral
revocation of an agreement.
Consequently, in this case, the Children cannot be deemed to have been
wrongfully retained.
(b) The Petitioner faces difficulty in specifying the point in time when the
wrongful retention of the Children commenced. Although the Petitioner agreed
to have the Children stay in Japan until he would find a job and would be able to
return to his previous living conditions, he attempts to allege that the wrongful
retention of the Children commenced at the point in time when he revoked such
agreement unilaterally, and while he has been unable to decide for himself when
be has revoked the agreement, he seems to have fallen into difficulty in
specifying the day on which the wrongful retention commenced.
The Respondent's act of having the Children stay in Japan does not constitute
wrongful retention only because of the Petitioner's unilateral revocation of the
agreement.
C. Issue 4 (Grave risk)
(a) The Children would be separated if the petition concerning the First Son and
the Second Son is dismissed based on their objection and the return of the First
Daughter and the Third Son is ordered. Such separation could cause a "grave
risk" referred to in Article 28, paragraph (1), item (iv) of the Act, to the First
Daughter and the Third Son. This is clear from the court decisions made in other
countries.
If the First Son and the Second Son voluntarily go to the United States with a
view to avoiding the separation of the siblings, this would be considerably
detrimental to the interests of the First Son and the Second Son. Furthermore,
the inconvenience arising from the separation of the siblings cannot be avoided
by encouraging close interactions between them.
(b) The results of the investigation by the probation officer of the court of prior
instance as well as many items of documentary evidence clearly show that the
Petitioner behaves violently and aggressively against the Children and that the
Petitioner has mental disabilities, and this also demonstrates the existence of a
"grave risk."

6

172a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

III. Court's Decision
1. Children's state of habitual residence (Issue 1)
(I) The "state of habitual residence" refers to a state where a child held his/her
habitual residence at the time of his/her removal or immediately before the
commencement of his/her retention (Article 2, item (v) of the Act), and a person's
"habitual residence" is interpreted as meaning a place where the person lives
habitually or for a considerably long period of time. According to Finding of Fact
(2), it is found that the Children's habitual residence had been the Petitioner's
address indicated herein (hereinafter referred to as the "Father's house") until they
departed from the United States on July 13, 2014.
"Retention" refers to a situation where, after his/her departure from the state
where he/she holds his/her habitual residence, a child is prevented from traveling
to said state (Article 2, item (iv) of the Act). According to Finding of Fact (4) and
(7), it is found that after departing from the United States on July 13, 2014, until
today, the Children have been living at the Respondent's address indicated herein
(hereinafter referred to as the "Grandparents' house") in Japan, and that the
Children are currently prevented from traveling to the United States and thus they
are being retained (whether this situation constitutes the retention by the
Respondent that violates the Petitioner's rights of custody will be determined later.)
(2) In order to determine the Children's state of habitual residence, (i) it is necessary
to identify whether the Children, immediately before the commencement of their
retention, held their habitual residence in the United States or in Japan (which of
these countries is the Children's state of habitual residence), and as a
presupposition of this point, (ii) it is also necessary to identify when the Children's
retention commenced. Accordingly, we consider point (ii) first, and then point (i).
A. Time of commencement of the Children's retention
In this case, the Children's retention should be held to have commenced at the
point in time when the Respondent, who has been taking custody of the Children
since their departure from the United States, can objectively be found to have
expressed the intention to prevent the Children from traveling to the United States.
According to the findings of fact mentioned in II-1 above: on July 13, 2014, the
Respondent departed from the United States taking the Children with her with the
Petitioner's consent, and entered Japan around that time (Finding of Fact 1(3) D);
in the Agreement Document prepared before their departure as a document under
oath certified by a notary, the parties agreed that the Children would be returned to
the United States by August 29, 2014 and that the date of their return may be
changed by agreement between the parties (Finding of Fact 1(3) C); around midAugust 2014, the parties agreed to have the Children continue to stay in Japan "for
a while" or "little longer" after the pre-agreed time limit (August 29, 2014)
(Finding of Fact 1(4) D); in September 2014, the Petitioner made a proposal to the
Respondent to have the Children returned to the United States in late December
2014 , and in response, the Respondent did not make an objection to this proposal
but told the Petitioner that she wished to have the Children go to school in Japan
until around May to June 2015, which the Petitioner did not consent to (Finding of
Fact 1(7) A to C); since January 2015, the Petitioner had not actively requested the
Respondent to return the Children but behaved as if he approved the Children
continuing to stay in Japan during February 2015 (Finding of Fact 1(7) D and E);
7

173a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

on March 10, 2015, the Petitioner requested the Respondent to make arrangements
for the Children's return to the United States, but the Respondent refused to do so
(Finding of Fact 1(7) F). According to these facts, it is found that the Respondent
expressed to the Petitioner the intention to prevent the Children from traveling to
the United States around March 10, 2015 , and therefore it should be determined
that the Children's retention commenced as of that day.
B. State of habitual residence
As mentioned in A. above, the Children's retention commenced on March 10,
2015. Next, we consider whether the Children, immediat ely before the
commencement of their retention, held their habitual residence in the United States
or in Japan.
We first consider whether the Children's habitual residence had been changed
from the Father 's house in the United States to Japan (the Grandparents' house) at
time of their departure from the United States on July 13, 2014, or shortly after
that. According to the findings of facts mentioned in II-1 above: before the
Children's departure from the United States, the Respondent agreed in the
Agreement Document to understand that the end of the Children's stay in Japan
may be changed by agreement between the parties but no later than August 29,
2014, and that if the Respondent fails to comply with the Agreement, legal
measures including relief measures may be taken by the United States and
international governments (Finding of Fact (3) C); when the Children departed
from the United States, they brought with them only their personal belongings
(Finding of Fact (3) D); the parties explained to the Children that they would stay
in Japan until the Petitioner had found a job, and the Second Son thought that they
would stay in Japan for about one month (Finding of Fact (3) D). According to
these facts, when the Children departed from the United States on July 13, 2014,
they were expected to stay in Japan until August 29, 2014, and then return to the
United States, and hence, it is not found that the Children's habitual residence had
been changed from the Father's house in the United States to Japan (the
Grandparents' house) at the time of their departure from the United States or
shortly after that.
We next consider whether the Children's habitual residence had been changed to
the Grandparents' house in Japan during the period from their entry into Japan until
the commencement of their retention (March 10, 2015) . According to the findings
of fact II-1 mentioned above, it is found that the Children stayed at the
Grandparents ' house in Japan for about eight months, from mid-July 2014, until the
date of commencement of their retention (March 10, 2015). Also, the Children
lived in Japan for the purpose of staying in Japan for a limited period until August
29, 2014, based on the agreement by the parties in the Agreement Document;
around mid-August 2014, the parties agreed to have the Children continue to stay
in Japan for a period after August 29, 2014 , but then in mid-September 2014, the
Petitioner requested the Respondent to return the Children to the United States
before the Christmas in 2014; in response, the Respondent expressed the intention
to have the Children go to school in Japan until around May to June 2015, which
the Petitioner did not consent to. Given these facts, although the period of the
Children's stay in Japan had been extended beyond the pre-agreed time limit
(August 29, 2014), it is not found that the purpose for which they lived in Japan ,

8

174a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

i.e. staying in Japan for a limited period, in itself had been changed. Taking all
these facts into consideration, the Children have lived in the Grandparents' house
for as long as about eight months, and during this period, they entered school in
Japan (DISK) and became accustomed to living in Japan, but they lived in Japan
for the purpose of staying in Japan for a limited period and they were expected
return to the United States after the end of that period, which was around the end of
December 2014 as agreed by the parties, and accordingly, it is not found that the
Children's habitual residence had been changed from the Father's house in the
United States to the Grandparents' house in Japan. Even taking into account the
facts that there seems to be no prospect yet for the Petitioner to find a job and
rebuild his family's life in the United States (Finding of Fact (3) D, (4) D), and that
the Petitioner helped the procedure for the Children's admission to DISK (Finding
of Fact (4) D), such facts do not affect the determination given above.
Thus, it is found that the Children, immediately before the commencement of
their retention, held their habitual residence in the United States.
The Respondent raises an issue as to which court has jurisdiction over the
custody of the Children. The "habitual residence" referred to in the Act is different
from "domicile" or other concepts based on which a court's jurisdiction is
determined. Therefore, even though, as ruled in the Minnesota Decision, a court of
the State of Minnesota, at the time of the commencement of the proceeding (April
27, 2015), bad no jurisdiction over the petition filed in the Minnesota Case
concerning the parental authority over and the custody time of the Children, this
does not affect the determination on the Children's state of habitual residence given
above.
2. Grounds for return
In connection with the grounds for the return of a child prescribed in the items of
Article 27 of the Act, according to the findings of fact mentioned above: the Children
have not attained the age of 16 (item (i)); the Children are located in Japan (item (ii));
pursuant to the laws or regulations of the state of habitual residence, i.e. the United
States (the State of Minnesota), the rights of custody of the Children are attributed to the
Petitioner and the retention of the Children by the Respondent breaches the Petitioner's
rights of custody of the Children (item (iii)); and at the time of the commencement of
the retention of the Children by the Respondent, the state of habitual residence, i.e. the
United States, was a Contracting State (item (iv)).
Thus, in this case, the requirements prescribed in the items of Article 27 of the Act as
the grounds for the return of a child are met.
3. Grounds for refusal ofreturn
( 1) Failure to exercise the rights of custody (Issue 2)
With respect to the fact that the Petitioner is not found to not be exercising the
rights of custody over the Children, we hereby cite what is stated in the decision in
prior instance, Section III-2(2) of the "Reasons" part (from page 25, line 3 to line 13).
(2) Consent to retention (Issue 3)
The Respondent argues that when the Children departed from the United States,
they were expected to stay in Japan for a considerably long period and that the
Petitioner consented to their retention by the Respondent.
However, according to the aforementioned findings: based on the agreement by the
parties in the Agreement Document , the Children were to stay in Japan for a limited
9

175a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

period until August 29, 2014, but around mid-August 2014, the parties agreed to have
the Children continue to stay in Japan for a period after August 29, 2014, and then in
mid-September 2014, the Petitioner requested the Respondent to return the Children
to the United States before the Christmas in 2014; in response, the Respondent
expressed to the Petitioner the intention to have the Children go to school in Japan
until around May to June 2015, which the Petitioner did not consent to. Accordingly,
it is not found that the Petitioner consented to the retention of the Children by the
Respondent that commenced on March 10, 2015.
In January 2015, the Petitioner sent emails to the Respondent to discuss bis
visitation and contact with the Children and the Children's ski trip in February 2015,
on the premise that the Children were staying in Japan (Finding of Fact (7) D and E).
However, this can be construed as evidence that the Petitioner exercised the rights of
custody over the Children under the circumstances where the Children were actually
living in Japan, and it does not affect the findings given above.
Consequently, the Respondent's argument mentioned above cannot be accepted, and
the grounds for refusal of return prescribed in Article 28, paragraph (1), item (iii) of
the Act are not found in this case.
(3) Grave risk (Issue 4)
A. The "grave risk" referred to in Article 28, paragraph (I), item (iv) of the Act is
interpreted as meaning that the nature of the risk that may be caused by placing a
child into an unbearable situation is grave. In this case, given that the Children
bad lived in the State of Minnesota, the United States, since they were born, and
their living conditions during this period do not seem to have been unbearable to
them when viewed objectively, and that no circumstances preventing the
Respondent from traveling to the United States accompanying the Children can
objectively be found, it is difficult to presume that there is an objective
likelihood that such grave risk would be caused to the Children if they return to
the United States.
B. The Respondent argues that the Petitioner is mentally unstable and that there is
a danger of him killing the Children and that when the Petitioner gets excited, he
becomes violent to the Children, posing a danger to them.
In this respect, it is found that when living with the Children, the Petitioner
had economic problems, committed adultery, became mentally unstable and took
a violent attitude toward the Children (Finding of Fact (2) A, B, and D), but it is
going too far to say that the Petitioner was suffering constant mental instability.
Also in light of the facts that before the Children departed from the United
States, the Petitioner had gone out and spent a peaceful time with them (Exhibit
Ko No. 44), that immediately after the Children's arrival in Japan, the Petitioner
kept in contact with them on FaceTime without problems (Finding of Fact (5)
A), and that there is no evidence to support that when the Petitioner met with the
Children in Japan in October 2014 (Finding of Fact (5) B), he took an aggressive
attitude toward them, the Petitioner is not found to have had an aggressive
attitude toward them on a daily basis. Apart from this, there is no appropriate
evidence to find the facts argued by the Respondent.
Consequently, the Respondent's argument mentioned above cannot be
accepted.
C. The Respondent further argues that the following circumstances also constitute

176a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

grave risk to the Children: for lack of money on the part of the Petitioner, the
Father's house might be put up for an auction and sold off at any moment; the
Children are no longer able to go back to the Providence Academy, which is a
private school, and because they would have to go to a public school, where they
might not be included in neither a group of Asian residents nor a group of white
residents for being half Japanese and half American, they would be at high risk
of suffering discrimination or bullying.
However, as long as no such circumstances that prevent the Respondent from
traveling to the United States accompanying the Children can objectively be
found in this case, the return of the Children to the United States does not
necessarily means that they would be living with the Petitioner. Also, there is no
appropriate evidence demonstrating that the Children faced any specific problem
arising from bullying or discrimination while growing up in the State of
Minnesota, the United States, since they were born. Consequently, the
Respondent's argument mentioned above cannot be accepted.
D. Even taking into consideration other arguments made by the Respondent (e.g.
convenience for receiving therapy), it is not found that the return of the Children
to the United States would harm the Children physically or mentally or cause a
grave risk to them.
As explained later, this court determines that all of the four Chi1dren should be
returned to the United States, and hence it is not necessary to make any
determination as to the Respondent's argument regarding a grave risk that may
be caused by the separation of them.
(4) Children's objection (Issue 5)
This court determines that the grounds for refusal of return prescribed in Article 28,
paragraph (1), item (v) of the Act exist with regard to the First Son and the Second Son,
while said grounds do not exist with regard to the First Daughter and the Third Son. As
for the reasons for this determination, we hereby cite what is stated in the decision in
prior instance, Section 11-2(5) of the "Reasons" part (from page 27, line 16 to page 30,
line 18).
Against this, the Petitioner argues that the investigation of the Children's intention
conducted by the probation officer of the court of prior instance was defective.
However, the examination of the case records does not suggest any such defects as
argued by the Petitioner on the part of the probation officer. The Petitioner also argues
hat the statements of the First Son and the Second Son to the probation officer were
ade without their cognitive capacity and ability to think being fully developed, and
hile they were under the undue influence of the Respondent. However, at the time of
esponding to the investigation by the probation officer, the First Son and Second Son
ere matured enough for their age (12 years and 9 months), and it is found that they
stated their own opinions to the probation officer, keeping a certain distance from both
e Petitioner's and the Respondent's ideas. Given this, what the First Son and the
Second Son stated do not seem to have been under the undue influence of the
Respondent. Consequently, neither of the Petitioner's arguments can be accepted .
. Whether any grounds for refusal of return exist with regard to the First Son and the
Second Son (Issue 6)
(l) As mentioned in 3(4) above, it is found that the First Son and the Second Son
refused to be returned to the United States, and thus the grounds for refusal of

11

177a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

return prescribed in Article 28, paragraph (1), item (v) of the Act exist with regard
to them. The First Son and the Second Son have already lived in Japan for more
than one year and have accustomed to living in Japan while going to DISK (since
September 2014) and making new friends , and it is uncertain whether, after being
returned to the United States, they would be able to restore their school life and
family life as they had had before. Insofar as these matters are concerned , it is not
deemed to serve the interests of the First Son and the Second Son to have them
returned to the United States. However, since the grounds for refusal of return
prescribed in said item do not exist with regard to the First Daughter and the Third
Son (as mentioned in 3 above) and this court therefore needs to order their return
to the United States, if this court dismisses the petition concerning the First Son
and the Second Son, this would necessarily separate the Children and it is highly
likely to result in the situation where judicial proceedings relating to the custody
of the Children are pending separately in the United States (for the First Daughter
and the Third Son) and in Japan (for the First Son and the Second Son).
Therefore, it is necessary to consider whether it serves the interests of the First
Son and the Second Son for this court to order their return to the United States
with a view to avoiding such situation .
First, focusing on the judicial proceedings, since the four Children have grown
together and seem to be bound with one another by strong psychological ties , it
would serve the interests of the First Son and the Second Son if an investigation is
conducted for all of the four Children during the same judicial proceedings
(according to the Minnesota Decision (Exhibit Otsu No. 54), an "evaluator" is
expected to make an evaluation from the perspective of forensic science during the
proceedings before a court of said State) and determination on the terms of the
custody of the Children is made based on the results of such investigation. Given
that the First Son and the Second Son use English as their mother tongue, are
accustomed to the American lifestyle and way of thinking since they were born ,
and that they are capable enough to state their own opinions during the judicial
proceedings in the United States, it seems to serve the interests of the First Son and
the Second Son to state their own opinions during the judicial proceedings before a
court of the State of Minnesota and thereby receive a court decision concerning the
four Children.
Next, as for the impact of the separation of the Children, since the First Son and
the Second Son are 13 years and l month old and the First Daughter and the Third
Son are 7 years and 11 months old and thus they are all still in the growing stage, if
they are separated now, it would have serious adverse emotional and psychological
effects on them. Furthermore, as this court orders the return of the First Daughter
and the Third Son to the United States, it is sufficiently likely that the Respondent
will also return to the United States accompanying them, and in that case, it is not
necessarily appropriate to leave the First Son and the Second Son in the hands of
the persons assisting the Respondent's with their care (the Children's grandparents).
Taking all these circumstances into consideration, it should be determined that, as
provided in the proviso to Article 28, paragraph (1) of the Act, even where the
grounds prescribed in item (v) of said paragraph exist with regard to the First Son
and the Second Son, it serves the interests of the First Son and the Second Son to
have them returned to the United States, their state of habitual residence.

12

178a.

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

Accordingly, pursuant to the proviso to Article 28, paragraph (I) of the Act, this
court orders the return of the First Son and the Second Son to the United States.
(2) The Respondent argues that in order to avoid the separation of the Children, the
court should rather dismiss the petition concerning the First Daughter and the
Third Son. However, Article 27 of the Act provides that the court shall order the
return of a child if it finds any grounds for the return of the child, which is
interpreted as allowing no room for the court's discretion to refuse the return of
the child. Consequently, the Respondent's argument mentioned above cannot be
accepted.
5. Conclusion
For the reasons given above, it is appropriate to order the Respondent to return all of
the Children to the United States.
Therefore, based on the Petitioner's appeal, we revoke the decision in prior instance
with respect to the part that dismissed the petition concerning the First Son and the
Second Son, and order the Respondent to return the First Son and the Second Son to the
United States, while dismissing the Respondent's appeal due to lack of grounds, and
thereby render the decision as indicated in the main text.
January 28, 2016
Osaka High Court, 9th Civil Division
Presiding Judge
Junichi Kaneda
Judge
Yoshinori Tanaka
Judge
Takuya Ueda

13

179a.

27-FA-15-499

This is an authenticated copy.

January 28, 2016
Osaka District Court, 9th Civil Division
Court Clerk

Tomoe Miyake

14

180a.

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

27-FA-15-499

Filed in Fourth Judicial District Court
9/27/2016 4:56:38 PM
Hennepin County, MN

July 28, 2016

Certification of Translation

.sfJ5x:
2 7 '¥ C7) ffi 1
~!,R

(~ffl)

~'i, ~*

4

o 4 % -=f0)~~$

(S*!!)

:v:-n.:
~v ,--z-L tc{R:tf ~-=-~-t
~m~~{tj=O)

O)P'J?f¥~t§~ftv"tO)--Z:&J~::_~~!iE~L~To

We hereby certify that, to the best of our knowledge, the translation
No. 1404 Case of appeal against

a decision on a petition

of the "2015 (Ra)

for the return

of child"

(English version) is identical to the original copy (Japanese version).

f5K:i:t~t± .:r: 7 -7 v-- v :1/
{i:*I&rriH~
aJII~~
Erklaren

Ltd.

JfO~l~~ lR~t& 3 - 4 - 4
Senshu Akasaka

6F

Bldg. 6F,

4-4, Akasaka 3-chome,
Minato·ku,

Tokyo, 107-0052, Japan
Tel: 03-3586·4454
Fax: 03-3586·4590

181a.

STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN
FOURTH JUDICIAL DISTRICT
________________________________________________________________________
In re the Marriage of:

File No. 27 FA-15-499

James Edward Cook II,
Petitioner,
and

ORDER

Hitomi Arimitsu,
Respondent.
________________________________________________________________________
The above-entitled matter came on before me on or about October 9, 2015.
Nancy Zalusky Berg, Esq. appeared on behalf of Petitioner and Drake D. Metzger, Esq.
appeared on behalf of Respondent. Both parties briefed the issue of subject matter
jurisdiction and filed factual affidavits. Based on the submissions, the specific portions
of the record discussed herein, and the Memorandum attached hereto I issue my order as
follows:
1.

Minnesota is not the children’s home state and Minnesota does not have

subject matter jurisdiction to address custody and parenting time regarding the parties’
children. The custody and parenting time prayers for relief in the parties’ pleadings are
stricken.

_____________________
Judge of the District Court

182a.

File #27-FA-15-499
MEMORANDUM
The question before me today is whether Minnesota has subject matter
jurisdiction to determine custody and parenting time regarding the parties’ minor
children. Respondent was served with the Summons and Petition to dissolve the parties’
marriage when her attorney accepted service on her behalf on April 27, 2015. The
Petition alleged that Petitioner had resided in Minnesota for the requisite 180 days but did
not allege that the children had resided in Minnesota for 180 days immediately preceding
the commencement of the action or that Minnesota was the proper jurisdiction to issue an
initial custody/parenting time order under Minnesota Statutes chapter 518D.
Respondent interposed an Answer and Counterpetition that did not challenge
Minnesota’s jurisdiction to issue an initial custody/parenting time order and instead
prayed for an award of sole physical custody and joint legal custody.
I read the parties’ pleadings in preparation of the impending Initial Case
Management Conference (ICMC) and noticed Respondent’s allegation that the children
had been living in Japan since the summer of 2014 “per the agreement of both parties.”
This allegation suggested to me that Minnesota might not be the children’s home state for
UCJEA purposes. I raised my concerns regarding subject matter jurisdiction during the
ICMC and asked whether the parties wished to brief the issue. I did so because lack of
subject matter jurisdiction is not waived if left out of an answer or motion. Rule 12.08(c)
states that, “Whenever it appears by suggestion of the parties or otherwise that the court
lacks jurisdiction of the subject matter, the court shall dismiss the action.” It is generally
recognized that keeping children in the middle of a long custody battle is inconsistent

183a.

with their best interests and I was concerned that deferring the subject matter jurisdiction
issue until later could extend the custody dispute. That is why I raised the issue.
Susan M. Gallagher, Esq. represented Petitioner at the ICMC, but Petitioner chose
to switch counsel thereafter and Nancy Zalusky Berg, Esq. was substituted as Petitioner’s
counsel on August 10, 2015. Ms. Berg wrote to me on August 20, 2015, indicating that
she wished to brief the subject matter jurisdiction issue and then my clerk arranged a
briefing schedule. Both parties submitted briefs and affidavits and thus the issue was
joined.
Petitioner does not deny that the children had been living with Petitioner in Japan
since the summer of 2014, which means that sans some nuance that had not yet presented
itself, Minnesota would not qualify as the children’s home state for purposes of
Minnesota Statutes sections 518D.102(h) and 518D.201(a)(1).
Petitioner argues that Minnesota is the children’s home state because the period
during which they were living in Japan (summer 2014 through April 2015) qualifies as a
“temporary absence” for section 518D.102(h) purposes. I have presided over numerous
cases in which children lived in Minnesota when a dissolution/custody action was
commenced, had not lived here for the entire six month period immediately preceding the
actions, had been living somewhere else for a few days or weeks during that six month
period, but returned before the custody action began. It is easy to comprehend how a few
days or weeks or even a couple months away from Minnesota during the six months
immediately preceding a custody action might qualify as a “temporary absence.” The fact
that the children involved in such cases lived in Minnesota prior to leaving and returned

184a.

to Minnesota before the subject actions commenced made their absences consistent with
the operative adjective “temporary.”
The circumstances of this case do not easily match up with the phrase “temporary
absence.” The children left for Japan in summer 2014, enrolled in a Japanese school with
Petitioner’s approval, and remained in Japan attending their Japanese school until almost
the entire 2014/2015 school year had run its course before Petitioner commenced this
action in late April 2015. These facts do not suggest to a reasonable observer that the
children living in Japan for almost a year before this action commenced represented a
temporary hiatus.
I will address the legal arguments advanced by the parties in support of their
competing positions, but before doing so I should remind counsel that “The court’s
‘paramount consideration’ in all matters involving court established relationships of a
child is the best interests of the child. Olson v. Olson, 534 N.W.2d 547, 549 (Minn.
1995).” LaChapelle v. Mitten, 607 N.W.2d 151, 158 (Minn. App. 2000). If this
“temporary absence” issue allows for more than one legitimate answer, it would not be
inconsistent for this court to consider the manner in which two competing, legitimate
answers might have a negative impact on the children.
Petitioner adduces the parties‘ July 8, 2014 Agreement in support of his
contention that the children’s living arrangements in Japan were “temporary.” The
Agreement states that Respondent would be bringing the children to Japan for vacation
but would be returning them to Minnesota no later than August 29, 2014. This language
certainly suggests that the parties initially intended the children’s Japan adventure to be a
vacation, which would make the summer 2014 hiatus from Minnesota qualify as a

185a.

“temporary absence.” However, Petitioner argues in his Memorandum that my focus
should not be on the parents’ intent because “the parties’ intent is not relevant to the
children’s home state analysis.” (Petitioner’s Memorandum p. 3). I do not agree with this
contention that the parties’ intent is not relevant to the analysis and simply adduced this
portion of Petitioner’s Memorandum to point out his inconsistent positions regarding the
role of the parties’ intent (see his intent arguments discussed later herein).
Respondent attacks the binding nature of the July 2014 Agreement by arguing that
she was coerced into signing the document – a contention strongly denied by Petitioner.
Whether Respondent was coerced into signing the Agreement represents the type of
factual issue that cannot be resolved by affidavit analysis alone, but I can resolve the
jurisdiction without delving into the merits of Respondent’s coercion claim. The reasons
why I need not resolve the coercion claim all involve undisputed facts.
I will start by assuming that both parties intended the children’s Japan adventure
to be a vacation, but this assumption necessarily requires me to assume as well that both
parties anticipated the children would return to Minnesota by August 29, 2014. When the
children did not return as anticipated but remained in Japan past the due date, it becomes
legitimate for me to examine the circumstances surrounding the children’s extended stay
in Japan. My examination into such circumstances should help me determine whether the
children’s absence from Minnesota changed character from “temporary” to something
else. With that context in mind, a few facts jump out at me as key.
First, Petitioner’s and Respondent’s actions after August 29th suggest that they
agreed to modify the terms of the Agreement or ignore it all together. Petitioner admits
as much when he avers that, “In mid-August I agreed that the children could stay in Japan

186a.

with Hitomi for a while longer, but I never agreed for the children to stay indefinitely.”
(Affidavit ¶ 14). The key point is not the duration of the agreed upon additional stay in
Japan but rather Petitioner’s agreement that Respondent was no longer bound by her
agreement to return the children to Minnesota by August 29, 2015. Petitioner’s
agreement not to abide by the August 29th deadline renders less germane Respondent’s
assertion that she had been coerced into accepting that August 29th return date.
Second, Petitioner’s agreement to allow the children to stay in Japan a “little
while longer” than the original August 29th return had practical ramifications. It
necessarily meant that the children would be enrolling in school in Japan or, at the very
least, returning to Minnesota at an indefinite time in the future and starting school late in
Minnesota. Since it is logical to assume/infer that Petitioner would not want the children
to return to Minnesota too late to start school on a timely basis merely to extend a
vacation that had already lasted almost two months, it is also logical to assume/infer that
Petitioner was receptive to the children’s Japan adventure morphing from a vacation to
one that would last at least as long as the 2014/2015 school term in Japan. Consistent
with my assumption/inference here, Petitioner signed a document approving the
children’s enrollment in a Japanese school. He tries to put a positive spin on that
approval by noting that he signed the document allowing them to enroll in a Japanese
school before the July 2014 Agreement, thus making the terms of the Agreement
representative of his intent. However, the children were later reenrolled in a different
Japanese school when the first one failed to meet the parties’ expectations and this new
enrollment occurred not only after the July 2014 Agreement but after Petitioner’s “while
longer” extension had run its course.

187a.

Third, I will assume for purposes of analysis that Petitioner’s agreement to allow
the children to remain in Japan for a “while longer” was limited to a few days or a couple
weeks at most, but if that were the case, I would have expected Petitioner to seek court
help in securing the children’s return to Minnesota when they did not return a “while”
after August 29th. He did no such thing and his failure to take remedial action in late
September/early October suggests that a “while longer” had morphed into many months
longer. This nuance is one in which consideration of the children’s best interests comes
into play. The longer Petitioner sat on the side lines and did nothing to compel the
children’s return to Minnesota, the more time he afforded them to develop friendships in
Japan, grow accustomed to their new school, and become integrated in their new
community. Court action to compel the children’s return to Minnesota in late
September/early October 2014 would have been far less disruptive and potentially
traumatic to the children than his spring 2015 resort to court action. 1 Even more
revealing, instead of taking court action to secure the children’s return during late
September/early October, Petitioner traveled to Japan to visit the children in October,
including a trip to Disneyland in Tokyo.
Fourth, Respondent avers that the parties began talking about her moving to Japan
in spring 2014. Petitioner does not dispute this averment but takes issue with
Respondent’s version of the reasons that prompted the spring discussion. I need not
determine whether the reasons listed by Respondent were in fact the reasons. Rather,
what is important to my analysis is the fact that the parties began filling out school
applications for Japan in June. Indeed school applications for the YMCA school in Japan
were signed and dated on June 25, 2014, two weeks before the Agreement. Also helpful
1

Such prompt remedial action also would have made the two month hiatus appear temporary in nature.

188a.

is Respondent’s unchallenged averment that Petitioner purchased an iPad for the children
so he could Facetime with them after they moved to Japan. Such action is inconsistent
with Petitioner’s assertion that he only agreed to have the children go to Japan for a
summer vacation.
Fifth, the parties listed their Minnesota home for sale in May 2014. To a
reasonable observer this action certainly suggests at the very least that the parties no
longer intended to keep continuity in the children’s Minnesota home and surroundings.
Petitioner places a spin on this listing by arguing that it was done purely to “cash out”
equity. Petitioner conveniently resorts to his subjective intent regarding the listing
agreement, but also argues in his Memorandum that either party’s subjective intent is not
germane to the inquiry. He cannot have it both ways. If objective intent should be my
charge then I should be consistent and I agree with Respondent that Petitioner’s actions in
listing the house for sale were consistent with the Respondent’s view that the status quo
was changing. I also agree that Petitioner’s actions after the Agreement was signed are
consistent with Respondent’s view that Petitioner agreed to have the children remain in
Japan far longer than a “while” after August 29, 2015. Indeed, Petitioner’s objective
manifestation of assent to having the children start school in Japan and remain there until
they were integrated into their new school, home, and community and made new friends
looks to me like the children’s “absence” from Minnesota ceased to be a temporary
absence even if it could have been labeled as temporary in the beginning.
I should return to the children’s best interests at this juncture in the analysis. If I
determine that Minnesota is the children’s home state despite the fact that they remained
in Japan for the entire 2014/2015 school year and have commenced the 2015/2016 school

189a.

year in Japan it would mean that Minnesota would retain jurisdiction over the children
until they emancipate (or until Minnesota later defers to another jurisdiction based on
facts that occur in the future). I have deep concerns regarding how I would acquire the
forensic help necessary to determine custody/parenting time today and in the future.
Hennepin County Family Court Services will not perform a custody/parenting time
evaluation with the children living in Japan. I’ve been presiding over Family Court cases
since 1997 and I am unaware of an evaluator that would travel back and forth to Japan to
perform a private analysis or how the parties would be able to pay for it if such a person
existed and able to perform the task. Assuming that a Minnesota court could overcome
such practical obstacles, I have serious concerns regarding how a Minnesota court would
be able to address post-decree motions to modify custody and/or parenting time if the
children remained in Japan.
I understand that a parent should not be able to resort to self-help, flee to a foreign
country, and use the practical problems created by that flight to gain the upper hand in a
custody/parenting time dispute. However, neither should a parent remaining in
Minnesota be able to sit on his/her hands and do nothing until the duration of the
children’s hiatus from Minnesota either creates or contributes to such practical problems.
Had Petitioner taken action a “little while” after the original August 29, 2014 return date,
the forensic problems to which I have alluded would not be so great. The distance
required for either party to travel to Japan or Minnesota for court would have remained
the same, but many of the difficulties with a custody/parenting time evaluation would
have been reduced. If Petitioner had sought court help a “little while” after August 29,
2014, the children would not yet have been integrated into their Japanese school and

190a.

community, the children would not have made new friends, and the children’s bonds with
their Japanese relatives would not have grown commensurate with their stay in Japan. In
fact, had Petitioner insisted on the August 29, 2014 return date and not agreed to have the
children stay a “while longer” and/or enroll in a Japanese school, the chances would have
been good if not great that he could have procured injunctive relief based on the July
2014 Agreement alone (but would have brought Respondent’s coercion claim into play).
Equity aids the vigilant and Petitioner was anything but vigilant in seeking to enforce the
2014 Agreement. Although these observations should not be the be all and end all of the
discussion here, they add to the analysis by suggesting a practical best interest reason not
to unduly extend the “temporary absence” caveat of sections 518D.102(h) and
518D.201(a)(1) to the situation at hand.
Based on the foregoing analysis of undisputed facts, I cannot find that the
children’s absence from Minnesota from July 2014 through the April 2015
commencement of this custody case qualifies as a “temporary absence” for chapter 518D
purposes.
JTS

191a.

flLI!
STATE OF MINNESOTA
IN SUPREME COURT

July 21, 2020

· ·Of
0
Anw.uEC ,

n

Al9-1235

In re the Marriage of:

James Edward Cook, II, petitioner,
Respondent,
vs.
Hitomi Arimitsu,
Petitioner.

ORDER
Based upon all the files, records, and proceedings herein,
IT IS HEREBY ORDERED that the petition of Hitomi Arimitsu for further review
be, and the same is, denied.
Dated: July 21, 2020

192a.

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

lN CA DA'f I De dircctic Prcvcntie, opt redeud voor zichzelf en namcns Y (the father) aga inst X (the mot her) (7 Fcbnmry 2001, ELRO nr.AA985 I . ..

CaseLawSearchNew search
CASE Downloadfull text EN0
CaseName De directie Preventie,optredendvoor .zichzelf en namensV (the father) against X
(the mother) (7 February2001, ELROnr.AA9851Zaaknr:813-H-00)
INCADATreference HC/E/NL314

Court

Country

NETHERLANDS
- KINGDOM
IN EUROPE

Name

Gerechtshof's-Gravenhage

Level

AppellateCourt

Judge(s)

VandenWildenberg,
DeBruijn-Luckers,Labohm

Statesinvolved Requesting

CANADA

State
Requested

NETHERLANDS
- KINGDOM
IN EUROPE

State

Decision Date

7 February2001

Status

Final

Grounds

s
Rightsof Custody- Art. 3 I GraveRisk - Art. 13(1)(b) I Objection
of the Childto a Return- Art. 13(2)

Order
HCarticle(s)

Appealdismissed,returnrefused
3 13(1)(b) 13(2)

Considered
HCarticle(s)

13(2)

ReliedUpon
Other
provisions
AuthoritiesI
Casesreferred
to
Published
in

INCADAT
comment•
hllps://www .incadat.com/en/case/3 I 4

http://www.hcch.net/incadat/fullcase/03l 4.h

Article12 ReturnMechanism
193a.

EXHIBIT

27-FA-15-499

10/23/201 8

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

lNCADAT I De directie Preventie , op1redcnd voor zic hzclf en namens Y (the father) against X (t"l1emother) (7 Februar y 200 L, ELRO nr.AA9851 .••

Whatis a Rightof Custodyfor ConventionPurposes?

Rightsof Custody

AutonomousInterpretationof 'Rightsof Custody'And
'Wrongfulness'

Exceptions
to Return
PrimaryCarerAbductions

GraveRiskof Harm

EconomicFactors
NatureandStrengthof Objection

Child'sObject
ion

Exerciseof Discretion

SUMMARY Summaryavailablein EN I FR I ES
Facts Thechild,a boy,was 9 1/2 at the dateof the allegedwrongfulremoval.Hehadlived in
Canadaall his life. Theparentsseparatedin 1994. Subsequently,
the motherwas
awardedcustodyandthe father access.
On 19 October1999the motherpetitioneda Quebeccourt for a changein the access
regime.On1 June 2000shesignedan agreementnot to leaveCanadabeforea decision
was made. On5 June2000the mothertook the boyto Holland.
Uuvenilejudge) refusedto orderthe
On20 October2000the Rechtbank's-Gravenhage
returnof the boy.TheCentralAuthorityandthe father appealed.

Ruling Appealdismissedand returnrefused;the removalwas wrongful but the standard
requiredunderArticle 13(2)hadbeenmetto showthat the child objectedto a return.

Grounds Rightsof Custody- Art. 3
Themotherarguedthat sinceshehadbeenawarded custodyof the child she hadthe
right to determinehis placeof residence.Thecourt rejectedthis argumentgiventhat
proceedingswereunderwayin Quebecto considerthe issues of custodyandaccess
andthat the motherhadsignedan agreementnot to leavethe countrybeforea final
decisionwas made. By leavingCanadashe hadmoreoverviolatedart 4 of the Canadian
EnforcementAct on InternationalChildAbductionby whichit is prohibited to removea
child duringa procedurein whichthe questionof custodyis posedand is not yet
decided.The court foundthe removalto be wrongful

GraveRisk- Art. 13(1)(b)
Notwithstandingthe findingon the child'sobjectionsthe court alsofound that therewas
a graverisk the returnof the boy wouldexposehimto physicalor psychologicalharm or
otherwiseplacehim in an intolerablesituation. This was becausethe motherwouldnot

194a.
btt1is://www .incadat .co m/en/casc/3 I 4

2/3

27-FA-15-499

10/23/20 18

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

LNCA DAT I De direc tie Preve ntie, optrcdc nd voor zichzelf en name ns Y (lbe fath er) against X (the mother) (7 February 200 1, ELR O nr.AA985 1 ...

be ableto returnto Canada sinceshe hadno means of supportthere. Consequently the
boywouldhaveto returnaloneandthe separationfrom his motherwouldcause him a
graverisk of harm.

Objections
of the Childto a Return• Art. 13(2)
Thechild was heardbythe court in a private hearing. Hewasjudgedto be verycapable
of expressinghis opinion.Heclearlystatedthat he wantedto staywith his motherin
Hollandandstronglyopposedreturningto Canada.Onthe strengthof his objectionsthe
court exercisedits discretionunderArticle 13(2)not to orderhis return.

INCADAT
comment-

In the Australiancase,StateCentralAuthorityof Victoriav.Ardito,29 October1997,
Family Courtof Australia (Melbourne)[ReferenceINCADAT:
HC/ E/ AU283] the Article
13(1)(b) exceptionwas madeout on the basisthat the mothercouldnot returnto the
United Stateswith herchild. However,in that casethe motherwas ableto adduce
evidencethat the UnitedStatesconsulatein Melbournehad refusedall herapplications
for a visato re-enterthe UnitedStates.

> Whatis a Rightof Custodyfor Convention
Purposes?

> Autonomous
Interpretation
of 'Rightsof Custody'
And'Wrongfulness'
> PrimaryCarer Abductions

> EconomicFactors
> NatureandStrengthof Objection
> Exerciseof Discretion

195a.
https:// www.incadat.com/e n/c asc/3 14

3/J

27-FA-15-499

l0/23/2 0l8

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

INCA DAT I C. v. C. 2003 S.L.T. 793

CaseLawSearchNewsearch
CASE Nofull text available
CaseName

c. v. C. 2003 S.L.T.793

INCADATreference HC/E/UKs998

Court Country

UNITED
KINGDOM
- SCOTLAND

Name

OuterHouse, Courtof Session

Level

First Instance

Judge(s)

LordMacfadyen

Statesinvolved Requesting

UNITEDSTATES
OFAMERICA

State
Requested

UNITEDKINGDOM
- SCOTLAND

State

Decision Date

8 May2003

Status

Final

Grounds

Removaland Retention- Arts 3 and 12 I Consent- Art. 13(1)(a) I
GraveRisk- Art. 13(1)(b)

Order
HCarticle(s)

Returnrefused
13(1)(a) 13(1)(b)

Considered
HCartlcle(s)

13(1)(a) 13(1)(b)

ReliedUpon
Other
provisions
Authorities
I

Re H. (Minors)(Abduction
: Acquiescence)[1998)AC72; P.v. P.

Casesreferred

(Abduction:Acquiescence)[1998)2 FLR835.

to
Published
in

EXHIBIT
INCADAT
comment•

Exceptions
to Return
GraveRiskof Harm

htlps:l/www.incadat.com/en/casc/998

196a.Economic Factors

Lf
I ------

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

IN C ADAT I C. v. C. 2003 S.L.T . 793

10/23/2018

Consent

EstablishingConsent

GeneralIssues

LimitedNatureof the Exceptions

SUMMARY Summaryavailablein EN
Facts Theapplicationrelatedto a child bornin March2002.Thechild livedwith his married
parentsin the UnitedStatesuntil September2002whereuponthe mothertook her to
Scotland.Motherandchild took up residencewith the maternalgrandparent
s. The
fatherpetitionedfor the returnof the child.

Ruling Removalwrongfulbut returnrefused; a returnwouldexposethe child to a graverisk of
an intolerablesituation.

Grounds RemovalandRetention- Arts3 and12

Consent- Art. 13(1)(a)
Themothersubmittedthat the fatherhadconsentedto the removal and in this relied
upona note he hadwrittenon 8 July 2008whichaffirmedthat he assignedall rightsto
the child to the motherand allowedherto relocate to the UnitedKingdom.Thetrial
judgequestionedwhetherconsentshouldbe interpretedin the samewayas
acquiescence,
as this mightleadto over-complications.
He notedthat a case for
consenthadto be clearlyestablished.
Thejudgefoundthat at the time the notewas written therewas consenton the part of
the father. However
, he heldthat consent, oncegiven,was not irrevocable
. In mid
September,
in a phoneconversation betweenthe parents, it was acceptedbythe Court
that the fathersaidsomethingto the effect that the mothershouldgo andsupport
herselfandthe child.
Thetrial judge heldthat hadthe phoneconversationbeenthe only additionalevidence
he wouldhavebeeninclinedto regardthis as a reaffirmation of the father'searlier
consent.However,otherevidence,includingfrom testimonygivenbythe mother
showed that by mid-September
the July consentwas not on balance still in force.The
exceptionwastherefore not made out.

GraveRisk- Art. 13(1)(b)

197a.
hllps://www.incadat.co m/en/casc/998

2/3

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

INCADAT IC . v. C. 2003 S.L.T. 793

I0/23/20 18

Thetrial judgeacceptedthat in principleit would,primafacie,placethe child in an
intolerablesituationweresheto be returnedin circumstancesin whichit was
impossibleor impracticablefor the motherto returnwith her.In this argumentsbased
on the financingof travel wererejectedsincepublicfundscouldbe madeavailable.
Furthermore,special arrangements
existedfor grantingtemporaryleave to enterthe
UnitedStates.
The primaryissuerelatedto the mother'sabilityto support herselfandherdaughter
whilst in the UnitedStates.The motherwould not be ableto workthereor receive
benefits,whilst custodyproceedingswouldnot necessarilybe concludedin weeksor a
few months.Consequently,
the Courtaccepted that the mother'sfinancial
circumstancesrepresenteda genuineobstacleto her returning.
However,
this wouldbe addressedif the fatherwas willing andableto providemother
and child with suitable accommodationandto provideadequatemaintenanceduring
the pendencyof the proceedings
. Residencein a mobilehomeand $200perweekwould
sufficebutthe Courtfoundon the evidencethat the father couldnot be relieduponto
makesuchprovisionfor the durationof the proceedings
.
In thesecircumstances,
the Courtexercisedits discretionnot to makea returnorder.

INCADAT
comment•

> EconomicFactors

> EstablishingConsent
> LimitedNatureof the Exceptions

198a.
htlps://www. incadat.co m/c n/case/998

3/ 3

27-FA-15-499

10/23/20[8

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [2010] FamCAFC 221; (5 Novembcr20l 0)

11:!ome]f.Qalaba ~es] [WorldLII) [Search) [Feedb ack)

Family Court of Australia - Full Court
You are here: AustLII >>Datab ases> > Famil Y.Court of Australia - Full Co urt>> 2010 >> [2010] FamCAFC 221

[Qatabase Search] (Name SearchJ !Recent DecisionsJ !NoteuP-J [DownloadJ (Context ! !No Context!
IHel12J

<:iHarris

& Harris r:
>[2010] FamCAFC 221; (5 November 2010)

Last Updated: 23 November 2010

FAMILY COURT OF AUSTRALIA

<~HARRIS

& BARRIS ¢,

r20101FamCAFC 221

FAMILY LAW - APPEAL - CHILD ABDUCTION - PROCEDURAL FAIRNESS -Whether
the manner in which the proceedings were conducted denied the father procedura l fairness Where it was asserted the father received erroneous information from the Commonwealth and
State Central Authorities - Proceedings conducted "on the papers" without cross -examination
- Where initial advice from the Centra l Authority was erroneous and misleading - Whether the
trial Judge erred in failing to enquire whether the father had been infonned of hjs rights and
had elected not to participate in the proceedings - Whether, in cases where the evidenc e
regarding domestic violence is controvers ial, there is a duty on the trial Judge to go behind the
application to ensure the unrepresented father's rights were fully protected - No procedural
unfairness established - No merit in procedura l fairness grounds.
FAMILY LAW - APPEAL- CHILD ABDUCTION - HAGUE CONVENTION - Whether the
trial Judge erred in app roach to application by not considering the return of the child separate
from reh1rn with the mother - Where it was the common expectation of the parties that if an
order was made the mother would return to Norway and fath er only sought supervised contact
- No error established.
FAMILY LAW-APPEAL-CHILD
ABDUCTION -HAGUE CONVENTION -Wheth er the
trial Judge ened in making factua l findings of domestic vio lence and abuse that were not
supported on the evidence - Whether the trial Judge erred in making finding s of fact that were
based on inadequate or inconclusive corroborative evidence - Whether the trial Judge erred in
accepting the mother' s untested evidence relating to domestic -violence while rejecting othe r
parts of her untested evidence - Where trial Judge p laced significant weight on the mother 's
evidence of domestic violence that was independent ly corroborated in accordance with
approach endor sed in Panayotides v Panayotides .(1997) FLC 92-733 - Where the status and
weight afforded to hearsay statements improperly relied on by trial Jud ge did not impugn the
balance of the finding of dome stic violence - Where balance of trial Judge's conclu sions were
based on independently corroborated evidenc e of domestic violence - Where the inference s
drawn by trial Judge were open to her Honour on the evidence - Whether the trial Judge failed
to have appropriate regard to the standard of proof to be applied - Where trial Judge applied
the standard of proof required bys 140 of the Evidence Act 1995 (Cth) - No error in factual
finding s or standard of proof estab lished .

EXHIBIT

FAMILY LAW - APPEAL - CHILD ABDUCTION - HAGUE CONVENTION - Gr }
of phy sical or psychol ogical harm to the child or placing Lhechild in an intolerable sit j
Whether the trial Judge erred in failing to properly
consid er condition s that could be a
199a.

http://www.austlii.edu.au/cgi-bi11
/sinodisp/au/cases/cth/FamCA FC/20I0/22 1.html?stcm=O&synonyms=O&query~titie( harris%20and%

1-

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harri s 12010) FamCAFC 221; (5 November 20 LO)

to an order for the return of the child - Whether the trial Judge erred in finding that the mother
would not be protected in Norway- Whether trial Judge failed to assess the distinct issue of
the risk to the child of return - Recognition afforded to serious nature of domestic violence and
its effect on the victim and actual or potential effect on the child - Trial Judg e erroneous ly
co nflated psychological risk to the child with the risk of physical hatm to the child - Where
trial Judge cons idered separat ely the defen ce of intolerable situation - Where the trial Judge's
findings that the mother and the child would be in an extreme ly vulnerable financial position,
without emotional suppor t and isolated if ordered to return to Norway were open to the trial
Judge on the evidence - Where these findings suppo 1ted the trial Judge's conclusion that the
mother and the child wou ld be in an intolerable situ ation if a return to Norway was ordered No appeaJable error established .
FAMILY LAW - APPEAL - CHILD ABDUCTION - HAGUE CONVENTION - Whether the
trial Judge failed to properly consid er conditions that cou ld be attached to an order for return Where trial Judge extensively considered evidence of domestic violence, and suppor t and
protection available to the mother on return - Where condi tions attached to orders would not
overcome vulnerability of mother or result in satisfacto ry Ii ving arrangements - No appeal able
error estab lished - Appeal dismissed.
FAMILY LAW -APPEA L-APPLI CATION TO ADDUCE FURTHER EVIDENCE-Father
sough t to adduce evidence of correspo nden ce with Commonwealth and State Central
Authorities to support procedural unfairness ground - Correspondence admitted by consent Balance of evidence sought to be adduced was contentio us and would not affect the outcome
of the appeal - Application allowed in part.
FAMILY LAW - APPEAL - fIA UGE CONVENT ION - Operation of convention in Australia
- Discussion of role and responsibilities of Commonwea lth and State Centra l authorities.
FAMILY LAW - APPEAL - COSTS - No order for costs - Each party to pay tbeir own costs
of and incidental to the appea l .
Convention on the Civil Aspects of International C11ildAbduction
Evidence Act 1995 (Cth), s 140
Fami lY.Law Act 1975 (Cth) ss 92, 11IB(I), ill , I 17AA
Fami ly Law (Child Abduction Convent ion) Regulations 1986
Beazley v McBarron [2009] NZHC 37
C v C (Minor : Abduction : Rights of Cus tody) f J989] 2 Al I ER 465
CDJ v VAJ (1998) 197 CLR 172
Central Authority v Houwert 120071 ZASCA 88; [2007] SCA 88 (RSA)
De L v Director -General, New South Wiles Department of Community Services fl 996] HCA 5;
.(1996) 187 CLR 640
De Lewinski and Legal Aid Commiss ion of New South Wile s v Director-General, New South
Wiles Department of Community Serv ices .(J997)_( 1997) FLC 92-737
Department of Community Services & Frampton [2007] FamCA 1064; .(2007) FLC 93-340
Director -Genera l NSW Department of Communi ty Services & JLM 120011FamCA 1338; .(2001).
FLC 93-090
DP v Commonwea lth Centra l Authority f200ll HCA 39; .(2001) 206 CLR 401
laing v Central Author ity [1999] FamCA 100; .(1999) 15 l FLR 416; 24 Fam LR 555; .(1999).
FLC92 -849
McDonald & Director-General , Department ofCo mnmnity Services (NSW) f2007] Fa mCA
1400 ; .(2006) PLC 93-297
Murray v Dir ec tor of Fam ily Services ACT ll 993 I Fam CA I03; .(1993) FLC 92-416
MW v Dire ctor-G eneral, Dept of Comm unity Services f20087 HCA 12; .(2008 ) 39 Fam LR 1
Panayotides v Panayotides .(1997) FLC 92-733
P ennello v Pennello 12003 1ZASCA 147; [2004j 1 All SA 32 (SC A).
Quarmby & Anor v Director-General, Departm ent of Community Services (NSW) l20051

200a.

hllp://www.aus llii .ed11.au/cg i-binlsi11odisp/au/cascs/c tb/FamCAFC/20 10/22 1.html?stem=0&sy nonyms=O&qucry= titlc(harri s%2 0aud %20 Harris%20)

?./32

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [2010] FamCAF C 221; (5 N ovcmber2010 )

10/23/2018

Fam CA 843; _(2005)34 Fam LR 8
Re: F (A Minor: Abduction: Rights of Custody Abroad).( 1995) 3 All ER 641
Re P (Hague Convention: Child's Objections) [200gl FamCA 685; .(2006) FLC 93-277
TB v JB (Abduction: grave risk of harm) [2001 ] 2 FLR 515
\¼rren v Coombes [1979J HCA 9; .(1979) 142 CLR 53 I
Zaliropoulo s & The Secretary of the Department of Human Services State Central Authority
L2006J FarnCA 466: .(2006) FLC 93-264

APPELLANT:

Mr ¢i Harris

~>

RESPONDENT:

Ms <~ Harris

¢

FILE NUMBER:

SYC

3064

of

2009

APPEAL NUMBER:

EA

58

of

2010

DATE DELIVERED:

5 November 2010

PLACE DELIVERED:

Sydney

PLACE HEARD:

Sydney

JUDGMENT OF:

Bryant CJ, Finn & Boland JJ

HEARING DATE:

17 August 2010

LOWER COURT JURISDICTION:

Family Court of Australia

LOWER COURT JUDGMENT DATE :

13 April 2010

LOWER COURT MNC:

12010 1 FamCA 261

REPRESENTATION

COUNSEL FOR THE APPELLANT:

Mr Kearney with Ms Barnett

SOLICITOR FOR THE APPELLANT:

Barkus Doo lan Kelly

COUNSEL FOR THE RESPONDENT:

Mr Simpson SC

SOLICITOR FOR THE RESPONDENT:

Watts McCray

ORDERS
(I) The appeal is dismissed.
(2) By consent the father's application to adduce fu1ther evidence filed 30 June 2010 is
allowed in part.
(3) Th ere be no order as to costs.
201a.
http:1/www .aust Iii.ed 11.au/cgi-bin/siuodi splau/cascs/cth/Fam CA FC/20 I0/22 1.html?stem =0&synon yms=0&q uery=tit Ie(harris%20aud %20Hnrris%20)

3132

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20 10] FamCJ\FC 22 1: (5 Novcmbor 20JO)

IT IS NOTED that publication of this judgment under the pseudonym
approved pursuant to s 12 1(2).(g)_of the FamilY.Law Act 1975 (Cth).

/;:iHarris & Harris ¢ is

THE FULL COURT OF THE FAMILY COURT OF AUSTRA LIA AT SYDNEY

Appea l Number : EA 58 of 2010
F ile Number: SYC 3064 of 2009

Mr ¢ Harris

~>

Appellant
And

Ms ¢ Harris ~'>
Respondent

REASONS FOR JUDGMENT
INTRODUCTION

1. On 13 April 2010 Ryan J made orders dismissing an application brought by the Director -Genera l,
Department of Human Services NSW as the NSW appointee of the Com monwea lth Cent ral
Authority ("the Co mmonw ea lth Central Authority") under the FamilY.Law (Child AbducLion
Convention) Regulations 1986 ("t he reg ulation s") for the return of a ch ild , ("the child ") to Norway.
The regul ations give effec t to Australia 's obligat ions under the Co nventi on on the Civil Aspects of
International Child Abduction (" the Conventi on"). In these reaso ns we will refer to the Director Genera l, Department of Hum an Services NSW as "t he State Central Authority".
2 . The child , who has both Nor wegian and Austra lian nationality, and was born in 2007 , was almost
three years old at the date of the trial Judg e's orders . This appeal is an appea l by the child 's fathe r,
Mr ¢i Harris ~> ("the fat her" ) , against her Honour's orders.
3 . On 19 March 2009 the fat her requeste d the Norweg ian Ce ntral Authority to app ly to the
Co mm onwea lth Central Authority for the return to Norway of the child. He asserted the chi ld bad
bee n wrongfully removed by Ms ¢ Harris ¢ ("the m other") from Norway to Australia in
Nove mber 2008 or wrongfully retained in Australia after 10 January 2009. Accordingly, at the
d irection of the Comm onwea lth Central A uthority, the State Central A uthority brought the
application which was dismissed by Ryan Jon 13 April 2010.
4. Fo rmally therefo re, the father was not the ap plicant in the proceed ings before the trial Judge. He is
however a person affected by the orde rs of the trial Jud ge, and his appea l was brought on that basis.
Th us it is without doubt that the fathe r being a person with the requi site rights of custody in respect
of the child , and being affected by the orders under appea l , h as stand ing to co mm ence and
prosecute the appeal.
5. T he State Central Authority is not named as a party to the appea l, and advised the Cou1t that it did
not wis h to participate in the appea l. However , in the even t that the Full Court allowed the app eal,
re-dete rmined the appLication and ordered the return of the chi ld to Norway, the State Cen tral
Autho rity said it would ass ist in arrangement s for the child 's return.
6. T he trial Judge found the p rereq uisite cond itions fo r return prescribed in the regu lation s were
satisfie d . The child had been habitually resident in Norway at the time of bis remova l by the
mot her, or in the alternative wrongfully retained by her in Ausb·alia after 10 Janua1y 2009 . Her

202a.

h11p://www.ausllii. cd ti .au/cgi- hi11/
sinodisp/au/cascs/cth/FamCAFC/20 10/22 1.h Im1?stem=-O&synon y ms=O&q ucry=lille(harris%20and %20 Harris%20)

4/32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris L2010J FamCAFC 221; (5 November 20LO)

Honour found the father had right s of custody in respect of the ch ild at the time of his remo va l and
wrongful retention . Her Honour went on to find thal to return the child to Norway wou ld expose
him to a grave risk of physical and psychological harm and to an intolerable situation. Thus she
dismissed the State Central Authority's application.
7. Unsurprisingly, no challenge is rai sed in the father's appeal to th e trial Judge's findings as to the
child's habitual residence and the father's right s of custody at the time of his rem oval , or to her
Honour 's finding s in respect of the child's removal, or to her finding that th e rem ova l to, or
retention in, Austra lia by the mother was wrongful. No cross-appea l wa s filed by the mot.her
cha llengin g these findings.

BACKGROUND
8. The background facts appear in the trial Judge' s rea so ns at paragraphs 8 to 79 . To give context to
this appeal we repeat some of relevant paragraphs of her Honour 's reasons:
9. The mother was born in Australia in l 97 l. Th e mot.her is an Au stralian citizen and her family
lives in Australia .
10. The father was born in Norway on in 1972 . He is a Norwegian citizen and his family liv es in
Norway.
11 . The mot.her and fat.her met in France in August 2005 which is when they commenced an
intimate relation ship. In her application filed on 24 December 2008 the mother sa id that she
and the fat.her began living together in August 2005. Thereafter they spent time in Norway
and holidayed in Asia a nd Canada before returning to Norway in mid 2006 . ln Au gust 2006
the mother and father separated. While the father remained in A sia , the mother returned to
Australia . Not long after she arrived , the mother lea rned she wa s pregnant to him .
12. The father joined the mother in Au stralia in Septemb er 2006. The parti es remained in
Australia and in November 2006 they married.
13 . In December 2006 the father and moth er re turned to Norway to Ii ve. Tl1e father and m other
moved into the father 's grandfa ther 's hou se near [G] . Other than when they visited Australia ,
this is where they lived until Nove mber 2008 .

15. During February 2007 the fath er and mother attended marriage counselling at the family centre in
[G].
16. That same month th e mot.her att ended a crisis cenb ·e where she so ught adv ice concerni ng domestic
violence. The father said he wanted both of them to atte nd up on the dome stic violen ce counse llor
but in the end he spoke with the counsel lor on the telephon e and nothing further came of it.
17. The child wa s born in Norway in 2007 ...
18. Between 8 August 2007 and 14 September 2007, with the father 's consent, the mother brou ght the
child to Au stra lia . The fat her remained in Norway for work.
19 . ln the later part of 2007 th e fat her to ok about 26 week s pate rnit y leave . It seems likely this was
b etwe e n the ch ild 's two 2007 trip s to Australia . Although the moth er said the father wa s not
in volved in the child's care there is sufficient evidence to corroborate his evidence that he was . Hi s
two periods of paternity leave amplified hi s opportunity fm sig nific an t , albe it seco ndary to the
mother 's, role in the chi ld 's ca re.
20. Betwee D 6 December 2007 and 8 February 2008, with the fat her's consent, the mother holida yed in
Au stralia with the ch ild . Th e father remained in Norway .
2 1. On 14 May 2008 the m other was treat ed in hospital for a fra ct ured lef t uln a. It is the m o the r 's
ev idenc e that the father broke her arm . The re is no doubt the parent s rsic] engaged in a phy sical
altercation durin g which the mother 's arm was broken. Eac h acc used the othe r of being the
aggre sso r. The mother gave a history of th e injury to the hospital that she fell. At thi s initial
consultation the fathe r was present. Two days later the m other return ed to hospita l and informed a
doc tor she had not fa llen and that her arm wa s broke n when the fath er hit her. The treat in g doctor
and attendin g nurse spoke to the mot her abo ut report ing the in cident to the police . The mothe r
indicated she wanted her info rmation recorded but not report ed to po lice. Th e fat her was not
injured in th is incident.

203a.
hitp://www.austlii.crlu.au/cgi-hin/s i11
odisp/au/cases/c1h/Fa111
CA FC/20 I0/22 1.himI?stcm=O&synonymS=O&query=tiiIe(harris%20an<l%20Harris%20)

5/J 2

27-FA-15-499

l0/2 3/20 18

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Ha rris & Harris (2010] f'nmCAl-'C 221; (5 November 20 10)

34. As they had planned, on 23 May 2008 the father, mother and child travelled together to Australia.
Jn Australia they resided in a small flat at the mother' s parent's home rin the western suburbs of
Sydney ] .
35. On the evening of 22 June 2008 the mother refr actured her left arm in the same place as her earlier
injury . The mother and father give div ergent acco unt s of an ugly dispute that evening which
appears to have been about whether they would separate. Each accuses the other of being the
aggres sor and of physical aggression. The gravamen of the father 's evidence was that to the extent
there was a physical altercation that evening it was primarily instigated by the mother with the only
physical aspects which may have re sulted in the mother's aim being injured having occurred during
the mele e between her and her parent s. The mother says her arm was broken when the father
pu shed her into a wall. The fath er agreed he pushed the mother. He was not injm ed in this incident.
36. The following morning the mother' s mother took her to Westmead Hospital where her injur y was
treated by her arm being placed in a sling. Th e mother reported to Westmead Hospital that the
father bad previou sly broken her arm and was responsi ble for this injury. Upon the doctor 's
suggestion the mother accepted a referral to a hospital socia l worker. The father moved out of the
[ ...J flat for a few days and stayed in a motel.

39. The parent s disagree about which of them instigated their resumption of co habit ation . Irrespective
of who it was by no later than 29 June 2008 they were living together as a family at the Lmother' s
parents' J flat.
40. Together, the father, mother and chHd returned to their home in Norway on 25 - 26 August 2008.
Once there , the father resumed full time employment with his former employer. According to the
father upon their return to Norway with the child the parents understood the purpose of the rights of
access agreement was spent. I accept this was th e parents ' intention when they entered into the
agreement.

42. On 18 September 2008 the mother attended a cas ualty clinic where she was observed as 'showing
signs of physical violence in the shape of haematoma on the left upp er arm, haematoma aro und the
right eye.' Th e mothe r gave a hi story of phy sica l violence fr om the fath er which she said had
commenced in February 2006. The mother was advised to report her situa tion to police but did no t.
The clinic also referred the moth er to an attorney, who was [Mr OJ. It is likely that to hid e the
bruise around her right eye that [S] saw the mothe r with 's trange make up ' around her eye.

51 . On 27 November 2008 , without the father 's knowled ge, the mother depaited Norway with the
child. The chiJd travelled on his Australian pass port. Altho ugh the father knew the mother had the
child's Australian pa ssport he wrongly believed that absent his consent she would only be able to
remove the child from Norway on his Norweg ian passpo1t. Accordingly and to prevent the chi.Id's
removal not long befo re she departed for Au stralia the fa ther removed the child's Norwegian
passport from the mother's possession.

54. The mother and child ar rived in Austra lia on 29 November 2008 ...
55. Durin g a telep hon e conversation in mid December 2008 the fat her threatened to kill at least the
mother and her parents. The mother said he said 'If you don't coo perate and do exactly what I
want, then l will fly to Austra lia and kill you, [the chi Id] , yo ur father and your mot her .' T he father
said ' .. .Tcompletely lo st my temper and screa med in despair that l wanted to kill her and her family.
Of course J did not mean this and T have since apologi zed fo r this.'

57. On 24 December 20 08 the mother filed in the Family Court at Parramatta an Application for Final
Orders and simult aneo usly an App lication in a Case for int erim ord ers ...

204a.

hilp://www .ausllii .ed u.au/cgi-bi n/s i nod isp/au/cas cs/cth/FrunCA FC/20 I0/22 1.bl m I?stcm=0&synou yms~0&quer y~tille(barris%20ancl%20Harr is%20)

6/3 2

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20 I0J FamCAFC 22 I; (5 November 20 I0)

60. On 23 Ja1rnary 2009 the father consulted a lawyer in Norway.

61. In January 2009 the father filed a child abduction complai nt in Norway against the mother. Had the
comp laint been estab lished the mot her would have been subject to a possib le term of imprisonment.

THE GROUNDS OF APPEAL
9. l.n his amended Notice of Appeal the father relies on nine grounds of appeal which contain various
sub- grounds. The grounds were distilled by the fa ther's counsel into five discrete topics:
o The first chaJlenge asserted the manner in which the proceedings were conducted was
procedurally unfair to the father because :
- they were conducted on the papers without the father's knowledge of or consent to that procedure ,
- no challenge was raised by the State Centra l Authority to the admissib ility of evidence relied on by the
mother, and
- findings of fact adverse to the father were made without him having an opportunity to ensure the mother
was cross -examined on her evidence
("the procedural fai_r[lesschallenge").
• Secondly, the father asserted error of approa ch by the trial Judge in considering the application on
the basis that if the orders sought in the application were granted, the mother and chi ld wo uld be
returned to Norway rather than , as the application and regulation s requi red, consider ing separate ly
the return of the child to Norway ("the challen ge to the trial Judge's approach").
• Thirdly, that her Honour erred in makin g factual findings not suppo rted by the evidence , or based
on inadequate or inconclusive corroborat ive evidence , or erred in accepting the mother's untested
evidence on the topic of domestic violence whilst rejecting other parts of her untested evidence.
Encompassed in this challen ge is an assertion that , although her Honour identified the correct
standard of proof, she erred in failing to have appropriat e regard to that standard ("the asserted
factual finding erro rs").
• Four thly, that the findings underpinning her Honour's concl usions that the child would be exposed
to a grave risk of physical or psychological harm or otherwise placed in an intolerable situation if a
return was ordered were not mad e out ("t he asserted error in determinin g ' grave risk'").
• Fifthly, a failure by the trial Judge to properly consider appropriate condition s which could be
attached to any orders fm return of the child ("the conditi ons challeng e").
10. We think the most convenient manner to address the fa ther' s app eal is to consider the topics in the
order identified above.
11. As will shortl y become apparent from om discussion of the further evide nce adm itted by consent,
this appeal has raised issues about the role and responsib ilities of the State CentrnJ Authority. It is
unfo1tunate that the State Central Auth ority was instructed by the Commonwea lth Centra l
Authority not to participate in this appea l . We are however, satisfied that procedural fair ness was
afforded by us to the State Centra l A utho rity whose decision was taken after service of all relevan t
material on it , and we acceded to the request of the State Central Authority (and to which we later
refer) that this Court rece ive a copy of an emai l from Ms P (a solicitor emp loyed by the Department
of Hum an Services , NSW (the State Centra l Author ity)) to the fa ther dated 6 July 2009 .
12. As the father's proced ural fa irness challenge involved con sideration of the provisions of legal
representation to a person in the position of the father, and aspects of the role and operat ion of the
Commonwealth Central A uthority and the State Central Authority in proceedings under the
regulations, we propose to discuss these issues before turning to that cha llenge.

THE PR ACTICAL OPERATION OF THE CONVENTION IN AUSTRALIA

205a.

hllp://www.aus1lii.edu.au/cgi-bin/sinodisp/au/cascs/c1h/ FamCAFC/2010/221.html?slem=O&sy11
0 11
y ms=O&query=ti1le(harrls%20and%20Harris%20)

7/32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris& Harris 120101FamCAFC22 1;(5 Nove,nher 20l 0)

13. Unlike other countries which are signatories to the Convention, Australia has nol directly
of the Fa mil.):'.Law Act 1975 (Cth)
incorporated the Convention into its domestic law, but illl!l(l}
("the Act") provides for the making of regulations to enable the pe1formance of Australia's
obligations under the Convention (Family Law (Child Abduction Convention) Regulations 1986
("the regulations")).
14. Regulations 1 to 4 inclusive are essentiaUy concerned with definitions.
15. The powers , duties and functions of the Commonwealth Central Authority are set out in reg 5 as
follows:
(1) ln addition to the other functions conferre d on the Commonwealth Central Authority by these
Regulations, the functions of the Commonwealth Central Authority are(a) to do , or co-ordinate the doing of, anything that is necessary to enable the pe1formance of the
obligations of Australia, or to obtain for Australia any advantage or benefit, under the Convention; and
(b) to advise the Attorney -General, either on the initiative of the Commonwealth Central Authority or on
a request made to that Authority by the Attorney-General, on all matters that concern, or arise out of
performing, those obligations, including any need for additional legislation required for performing those
obligations; and
(c) to do eve rything that is necessary or appropriate to give effect to the Convention in relation to the
welfare of a child on the return of the child to Australia.
(2) The Commonwealth Central Authority has all the duties, may exe rcis e all the powers, and shall
pe1form alJ the functions, that a Central Authority has under the Convention.
(3) The Commonw ea lth Central Authority must pe1fonn its functions and exercise its powers as quickly
as a proper consideration of each matter relating to the pe1fo1mance of a function or the exe rcise of a
power aJlows.

16. Regulation 6 of the regulations, since its amendment in 2004, makes it clear that a person ,
institution or other body that has rights of custody may make an application for the return of a child
(or other relief) under the regulations. That regulation provides as follows:
6. These Regulations do not affect other powers of, or rights of application to, a court
(1) These Regulation s are not intended to prevent a person , an institution or other body that bas rights of

custody in relation to a child for the purpose s of the Convention from applying to a court if the child is
removed to, or retained in, Australia in breach of those right s.
(2) These Regulations are not to be taken as preventing a court from making an order at any time under
Part VII of the Act or under any other law in force in Australia for the return of a child .
17. Regulation 7 provides an immunity to the Commonwealth Central Authority and a State Ce ntral
Authority against a costs order in perfo rming its function (see also s ll 7AA of the Act).
18. Regulation 8 empowers the Attorney -General to appoint a person to be a Central Authority of the
State for the purposes of the regulations .
19. The dutie s, powers and functions of a State Central Authority are set out in reg 9 . That regulation
provides as foJJows:

Subject to subregul ation 8 (3), a State Central Authority has alJ the duties, may exercise all the powers,
and may pe1form all the functions, of the Commonwealth Central Authority .
20. Regulation 14 provides as follows:
14. Applications to court
(1) lf a child is removed from a convention country to, or retained in, Australia:

(a) the res ponsible Central Authority may apply to the court, in acco rdan ce with Form 2 , for any of the
following orders:

206a.

htlp://www.austlii.cdu .a 11
/cgi-uin/si nodisp/au/cascs/cLh/FamCAFC/20 I0/221.hIml'?stem=O&synonyms=0&query=titlc( Imrris%20and%20Flnrri s%20)

8/32

27-FA-15-499

1012312018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris 120101FamCAFC22 1; (5 November20 10)

(i) a return mder for the child;
(ii) an order for the deli very of the passport of the child, and the passport of any other relevant person, to
the responsible Central Authority , a member of the Australian Federal Police or a person spec ified in the
order, on conditions appropriate to give effect to the Conve n tion;
(iii) an order for the issue of a warrant mentioned in regu lation 31;
(iv) an order directing that:
(A) the child not be removed from a specified place; and
(B) members of the Australian Federal Police prevent the chi ld being removed from that place;
(v) an order requiring that arrangeme nts be made (as necessary) to place the child with an appropriate
person, institution or other body to secure the welfare of the child, until a request under regulat ion 13 is
determined;
(vi) any otherorder that the responsible Centra l Authority considers appropriate to give effect to the
Conve ntion; or
(b) a person, institution or other body that has rights of cus tody in relation to the child for the purpose s of
the Convention may app ly to the court, in accordance with Form 2, for an order mentioned in
subparagraph (a) (i), (ii), (iii), (iv) or (v).
(2) ff the responsible Central Author ity, or a person, institution or other body that has rights of custody in
relation to a child for the purposes of the Convention, has reasonable grou nd s to believe that there is an
appreciable possibility or a threat that tbe chi.Id will be removed from Austra lia, the responsible Central
Authority or person, institution or other body may:
(a) apply to the comt, in accordance with Form 2, for an order for the issue of a warrant mentioned in
regulation 3 1; or
(b) apply to the·co urt for an o rder for the delivery of the passport of the child , and the passport of any
other relevant person , to the responsib le Centra l Authority, a member of the Austra lian Federnl PoJice or a
person specified in the order, on conditio ns appropriate to give effect to the Convention.
(3) lf a child is wrongful ly removed from Australia to, or retained in , a convent ion country, the
responsible Centra l Autho rity may app ly to the court, in accordance with Form 2,for :
(a) an order that the responsible Central Authority considers necessary or appropriate to give effect to the
Convention in relation to the welfare of the child after rus or her return to Austra lia; or
(b) any other orde r that the responsib le Central Authority cons iders appropriate to give effect to the
Convention.
(4) If a copy of an application made under subregulation (I) , (2) or (3) is served on a person :
(a) the person must file an answer, or an answer and a cross application, in accordance with Form 2A; and
(b) the app licant may file a reply in accordance with Form 2B.
21. T hus it may be seen that an application for the return of a child wrongly removed to, or retained in
Austra lia, may be made by a person or body whose rights of custody in respect of the child have
been breach ed (Regulation 6) , or by the relevant Australian Centra l Authority (Regu lat ion 14) .
22. Counsel for the father drew our attention to cases decided under the Conventi011 in overseas
jurisdiction s whe re the appli ca nt for return is the parent, and i s the named party to the proceedings ,
and receives lega l aid in the cou ntry in whic h the proce edings are conducted, or is a joint applica nt
with the Ce ntral Authority (see Pe1111e
llo v Pe nnello [2003] ZASCA 147; [2004 ] l All SA 32
.(SCA).; Central Authority v Houwert [20071ZASCA 88; [2007] SCA 88 (RSA) at paragraph 22 ,

207a.

http://www.aust Iii.edu.au/cgi-bin/sinodi sphlulcaseslcth/FamCA FC/20I0/22 1.htmI?stem=O&synonyms=O&qucry=tilJc(harris%20und%20Harris%20)

9132

27-FA-15-499

l0/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris L2010JFamCAFC 221; (5 November20l0)

where Van Heerden .IA noted that in that case the father was not joined as a co-applican t "as is
usually the case when a return application under the Convention is instituted by the Central
Authority". See also Beaz ley v McBarron [20091 NZHC 37 referring to an article by J Wademan
'The Hague Convention on lnternational Child Abduction: the role of the Central Authority in
Cowt proceedings' .(2008) 6 New Zealand Fa mil):'.Law Journal J05, which article notes that the
New Zea land Central Authority "perfon n s a facilitative role rather than initiatin g proceedings as a
party").
23. We note that absent the participation by the State Centra l Authority at the hearing of this appeal we
were unable to have the benefit of submissions as to whether the regulations would pennit
concurren1 applications by both the State Central Authority and the parent seeking return to be
heard and determined by the Court and Australia's obligations, if any, under Article 25. As we will
shortly explain in our observations about the role of the State Ce ntral Authority, and its duty to put
all relevant evidence before a cou1t and perhaps craft appropriate conditions soug ht on the return of
a child, we accept that the intere sts of the State Centra l Authority and a parent seek ing return may
not nece ssari ly coi ncide iJ1all respects.
24. We think it sufficient for the purposes of this case to note that reg 14, on its face, doe s not , as it is
draft ed in the alternative, support the concept of concurrent applications by the State Centra l
Authority and a parent. However, we express no concluded view .
25. We accept that there are inheJent difficulties if proceedings are commenced by a parent with rights
of custody for the return of a child, and subseque ntly the State Central Auth ority seeks to be
substituted for that parent in ciJcumstances where no request for return of the child has been made
by the parent to the State Central Author ity in the place of habituaJ residence (see Quarmby & Anor
v Director -Ge neral, Department of Community Services (NSW) [2005] FamCA 843; .(2005) 34 Fam
LR St But as presently advised we see no reason in practical terms why, if proceedings are
commenced by a State Central Authority, that with the conse nt of the State Central Authority, the
parent seek ing return co uld be not substituted for the State Central Authority.
26. However , reg 14 may not rule out intervention under s 92 of the Act by a parent to proceedings
instituted by the State Central Authority, but again in absence of submission by the State Central
Authority, and as it was not a matt er raised by counse l for the father , it is unnecessary we determine
this matter.
27. We note that the author s of Internationa l Movement of Children: Law Practice and Procedure
observe that "as far as fthey] are aware Australia is the only Contracting State where the Central
Authority applies as the applicant" (N igel Lowe, Mark Everall and Michael NichoUs International
Movement of Children: Law Practice and Procedure, Jordan Publishing, Bristo l, UK, 2004 at 513).
28. We turn now to the role of the Central Authority. In Re F (Hague Convention: Child's Objections)
j2006J FamCA 685; .(2006) FLC 93-277 the Full Court (Bryant CJ, Ka y and Bo land JJ) reviewed a
numb er of decisions which discussed the role of the Central Authority, and the scope of its duties.
The Fu ll Co urt refe rred to the decision of an earlier Full Court in Laing v Central Authority [1999 1
FamCA I 00; .(1_999)151 FLR 416; 24 Fam LR 555; .(1999) FLC 92-849. Their Honours quoted
fr om the judgment of Kay Jin Laing where his Honour said:
...There is weight in the submis sion that the Centra l Authority needs to act lo some degree as an honest
broker. Its role may be likened to that of a Crow n Prosecutor who is Jequired to put before the Co urt
matters which might assist the accused as we11as matter s which might lead to a conviction. The Cen tral
Authority's obligation is not to sec ure the return of the child but to implement the requ irement s of the
Conve ntion.

[94J Jf in impl eme nting the requirem ents of the Convent ion it obta ins the retu rn of a child who ought to
be returned then it is ca rrying out its function. lf it draw s to the Court circumstances which might lead the
Co urt to make an order ot her than the return of a child then it is aJso carrying out its fun ction. (paragraph
77)
29 . The Full Court also referred to the separate judgment of Nicholson CJ Laing where his Hono ur
said :

208a.

hHp://www.a11s
tlii.edu.au/cgi-bin/si nodisp/au/cases/cth/FamCA FC/20 I 0/22 1.himI?ste m=0&syuonyms=0&q ucry=Iillc(harris%20ancl%20Harris%20)

I0/32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris 120 LO]FamCAFC 22 I; (5 November 20 I0)

...Organisations comparable lo the Central Authority here are State and Territory child protection services,
or, for example, to look to other jurisclictions, prosecutors in crimjoal matters and government.
departments in freedom of information applications.
[65] In my view, the repeat involvement of such organisations in forensic disputes places them in a
circumstance of greater awareness of decisions which am material to their routine work. That awareness
brings responsibilities. In matters of law, the playing field is not even when repeat organisational players
are in dispute with a party who lacks a similar familiarity to be informed and lack s the organisationally
vested responsibility to be vigilant for the effect of decisions as to the law in the area of their mandate. I
would therefore place at a more stri11gentlevel than Kay J , the obligation upon the Central Authority as to
the applicable regulations and the question of pre venting a perfected order discussed below.
L66JA Central Authority is by design within a system of intelligence as to legal developments that cannot
be deemed as equivalent to an individual respondent to an application under the Regulations. There are
advantages in litigation that cannot be glossed over. As will become evident, such a view of the
responsibilities which come from being a repe at player have beaJ-ing upon the question of bow my
findings to this point affect the view I have taken of the power to reopen. {paragraph 78)
30. The Full Court then described the role of the State Central Authority at paragraph 80 as fol lows:
The State Central Authority is chaJ·ged with the obligation to do anything that is necessaJ·y to enable the
pe1formance of the obligations of Australia under the Convention (Regulation 5(1 )(a)). In our view not
only does that obligation extend to the requirement to facilitate the return of a child where such an order
has been made, but it also requfres the Central Authority to actjvely partake in proceedings brought by it
under the Regulations and to assist the Cou,t in determining the proper application of the Regulations to
the facts of any one case ...

31. We endorse the observations set out in the earlier Australian authorities referred to above about the
role and respo nsibilities of the Commonwealth and State Central Authorities. We would emphasise
those responsibilities include a requirnment that both the Commonwealth Central Authority and a
State Central Authority exercise particular care in the preparation of, and conduct of , proceedings in
the Cowt. We see tbis role as extending to encompass the making of proper enquiries from the
requesting Central Authority about relevant domesti c violence legislation in the requesti ng State
when a reg 16 "defe nce" is raised by the "abducting" parent. We accept that, if the Commonwealth
or a State Central Authority agrees to correspond directly with a parent seek ing return of a child,
any information provided to that parent (or to the requesting Central Authority) should be clear and
unambiguous .
32. We take this opportunity to make some further observations about the opera tion of the Convention .
Australia has not , as provided by Article 42 of the Convention, reserved its rights to "exclude"
compliance with certain provisions of the Convention, although it has declared that the Convent ion
shall extend to "the legal system applicable only in the Australian States and mainland Te.rritories".
We will return shortl y to further discuss the question of reservation of rights.
33. The United Kingdom of Great Britain and Northern Ireland and the United States of America, as
well as many other signatory countries, have by notification of a reservation, declared their country
wiJJ not be bound by Article 26 of the Convention. Tt is noted by Beaumont and McEleavy (The
Hague Convention on International Child Abduction , Oxford University Press, Oxford, 1999, at
249) that although the United Kingdom took up the rese rvation it has not implemented its
reservation in respect of Article 26(3) . It is useful at this point we set out both Article 25 and 26 of
the Convention. T hey provide as follow s:
Article 25
Nationals of the Contracting States and persons who are habitu ally resident within those States shall be
entitled in matters concerned with the application of this Convention to legal aid and advice in any other
Cont ract ing State on the same conditi ons as if they themselve s were national s of and habit ually residenl
in that State.
Article 26

209a.

hl1p://www.austlii .cdu.au/cgi-bin/si nodisp/a u/cascs/ctlt/FamCAFC/20 J 0/221 . ht□, I'/st~m=O&synony ms=O&qnery=t it le(hnrris%20nud%20 Hnrris %20)

l l/32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Ha,ris & Harris l20LOI FamCAFC22J: (5 November2010)

Each Central Authority shall bear its own cos ts in applyin g this Convention.
Central Authorities and other public services of Contracting States shall not impose any charges in
relation to applications submitted under this Convention. Tn particular , they may not require any payment
from the applicant towards the costs and expenses of the proceedings or, where applicable, those arising
from the participation of legal counsel or advisers. However, they may require the payment of the
expenses incurred or to be incurred in implementing the return of the child.
However , a Contracting State may, by making a reservation in accordance with Article 42, declare that it
shall not be bound to assume any costs referred to in the preceding paragraph resulting from the
participation of legal counsel or advisers or from court proceedings, except insofar as those costs may be
covered by its system of legal aid and advice .
Upon ordering the return of a ch ild or issuing an order concerning rights of access under this Convention,
the judicial or administrative autho rities may, where apprnpl'iate, direct the person who removed or
retained the child, or who prevented the exercise of rights of access to pay nece ssary expenses incurred by
or on behalf of the applicant, including travel expenses, any costs incurred or payments made for locating
the child, the costs of legal representation of the applicant, and those of returning the child.
34. Regulation 30, which was amended effective from 24 July 2007, provides that the Cenh·al
Authority may apply to the Court for a11order that the person who retained or removed the child
pay costs including the costs of the proceedings, and the costs and expenses of the return of the
child. An "Article 3 applicant" may also make an application to the Court for legal costs of the
proceedings and travel expenses. Regulation 30 does not appear to otherwise replicate the
obligations in Article 25 and 26 of the Convention.
35. The differing approach to the prnctical application of the Convention is referred to by Beaumont
and McE leavy at 248 -256 of their publication. But the procedure adopted in countries such as New
Zea land, where legal aid is provided to the parent to bring the application, is not the course adopted
by the Australian Government to implement the Convent ion.

THE PROCEDURAL FAIRNESS CHALLENGE
36. We turn now to the specific grounds of appeal. At the commencement of our discussion of the
procedural fairness challenge it is convenient that we refer to the furth er evidence sought to be
adduced by the father and which was contained in affidavits filed 30 July 2010 and 16 August 20 10.
37. The evidence, if accepted, was asserted to demonstrate that the father had been denied procedural
fairness before the trial Jud ge because the proceedings had been conducted "on the papers" and
without any cross -exam ination . The father asserted this occurred without his knowledge or consent.
He also asserted he was denied the opportunity of putting eviden ce before the Court of the legal
remedies, including domestic violence personal protection orders, available under Norwegian law
which could be utilised to protect the mother if she returned with the child to Norway.
38. The mother' s senior counsel did not object to paragra phs J to 18 of an affidavit swo rn by the father
and filed on 30 July 2010 ("the first affidavit") being admitted by way of further evidence, nor did
he oppose an annexure to an affidavit of the father filed 16 August 2010 being adduced. That
annexure was the email from Ms P dated 6 July 2009. It is the same document the State Central
Authority requested be drawn to our attention. Senior counsel for the mother otherwise opposed the
father's application to adduce further evidence. We do not propose to receive any further evidenc e
other than that which is consente d to, or not opposed . We will exp lain our reasons later.
39. In paragraphs 1 to 18 of his first affidavit the father depos ed to communicating with both "the
Norwegian and Australian Authorities" in respect of his legal representation in the proceedings.
The father annexed to his affidavit an email from an officer of the Norwe gian Ministry of Justice
and the Police (Mr J) dated 10 June 2009 and a res ponse of the same day from Mr S, L egal Officer,
International Fami ly Law Sect ion of the Australian Attorney-General's Department as the
Commonw ealth Central Authority . Mr J' s email .included the following request for information :

Furthermore , the father is wondering whether be will be represented by au attorney in Australia. If so,
docs the Centra l Authority appoint an attorney on his behalf? As it seem s to be several aspects that have

210a.

http: //www.au stlii .edu .a11/cgi-bin/sinodi sp/:111/ca
scs/c1h/FamCA FC/20 I0/221.hl ml ?ste m=O&s)' llonyms~O&qucry=ti ik (lmrris%20a nd%20 11Rrris%20)

12/32

27-FA-15-499

L0/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20101 FamCAFC 221; (5 Nove,uber 20 10)

to be assessed closely by the co urt in th.is matter , the father has great concerns as to how he can ascertain
that his rights are safeguarded during the Hague proceedings .

40. The father then annexed the chain of emails which are set out as follows:
I would kindly remind you of my e-mail IO June 2009 .
The father is very concerned about the furthe r proceedings in this matter and whether he wi ll be
represented by an Australian attorney. Thus, I allow mysel f to remind you of this issue.

fThe father] wi II indeed be represented in Australian by an attorney. I am in close contact with Ithe
father 'sj attorney. [The father's] attorney is extreme ly experienced in Hague abduction applications and
admits that there are several aspects of the application which will be closely scrutinised by the court. It
wou ld be greatly appreciated if yo u could please infotm [the fatherj that his attorney will, of course, act
diligently and always in his interests.

41. On 22 June 2009 Mr J wrote to Mr S by email in the following term s:

ls it possib le for [the fatherJ to get in contact with his AustrnJian attorney? Since there are several aspects
that have to be closely considered I assume that it wou ld be most practical if [the fatber 's J Norwegian and
AustraJian attorney get in direct contact with each other.

42. By email dated 23 June 2009 Mr S re spo nded to Mr J' s email as follows:
Thank you for the e-mai l. 1 have spo ken with Lthe father 's I counsel and she is fine with me providing you
hel' e-mail address. Thi s can be pa ssed on to Lthefather I and his Norwegi an attorney.
[The father 'sl counsel is Ms. [P]. Her e-mail addr ess is [omitted]
However , [the father ] shou ld be aware that instruction s to his counsel have to come from the Australian
Central Authority.

43 . The father deposed that he thereafter wrote to Ms P by letter elated 28 June 2009 (a copy of letter
which was annexed to his affidavit) as follows:
1 am informed by the Norwegian authorities that you are represent in g me in the case of I the moth erl
abducting my son fthe child].
Tm am very glad to get in contakt with you and have a few questions for you .
First of all am I wondering what Mr. fSJ m ent in his mail by writi ng:
' However , !the father] should be aware that instru c tion s to his counsel have to come fr om the Australian
Central Authority.'
Second l would like to lmow if I can only have limited contakt with you.

211a.

hitp://www.austlii .edu .au/cgi-bin/sinodisp/au/cases/cth/FamCA FC/20 I0/22 I.htmI?s1cm=O&sy11
0 11
yms=0&q11
e ry=t itle(harris%20and%20Hanis%20)

13/3 2

27-FA-15-499

I0/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harr is & Harris [20101 FamCAFC 221; (5 Novemher 2010)

Basically what rights do [the ch ild] and I have and what you can do for us?
I have been told that you are an experienced lawer. And that you bave pointed at some hole s in my
paperwork. lam looking forward to hear more about what you think and am more than willing to answer
any questions. I have a lot of material/ proof. Please let me know what I can do to update you.
I am very depentent of somone to take charge. So far I have not found anyone to do that.
Looking forward to hearing from you. (original spelling and grammar)
44. The father corresponded directly to the Commonwealth Cen tral Authority on 1 July 2009. The
father wrote to an officer of the Commonweal th Central Authority , Ms Mas follows:

Twas informed that you are the new case officer of AustraLian Central Authority afte r LMr SJ.

If there are anything I can do for you. Papers yo u need, proof, questions etc. please don't hesitate to ask.
I would like to make conta kt with my counsel Ms. fPJ.Her e-mail address that was send t to me is:
[omittedJ
1 have send t her an e-mail last Sunday, but I have not received any answer .
... (original spe lling and grammar)
45. The annexures to the father's first affidavit disclosed that on 3 July 2009 Ms M adv ised the father
that she was the case officer working on his matter, that Ms P was "c urrently out of the office and
will be returning early next week" . Ms M concluded her email as follows:

In the future, if you hav e any queries or questions regarding yo ur matter, plea se communicat e thrnugh the
Norwegian Central Authority .
46. Mr J wrote to Ms Mon 3 July 2009 pointing out that Mr Shad given permission to the father and
his then Norwegian attorney, Mr fO], to make direct contact with Ms P.
47 . The father also sought to rely on his affidavit filed on 16 August 20 lO ("the seco nd affidavit" ). He
annexed to his affidavit an emaiJ forwarded to him by Ms Pon 6 July 2009. As we bave previously
recorded, senior counsel for the moth er objected to the affidavit but did not object to the annexure,
the contents of which are as follows:

1 am sorry it took me a few days to respon d to your e-mail.
Although I am happy to comm unicate with you need [sicJ to know that as the Central Authority for NSW
my instructions come from the Australian Commonwealth Centra l Authority . The Convention is about an
agreement between cmmt ries - here the agreement between Norway and Au stralia. I am not. your lawyer
although Jam dealing with the application for the return of the child to Norway.
Yes I think you have a difficult case -although the mother's material under theses rsic] proc eedings will
be filed tomorrow l have seen her ev idence in the parenting proceedings. The mother says that she has
been subje cted to violence and that includes a fracture to her arm - there are a lot of particularised detail s
about the alleged violen ce. I kn ow you reject strongly the content ion that you have been violent to your
child - but if there has been extensive violence to the mothes and the child has witnessed the violence
then it is arguable that the defence under artic le J3 is likely to be made out. Article J 3 provide s:
Notwithstanding the provisions of the preceding Article , the judicial or admini strative authority of the
reguested State is not bound to order the return of the child if the person, institution or other body which
opposes its return estab lishes that-(b) there is a grave risk that his or her return wou ld expose the chi ld to
physical or psychological harm or otherwise place the ch ild in an intolerabl e situation.

212a.
hllp://www .austl ii.edu.a11/cgi-bi11/sinodisp/a11/cascs/cth/FamCAFC/2010/221.hlml?stemocO&sy11011y111s=O&query=litlc(harris
%20anct%20H arris%20)

14/32

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [2010] FamCAFC 22 1; (S No vcmbcr2010 )

10/23/2018

Please discuss this with your Norwegian lawyer to see if there are any solutions you can put forwa rd to
negate this potential defence .
... (origina l emphas is)
48 . At paragraph 16 of his first affidavit, the father deposed:
On 13 July 2009, ..., the Higher Execulive Officer at the Royal Ministry of Justice and the Police sent a
letter to [Ms MJ. Attached and marked "8" is a copy of the letter dated 13 July 2009. I had had
disc ussions with the Norwegian author ities about my representation in the procee din gs . I cannot recall if I
was aware at the time that the letter had been sent. I was not pro vided with a copy of the letter at the time.
(original emphasis)

4?, Annexure

"8" of bis first affidav it, which is a facsimi le transmission dated 13 July 2009, was
forwarded by the Royal Ministry of Justice and the Police to the Common wea lth Central Author ity.
The facsimile includes the following:

Reference is made to previous corresponde nce in the above-mentioned case, latest you r e-mail dated 9
July 2009.
Please be inform ed that rthe father] has contacted us and requested information about finding an attorney
in Australia .
We kindly ask you to provide us with the information necessary on legal aid in child abduction cases in
Australia, includin g the procedure regarding a possib le app lication for free legal aid in child abduction
cases, and how to estab lish co ntact with an approp riate attorney in Australia.
50. The father also annexed to his first affidavit an email to him from Ms M dated 20 July 2009 which
concluded as follows:

I would also like to confirm receipt of your fax_dated 13 July 2009. lam currently drafted [sic] a response
which with lsicl provide you with further information abo ut the process in A ustra lia.

51. On 27 July 2009 the fathe r fo rwarded an email to Ms Pin the following terms:
Can you plea se give me information about how the prosedure is in the courtroo m.
Are [the motherl allowed to com there?
Shou ld I bee there ?
Are you representing both [the mother] and me, or only me.
ls the material going to be presented verbally in the court room . Who are doing that?
Are you presenting only my material or both Lthe mother 's I materia l and mine?
... (original spelling and gramm ar)
52. By email of the same date, Ms P replied as follows:
Dear lthe fat herl

213a.
hll p:llwww.aust Iii .cdu .au/cgi-lii n/si nodisf>/au/cases/cthffamCA FC/20 I 0122 I .ht ml ?stcmcc()&synonym s=0&query =t111e(harris%20a11d%20 Harri s%20)

15/J 2

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20 10] FamCAFC 22 I; (5 November 2010)

Yes fthe mother] will be present but generally she will not be able to talk . Th e judge will decide the case
on pap ers filed by both sides. No you do not need to be in Australia - the other side have not asked and
generally we do not ask the left behind parent to travel to Australia.
I am not representing you but I will argue the case for the return. This application is hrought by the
Australian Govt as a result of the request by the Norwegian Govt - it is an obligation the [sic] both
countries have under the Convention .
I have asked a very experience rsicl barrister to argue your case. She has all the paperwork and we are
now waiting for your material.
The barrister made the following observation on yom case:

1t seems to me that if we are to have anY.c hance of winning this case we must obtain an affidavit from the
Central AuthoritY. in NorwaY.setting out:

fo) the law

in relation to domestic violence, custodY-cases involving domestic violence, and PJ!Y.mentof
maintenance;_(b) what facilities are available to a mother who is afraid of the father of her small child ~g. refugee , DVO orders,.P-olice r.rotection etc ..

.(g) what funds would be avaiJable to assist the mother if she were living~r.aratelY. from the father ,
r.ossiblY.in a different villag~
In short , we need some official answer to the things she states she has been told. It will not be enough fOT
the father to denY.anY.or all of the alleged incidents of violence, because her sto rY.has the ring of truth
about it and l am unlikelY.to be able to make her resile from it to any_great extent in cross examination
I agree with the barrister's comments. I have ju st sent the barrister's comments to the Australian
Com monwealth Central Authority and asked them to get a response from the Norwegian Central
Authority. It will be helpful if you too can ask your Central Authority to address the issued Isic.I identified
by the barrister. (original emphasis)
53. The annexures to the father's fiJst affidavit also disclose an emaiJ, in the Norwegian language, to
his lawyer, Mr V, dated 28 July 2009 which includes the following English title "FW: Information
about the court procedure ...".
54. The balanc e of the father's first affidavit refers to events occurring after the hearing before the trial
Judge. The evidence sought to be adduced by the father includes correspondence from the Ministry
of Justice and the Police regar ding remedi es available in the Norwegian court syste m. Senior
counse l for the mother objected to us rece iving this ev idence on the basis that it was readiJy
available prior to the hearin g before the trial Judg e. We do not propose to admit this m ate rial as, if
admitted, it would not affect the outcome of the appeal.
55. The father also sought, outside the tim e provided in the rules, to adduce evidence, bein g the
affidavit of his Norwegian law yer, MrV, filed 13 August 2010 and his former lawyer , Mr 0, sworn
16 August 2010. Objection was take11to each of these affidavits on the basis they were contenti ous
and the mother was not able to test the evidence clue to the late filing of the affidavits.
56 . We accept the submis sions of senior counsel for the mother that the evidence in affidavits of the
lawyer s, if adduced, is con tentio us and would result in a denial of pro cedural fairness to the mother
who could not, in the shor t time a vai lable after filing of the fathe r's material (13 and 16 August
2010), take reasonable steps to test the mate rial, or to adduce evidence in re spons e (see CDJ v VAf
(1998) 197 CLR 172). It is for this reason we do not propose to aclmil these two affidavits , or the
seco nd affidavit of the father save and except the aunexure to that affidav it being the email from Ms
P dated 6 July 2009.
57 . In support of the procedural fairness cha llenge the submissions (ora l and written) of Coun sel fo r the
fat her were:
o that the response from Mr S to the father' s enq uiry as to whether he wo uld be represented in
Australia was clear and unequivocal , but fund ame ntally wrong;
o the father should have been advised by the Crnruno nwealth Central Authority from the outset
the natur e of its role, and th e choice available to tl1e fa ther, if he thought it necessary, to

214a.

hllp://www.austlii..ed u.au/cgi-bin/sinodisp/au/cases/cth/FamCAFC/20 I0/22 1.html?slcm=<l&sy nonyms~O&qncry=litlc(barris%20anrl%20Harris%20)

16/32

27-FA-15-499

I0/'13/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris j20IO I FamCAFC 221; (5 November 20 l0)

protect his own rights and interest s, to obtain his own representation and be heard in the
proceedings ;
o the father was not represented , and there was confusion created by the advic e from the
Commonwealth Central Authorit y and the State Central Authority as to whether he was
represented , or could be represented (this was exacerbated because the father was a foreign
person coming from a foreign (inquisitorial) system);
o that the advice in Ms P 's email of 6 July 2009 to the fa ther was inadeq uate to prop erly alert
the father of his rights;
o being unrepresented the father was significantly disadvantaged in being denied the
opportunity of instructing counsel to cross-examine the mother (it was readily conceded by
the father's counsel that if be had been represent ed, and his counsel had chosen not to crossexamine the mother, the father could have no complaint );
o in a prosecutorial model involving a fundamental factual contest between the mother and the
non-party father, the trial Judge needed to make an enquiry and be sa tisfied that the father
had been informed of his rights and had elected not to participate in the proc eedings by
mean s of adducing ora l evidenc e or cross -exam ination; and
o as the father was not represented he was denied the opportunity of counsel objecting to part s
of the evidenc e, including an wiswo rn witnes s statement annexed to the mother 's affidavit
filed 8 July 2009.
Discussion
58. At the commencement of our discussion it is instructive to note that, at a time when he was
represented by Norwegian lawyers, the father's lawyer made an application on his behalf to the
Norwegian Central Authority on 19 Mar ch 2009 reque sting the authority to seek the return of the
child to Norway.
59. We acc ept that the correspondence rece ived by the father from the Commonwealth Centra l
Authority dated 22 June 2009 was erroneous and misleading . The error was compounded by the
further email dat ed 23 June 2009 sent to the father provid ing Ms P' s deta ils.
60 . We are satisfied however that by 6 July 2009, as a result of Ms P' s advice, the father had been made
aware she was not personalJy representing him , that he had a difficult case, and his attorney's letter
dated 13July 2009 to the Commonwealth Central Authority confum s that the father was certainl y
aware he could obtain his own legal repre sentation and that he sought to do so.
6 1. We are unawar e whether the Commonwealth Central Auth ority replied to the attorney's letter of 13
July 2009. However, the father 's later corres pondence dated 27 July 2009 with Ms P implie s that he
was aware of the State Central Authority 's role in the proc eedings , and sought advice about how
the State Central Authority would conduct the pro ceedin gs. We note Ms P 's reply was forwa rded to
the father's attorney, and that the father co uld have , and perhaps did , thereafter receive advice fr om
that attorney abot1t retainin g his own legal repre sentati on. These factors lead to an inference the
father had determined at this point to rely on the State Central Authority to conduct the appli cation .
62. Notwithstanding we accept the father did receive initially misl ead ing and perhaps deficient
infonnation from the Commonwealth Central Authority, overall we are not satisfied that the advice
received, taken as a whole, denied him prncedural fairn ess. While we were initiall y conc erned on
the material originally filed that the proced mal fa irness ground was arguable, the contents of Ms P's
email of 6 July 2009 clarified whal might have otherwise been misleading.
63. Counsel for the fathe r did not sugges t a trial Judge' s responsibili ties required him or her to "go
behind " the application in every case brou ght for return of a child ~mder the Conventio n to ensure
tJ1e1ights of a parent see king return of a child were full y prote cted . Rather, he sought to limit the
duty to cases such as the present where the evide nce about domest ic violence was controve rsial,
and where neither party before the trial Judge sought there should be cross-exa mination of the
mothe r and or the father. ln these circumstances, he submitt ed it was incumb ent on a trial Judge,
and where the "left behind" parent was not lega lly repre sented , to enquire whether that parent knew
he or she, if represented , could seek to cross-exa mine the person who had removed or retained the
child.
64 . We do not acce pt, as asserted by the father' s counsel, that there is an obli gation on a trial Jud ge to
go beyo nd the case presented by the applicant , in this case the State CeJJtral Authority, and to
independently requir e evide nce that a "left behind parent" is aware that , if independently
represented, he or she may instruct co unsel to seek cross-exam ina Lionof the party opposing return.

215a.

ht!p://www.auslIii .c<lu.au/cgi-hin/si nod isp/au/cases/cth/ramCA FC/20 I0/221 .b1ml?slcm=O&synonyms=0&q ucry=Iilie( harris%20anrl%20Harris%20)

I7 /32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris l20IOJ FamCAFC 221; (.5 November 2010)

65. A trial Jud ge may independently determine that he or she requ ires cross-examination of a party or
witness. It is to be remembered the procee din gs in the Court a re adversarial. It is not a requirem e nt ,
nor could i_tproperly be a requirement, for a trial Jud ge to engage in an independent or inqui sitorial
exe rcise to de termine what migh t be the lrnowl edg e of a part y who has requ ested the assistance of
the Centra l Authority of his or her State to seek an order for the return of a child .
66 . Nor do we accep t , as subm itted on behalf of the father, that Ms P 's advi ce of 27 July 2009 was s uch
to lead the father to believe there would be cross-examina tion of the m ot her , notwithstandi ng the
extract fr om counse l's advice to her contained in her ema il . Ms P's adv ice was clear - the case
would be conducted "o n the paper s" , and cro ss-exa mination of the mother was unlikely to ca use
her to depa1t from her e vidence i n chief.
67. The father's counse l raise d , but did not strongly press in his oral submi ss ion s, a submiss ion tha t it
was incumbent on the trial Jud ge to have required cross -e xamination because of the co ntradict o ry
evi dence of the pa rties regarding incidents of dome stic violence.
68. At paragraph 80, the tria l Jud ge explained how the pro cee ding s had bee n conducted and the
approach she intended to app ly as fo llows:
Pri or to MW v Director -General , Dept of Commu nity Services 120081 HCA 12; .(2008) 39 Fam LR 1 the
general approach to Abductio n Co n vention hear ings was that they ten ded to be undertaken wi thout cross examination. Post MW v Di.rector-Genera l , Dept of Comm unity Services where partie s see k to test the
ev idence through cross -examinat ion it is us uall y permitted. No nethele ss and notwithstandin g the
co nflicted nature of the partie s [sic] evidence, they elec ted to con du ct this hearing without cros sexamina tion. The Ce ntral Authority submitted that where there is con flict in the evidenc e T would pr efe r
the ev idence given by the father in preferen ce to the mother 's. While I accept there are internal
inconsi stencie s in as pects of the moth er 's ev idence her evidence is not so co mpromi sed that l wo uld be
prepared to adopt this approach. I hav e applied the approach adopted by Jordan J , w hich was cited w ith
approval by the Full Cou 1t in Panayotid es v Panayotides .(1997) PLC 92 -733 per Foga rty and Baker JJ
(with whom Finn J agr ee d), namely:
The first thing to observe is that the re is much co nflict in the evide nce . These are su mmar y proceedings
and iss ues mu st be determined on the paper s. T his of ten presents the Co tUt wit h diffic ultie s . Jt wo uld
genera lly be inappropr iate to abso lut ely reject the swo rn test imony of a dep one nt (see, Re F J 992] J FLR
548)., As was submitted by co unse l for the Centra l A uthor ity, T sim pl y must do the best I can. T look to the
versions of eac h of the partie s, T find the common gro un d, and I note the a rea s of confl ic t. I can look to
the inherent probabilitie s. Of co ur se , when one is talk ing about the int ent of partie s, where thi s is a matt er
of some conj ectur e, one looks to the conduct of th e parti es, and any documentary or corroborative
evidence which may help to de termine that issue .

r

69 . Alth o ugh her Honour's statement in paragrap h 80 about the general approach adopted in
Conven tion cases before the decision of the High Court in MW v Director -General is pe rhaps
so mewh at wide ly stated, hav ing rega rd to dec isions suc h as De L v Dire ctor -Genera l, New South
Wile s Department of Commun ity Servi ces Ll996 J HCA 5; ( 1996) 187 CL R 640 and Dire ctorGene r al NSWDepartment of Co mmunit y Services & J LM 1200 LlFam CA l 338; .(2001) FLC 93090 , we are not sat isfied that her H ono ur fe ll into app eal able error by not requiring cross examination . It mu st be rem emb ered that both pa rties befor e her Honou r we re represe nted by
cou nsel experienced in the jurisdiction . Both counsel made a forensic decision that the matter
should be conducte d on the papers. Co uns e l for the State Ce ntral Authority determined to rnn the
case w itho ut testin g the moth er 's evidence. In so concludin g we are mindful of the obse r vations of
Gumm ow, Heydon and Crennan JJ in MW v Dire cto r-G enera l , Department of Co mmuni ty Ser vices
at para gra ph s 45 and 46 and that her Hono m cou ld , if she thou ght essen tial , have requ ired the
mot he r and father to be availab le fo r cross -exa min ation .
70 . Before us the father 's co unse l submitt ed that not only did the forensic deci sio n no t to crossexam ine re sult in procedural unfairn ess to the fa ther, but the fa ilure of coun se l for the State Ce ntral
Authority to object to cer tain documents ann exed to the mother' s affidav it was also prejudicial to
him , it bei ng asserted that the docum ents wou ld have bee n challen ge d had he been rep rese nte d. We
wil l deal with thi s com pl ain t when discussi ng the grou nd s in res pect of "factua l finding err ors".
7 1. ln summ ary we find no merit in the pro cedu ra l fairness chall e nge.

THE APPROACH CHALLENGE

216a.

http://www.auslIii.cdu .au/cgi-ui11
/siuodisp/au/cascs/cth/FamCAFCno J0/221.h1111I?stem=0&synonyms=0&,1uery=ti I Ie( harris%20and%20Harris%20)

18/32

27-FA-15-499

I0/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20101 FamCAl'C 221; (5 November201U )

72. The father's counsel submitted the trial Judge had e rred by approaching tile matter on the basis that ,
if the orders sought in the app lication were granted, the mother and child would be returned to
Norway rather than, as the application and regulations required , considering separately the return of
the child to Norway ("the challenge to the trial Judge's approach) . He drew our attention to the
application itse lf which requir ed the return of the child (but not the mother) to Norway, and the
wording of reg 14.
73 . We accept both the application made to the Norwegian Central Authority and the Commonwealth
Central Authority, and reg 14, refer to the return of a child, and not the return of the mother (or
father) and cl1ild.
74. The father 's counsel relied on a letter from the father's Norwegian Attorney, Mr [VJ, to Ms P dated
28 July 2009 in support of his assertion that the child shou ld be returned to Norway without
consideration of his retmn with the mother. The relevant passage from Mr LV'sJ letter is as follows:
On behalf of [the fatherj l ask the court to order the fo llowing :
l. [fhe childJ should be returned to Norway without an unnece ssary delay .
2. If [the motherJ does not return fthe child] in spite of a court order, fthe father] shou ld have the right
to bring [the child] to Norway, if nece ssa ry by the assist [sic] of the Australian authorities.

The trial Judge 's approach to the application
75 . He r Honour' s discussion of this topic is understandab ly brief . That is explicable when regard is had
to the outline of case relied on by counsel for the State Central Authority at page 21 which was in
the fo llowing terms:
4. The father has proposed a regime whereby he have supervised contact with the chi ld pending the
determination by a court of the appropriate residence and contact arrangements for the child in the long
term. The father 's mother has offered the respo ndent a flat to live in and she has repeated this offer.
Lfootnote omitted]
76. Although the mother opposed the return order, at no time was it her case that she would not return
to Norway if an order was made for the return of the ch ild .
77. At paragraph 180, her Honour commenced her discussion of the Norweg ian domestic law by
say ing "I turn next to consideration of what may happen were the child returned to Norway " . At
paragraph 189 of her reas ons , the trial Judge explained that on return to Norway the mother wo uld
be Likely to seek police protection.
78. There was no serious dispute in this case that the mother had been the primary carer of the c hild in
Norway and that he was a toddler when taken to Au strnlia in November 2008. He was a lmo st three
years old at the date of the order s of the tria l Judge . The father did n ot propose that the child should
be returned to his care unless the mo the r failed to comply with an order of the Court to return to
chi ld to Norway. Rather, as is clear from his material, be propos ed that he exerc ise supervised
contact to the child. Thu s , the case proceeded on the basis it was the common expectation of the
parties if an order for return was made , the mother wo uld return to Norway .
79. ln thes e circumstances we think it would have been artificial for the trial Judge to determin e the
application on the bas is the child should be returned independent ly from cons iderati on of his return
with the moth e r.
80. We consider the fact s in thi s case distinguish it from those cases where, for whatever reason, a
parent who has removed a child from hi s or her habitua l residence determines that he or she wil l
not return with the child to the place of habitual res idenc e , and seek s to rely on a defence of
physica l or psychological harm to the child, or otherwise placing the c hild in an intolerab le
situation beca use of the absence of the prim ary careg iver in the place of habitua l residence . Thus
obse rvation s such as tho se of Butler -Sloss LJ in C v C (Minor: Abduction : Rights of Custod y)
f 198912 All ER 465 at 47 1 where her Hon our said :
T he grav e risk of ha1m a rises not from the return of the child, but the refu sa l of the mo ther to accompany
him ... Is a parent to crea te the psycholo gical sit uat ion, and then rely on it? lf the grav e risk of
psy chologic a l harm to a child is to be inflicted by217a.
the conduct of the parent who abducted him, then it
http://www.austlii .cdu .nu/cgi- bin/sinod isp/au/cases/cth/FnmCAFC/20 I0/22 1.html'Islem=O&synonymS"-O&q ucry=tiI lc(harris%20and %20Harris %20)

19/32

27-FA-15-499

10/23/20 18

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris 120101FamCAFC 22 1; (5 November 2010)

would be relied on by every mot her of a young child who removed him out of the juri sdiction and refused
to return . It would drive a coach and four through the co nvention, at least in respect of application s
relating to young children.
have no applica tion to the facts of this case. We see no merit in this ground.

THE ASSERTED ERRORS IN FACT FINDINGS CONCERNING GRAVE RISK
81. While the father 's counsel provided detailed submissions about this topi c, those submissions ma y
be summarised as asse1ted errors by her Honour in making factual findings which were not
supported by the evidence, or based on inadequate or inconclusive co n oborative evidence, or that
the trial Judge erred in accepting the mother's untested evidence on the topic of domesti c violence
whilst rejecting other parts of her untested evidence . Counsel for the father also asserted that,
although her Honour correctly identified the standard of proof to be applied, she erred in failing to
have appropriate regard to that standard.
82. In order to exa mine this complaint, it is necessary we refer to the trial Judg e's reasons which
ultimately led to her Honour's conclusion of grave risk to the child of physical and psycho logi cal
ham, if return ed to Norway. As we hav e already explained , it was common ground betwe en the
paities that the proceedings would be heard "on the papers " and without cross-examination of any
witne ss. In her reci tation of the evidence under the heading "Background fact s" and lat er in her
reasons when cons idering "th e defen ces" her Honour set out the history of alleged injuri es
sustai ned by the mother and occasions when the parties and/or the mother so ught counselling
assistance which the mother relied 011 to support her contention of grave risk.
83. The findings which ultimately led to her Honour' s concl usion of grave risk to the ch ild of phys ical
and psyc hological harm if return ed to Norway are found in paragraph 173 of die trial Judge 's
reasons. These findings are imp01tant and we set them out in full:
In summary, in relation to the mother 's allegation s of verba l abuse and physical violence 1 am satisfied
that the father :
• Between December 2006 and February 2007 was verbally abus ive and physically violent toward s
the mother which prompted her to seek assistance from a dome stic violence counsellor in February
2007.
• In March 2007 using a closed fist punched the mother in the face.
• On 20 November 2007, in the course of an argumen t, jabbed his finger in her eye which resulted in
an eye injury and the moth er requirin g treatment at hospital .
• On 14 May 2008 broke the mother 's arm.
• On 22 Jun e 2008 pushed the mother iuto a wall which caused her arm to be re-broken.
• Attempted to strangle the mother which resulted in brui ses to her face and 'red strang ling marks
around her neck' as observed at the crisis centre.
• On 18 September 2008 pbysica Uy assau lted the mother as a result of which he blackened her right
eye and bruise d her left upper arm, which injuri es were obse rved at a cas ualty clinic.
o On 15 December 2008 threatened to kill the mother .
84. At paragra ph 174, her Honour referred to other evidence of the mother as fo llows:
Wbile the mother, as I ha ve already fo und , gave evidence of more penasive violence, I ha ve been unable
to conclud e that this mor e pervasive violence occurred . How ever, even without the addit ional matt ers
deposed to by the mother being taken into acco unt , the mother has satisfied me she has been the victim of
severe violence inflicted upon her by the father.
85 . The conclu sions about grave risk which the trial Judg e drew, based on her fac tual findings, are
fo und in paragraph s 175 to 190 of her Honour 's reasons. We will refer to those conclusions in
greater detail when we examine the grave risk defences .
86. At the commen cement of her reasons, the trial Jud ge, at paragrap h 80, referred to the state of the
e vidence before her. It is useful we again repeat the salie nt porti on of that para graph :
... The Ce ntral Authority submitted that where there is con flict in the evide nce l would prefer the evidence
given by the father in preference to the mother's. While I accept there are internal inconsi stencies in

218a.

http;//www.austlii.edu .au/cgi-hi 11/sinodisp/au/casos/cih/FatnCA FC/20 I0/221. ht mI'/stem=0&s ynonyms=0&q ucry=li11c(harris%20and %20Harris%20)

20/32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [2010 ] FamCA FC 221 ; (5 Nove mber20IO )

aspe cts of the mother 's evidence her eviden ce is not so compromi sed that l would be prepared to adopt
this approach ....
87. Her Honour discussed the way the proceedings were conducted at paragraph 143 of her reason s
where she noted:
For reason s best known to them, the parties adopted the course of deciding against cross examination .
This has made resolution of this case and analys is of these risk issues very difficult. The father's
concession put it beyond dispute there has been verbal and physical violence between the parents and
behaviour which would almost certainly have been psychologically harmful to the chi ld .
88 . The trial Judge indicated the specific approach she intended to take to the volum inous evidence
relied on by the State Central Authority and the mother by noting :

... lt would not aid the adjudication of these matters to recite in their entirety the various allegations and
denials. The approach I have determined upon is to recount some key elements whic h give the flavour of
the disputed evidence as well as to highlight whe re concessions were made , unchall enged evidence and
otherwise disputed facts which were corroborated by compelling evidence . (paragraph 140) (our
emphasis)
89. Her Honour then went on to say she proposed to deal with the ev idence adopting the approach used
by Jordan Jin Panayotides & Panayotides which we have set out in paragraph 68, having regard to
the comments of the Full Court in that case when the matter was subje ct of an appeal .
90 . Also relevant to this discussion is her Honour's explanation in paragraph 82 of her rea sons . There
she said:
Fortunately in relation to a number of factual disputes there is independent evidence available to which it
is appropriat e to attach significant weight. There is also a considerable amount of evidence fr om the
parties close friends aad family member s filed in support of their respe ctive cases. Unl ess stated
differently this ev idence is not suffic iently independent that it wou ld be appropriate to attach to it the
degree of weight which would be required to resolve d isputed evidence .
91 . It is clear from her Honour' s exp lanation in paragraph 82 she reje c ted as having sufficient probati ve
weight to determine the serious issue of physical and psychological abu se much of the evidence
relied on , particularly by the father, which evidence included statements from his family members
and others who had seen him interact with the child.
92. Her Honour commenced her considerat ion of grave risk of physical or psycho logica l harm, or
placing the child in an intol erabl e situation, at paragraph 138 of her reasons. Having been referred
to the relevant authorities on the burden of proof and the constru c tion of reg 16 as exp ounded by
the High Court in DP v Commonwealth Central Authority [200 I] HCA 39; .( 200 l ) 206 CLR 401 ,
her Honour further particulari sed the part ies' evidence of the incident s of dom estic violenc e and , at
parag raph 142, noted the father's denial of the majority of the mother's allegations . ln respect of
this evidence her Honom said :
... If his ev idence wer e accepted the mother would be found to be the aggressor in the ir verbal and
physical alte rcati ons and he the victim of numerous rape s . He said she was a martial art s expert and that
as well as being violent to him, the mother threatened to hann the child on several occasions . It was his
evidence that: ' On some occa sion s [the mother 's_!ag gression has resu lted in all out brawl s in which we
both suffered bodily injuries '. For example , he gave evidence he had twice suffered a black eye infli c ted
by the mother.

93. At paragraph 145, the trial Judge set out the father's account of the first domestic dispute betw een
the parties and noted that the moth er den ied that evidence .
94. The trial Jud ge record ed that the mother ass erted the father repeatedly threaten ed to kill her if she
went to the police or told a doctor. The fath er denied the alle gation . Th e fath er 's moth er and sister
denied the mother informed them of these threat s, or thaLthey heard the fath e r mak e the threats .
95. At para graph 157 , the trial Jud ge dea lt with the mother 's interaction with the father 's mother. He r
Honour obs erved the following about the father 's mother 's evidenc e :

219a.
htt p://w ww.ausl Iii.c<l11.au/cg i-llin/s inodisp/a u/cases/c l h!f'amCA FC/20 I 0/221 .hl ml?s1cm'cc()&sy
10111yrnScccO&
q uery=Ii tie( harris%20an d %20H ar ris%2 0)

2 1/32

27-FA-15-499

L0/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20101FamCAFC22 1; (5 Novcmbcr2010)

...r have no difficulty accepting her denial and accept that she tried to find a way, within the priva cy of
the family , to help the parents reso lve their mari tal discord but not at the expense of personal safety . The
father agreed that the parents disc usse d the violence in their marriage with his mother and that she
advised him he must not, no matter what hit the mother.
96. Comme ncing at paragraph 160, her Honour di scussed in detail the ev idence conce rnin g the incident
on 14 May 2008 when the mother's arm was brok en.
97. At para graph 162 of her reasons , the trial Jud ge reco rded "there is no dispute that the mother's arm
was broken and that the injur y occ urred dlll'ing a violen t altercatio n between her and the father" .
Her Honour obse rved that altho ugh the father said the moth er pushed and attacked him, that
co ntrary to other incident s, he gave no evidence of the manner of attack or being afraid . Her
Honour noted the father was not injured, and it was only the follow in g mornin g that he took the
mother to hospital and rem ained with her when she inform ed the docto r her aim was broken in a
fall.
98. Having referred to the hospital notes of 16 May 2008 , which her Honour set out in ful l, at
paragraph 164, her Hon our concluded:
... The eviden ce does not demonstrate that the father actions were in any way proportionate to the leve l of
aggressio n , which, if his evide nce was accepted , had been initi ate d by the mother. His action s were
disprop01tionate to the situation and are very troubling.
99. At paragraph 166 and following, the trial Judge dealt with the incide nt on 22 Jun e 2008 when the
mother 's ar m was re-broke n . Hav ing set out both the mother and fa ther' s vers ions of the incident
her Honour co nclud ed:
... Again although some of the surroundin g circumstances are in disput e there is no dispute that during an
argument the fat her pushed the moth er, which is how she said she was injured. I am sa tisfied this is how
the mothe r 's arm was re-broken.
I00 . Her Honour then went oo to deal with the mother's evidence about the fat her 's asserted aggression
on the parties ' reh1rn to Norway, includin g her evidence that the father had struck both herself and
the chi ld . Having recorded that the father denied eve r assau lting the child her Honour said , at
paragraph 170:
... The fre q uency and the severity of beatings which the mother sa id the father inflicted up011 the child
su gges ts that one at leas t of the num erous witnesses would have seen signs of physical ab use on the chi ld .
That there are none persuades me that on this matter the mother's evidence warrant s co nsiderab le ca ution.
I0 1. ln dea ling with the incident in which the mother attended a casualty clini c on 18 September 2008
when she suffered a black eye and bruising to her arm , the trial Judge noted the clinic notes did not
record the mother as havi ng disclosed the fa ther was also beating the child . Again the trial Jud ge
found, having regard to the father's deni al, and lack of corroborative ev idence in re1ation to the
chi ld, she was not satisfied that the father had assa ulted the child .
J 02 . After the mother' s arm was bro ken in May 2008 the trial Judge exp lain ed, at paragraph 150, that
the mother had again consulted the cr isis centre. The statement fr om a Ms B at the Norwegian crisis
cent re includ ed her hearsay ev idence that one of her colleag ues had witnessed bruises to the
mother's face and "red stra ngling marks aroun d her neck". Of Ms B' s evidence the trial Jud ge
observed :
... !Ms BJis independen t of the pa rents and her evidence warran ts reasonable weight. lt co rroborates the
mother's evide nce of physical abuse of her and her conce rn that the fathe r 's verbally abusive behaviour
was also dire cted to their son. T his evide nce of the mot her 's complaint and injury well prior to separatio n
tends to und ermin e the suggestion made by the Cent ral Authority of in effect recent invention by the
moth er of the fat her 's mi streatment of her and the chi ld . (paragrap h 150)

I 03. ln his writte n summary of argument , cou nsel for the fat her submitted there were a number of
diffic ulties with the reliance placed by the trial Judg e on Ms B's evidence . He referred to the fact
that her statement was an unsworn doc ument , that the fat her 's evidence disclosed no notes were
maint ained by her organisatio n, the genera lity of the matter s in her statement , a lack of reporting by

220a.

hllp://www.austlii.c<lu .,1u/cgi-bi11/sinodisp/au/cnscs/c1h/Fa111
CA FC/20 I0/22 1.himl ?slcm=O&synony ms=O&qucry=Lilie( harris%20aud%20Harris%20)

22/32

27-FA-15-499

I0/2.1/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [201DJFamCAFC 221; (5 November 2010)

the mother of the injmies reported by Ms B's colleague, and asserted failure to link the assertions of
the mother to the corroborative evidence of Ms B. Tt was submilted (father's submi ssio 11
s,
paragraph 112, p 27) that the trial Judge erred in relying upon and giving "reasonab le weight" to
the statement of Ms B.
I 04. Ms B's evidence was not contained in an affidavit. Her signature was not witnessed. The
"ev idence " was a statement annexed to the mother's affidavit and read as follows:

[The mother! contacted rG crisis cenh·eJ early 2007.
I spoke with her on several occasions, she told me about the physical abuse she was exposed to from her

husband
She also spoke of the psychological abuse both she and her son rthe child] experienced .
How s he planned the clay to keep [the child] and herself safe, when her husband was at home she would
walk the streets and not return until she knew he had left for work.
One of my colleges[ ...] , witness LsicJbruises on her face and red strang ling marks Around her neck
She told me about the concern she had that one clay be would go to Lsic l far and the damage would be
fatal.
Do not hesitate to contact me for any further information.

105. We observe the following concerning the statement:
o the statement con tains a hearsa y statement of observations of another worker at the crisis
centre; and
o the statement is non specific as to the dates when the mother attended the crisis cent re
although it does refer to the mother contacting the centre in early 2007.
106. While we accept Ms B's statement, if admissible, gives some corroboration to the mother's
allegations of violence between December 2006 and February 2007 we have been unable to locate
any primary evidence of the mother which Ms B's evidence purports to corroborate that the father
attempted to strangle the mother which resulted in "bruises on her face and 'red strang ling marks
LaJround her neck'". We do however observe that the evidence of the mother's friend Ms T, who
was on affidavit, said during a two week visit in 2007 that the father ''attac ked her [referrin g to the
motherJ again, t1ying to strangle her".
l 07. We see some inconsistencies in the father's submis sio ns i_nrespect of his challen ge to Ms B's
statement. First, material in the State Central Authority case, and on whid1 the father sought to rely
in the appea l, included another un swo rn statement by Ms B annexed to his affidavit. Secondly, the
information in the letter from the Roya l Ministry of Just ice and the Police dated 3 August 2009
(annexed to an affidavit of Ms P filed 5 August 2009) indicates affidavits "do not apply" in Norway.
This suggests to us, as Norway is not a common law coun try, the importance of Ms B's evidence
being set out in an affidavit drafted in admissible form would be unknown in that count ry, altho ugh
we accept the mother's A ustralian solicitors were aware of the require ments for admiss ibility in
Australian proceedings. Thirdly, as we have noted, very experienced counsel appeared on behalf of
the State Cent ral Authority before Lhe trial Judge, and althougb objections were note d in the case
outline to parts of the evidence in the mother's case , no objection was soug ht to be taken to this
an nexur e to the mother's affidavit.
108. Notwithstanding these matters, we accept even if Ms B's statem ent was admissible before her
Honour, that reliance on the hearsay statement i.nit was unsafe. This is particularly so when the
mother does not depose to any incident in her affidavit of the father causing bruising to her face and
causing red strang ling marks around her neck.
109. Our concern about the status and weight whicb shou ld have been afforded to Ms B's evidence
causes us some disquiet as to the weig ht afforded to the finding reached by her Honour in paragraph
173 that the fat her bad attempted to strang le the mother resulting in bruises to her face and red

221a.

hllp://www.auslIii.cd u.a 11
/cgi-hi11
/s i11
ndisp/au/cascs/cth/FamCA FC/20 I0/22 1.hIml?stem=0&synonyms=0&q ucry =titlc( harris%20and%20Harris%20)

23/J 2

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20 10) Fam CA FC 221; (5 November 2010)

stranglin g marks around her neck. Howev er, as we will shortly explain in greater detail , we do not
think reliance on this evidence has vitiated the balance of her Honour' s factua l finding s in respec t
of dom estic violence perpetrated by the father on the mother .
110. 1t is timely at this point that we should repeat the ca ution sounded by the Full Cour l in De Lewinski
and Legal Aid Commission of New South Wile s v Director -Genera l , New South \¼Je s Department
of Comm unity Services.( 1997)_(1997) FLC 92 -737 (at 83,941) about the way app licati ons are
prepared, particularly when in many cases the app licat ion will be dea lt with without crossexamination.
I JI. The father also seeks to challenge the trial Jud ge's con sideration of the events in Mar ch 2007 when
the mother asserted the fat her attack ed her in the car. Hav ing detailed the ma tters which her Hono ur
referred to in accepting the mother's evidence on thi s basis, the father 's written subm issions
cr iticise her Honour 's determination to accept the mother' s evidence without proper rega rd fo r the
father' s assertion that the moth er made up incid ents and the unspecified nature of other incidents
which the trial Judge appea rs to have accepted. It is asserted "that there is no comp ellin g ev idence
justifying the rejection of the swo rn denial of I.the father] on this point " .
J 12. Counsel for the fat her also complained that the trial Judge erred in considering as relevant the fact
the father did not, in his affidavit evi dence, refer to an incident on 20 November 2007 whe n the
mother asse rted she suffe red an injury to her eye and the father's mother took her to an outpa tien t
clinic .
113. At paragraph 118 of his submi ss ions (p 28) , counsel for the father differentiated betwee n the
drawin g of inferen ces in proceedings in Australia and those whi ch pertain to a person in
circum stances such as the father from an overseas i nquisi to rial syste m. Co unsel for the father
referred to inf erences drawn by her Honour about the incident when the mothe r 's arm was broken
in May 2008 .
114. Counsel for the father also submitted that the trial Jud ge's conclu sion in relatio n to the re-breaking
of the mothe r 's ar m was "not a safe, necessary o r compe lling conclus ion that o n the evidence that
Lthefat herl was resp onsible fo r breaking the [mother's] arm ". Reference was made to the absenc e
of evide nce from the mother 's fathe r in respect of this inci dent. Like the earlier challenges , these
chall enges were all direct ed to the asse rtion that the inferen ces drawn by the trial Judg e were not
open to her Honour.
115. Comp laint was also addre ssed by coun sel for the father to the trial Judg e's accepta nce of the
mot her 's evidence in respect of an assa ult on 18 Septemb er 2008 in circum stances where, on the
father's case presented by the State Ce nh·al Authority , there was a fundamental fact ual conflict
whic h it is asserted was not resolved by her Honour. It is subm itted that the mother 's ev idence
should have been rejected by the trial Jud ge.
116. It is unnecessary for us to trav erse each and every matt er raised in the meticulo us and detailed
submi ssions by counse l for the father. It is important to bear in mind these proceed ing s were no t tbe
-final hearing of the parenting dispute . No doubt in the parenting pro ceedings which the mot her has
comme nced in this Co urt , all of the relevant evidence will be fully tested. The complaints abo ut the
trial Jud ge's disr egard for ce rtain aspects of the vo luminous evidence, such as the mother 's poss ible
selection in the wrestling champion s hip , or her Honour 's findin gs that the fath er 's respon se to the
domestic violence was disproportionate, are without merit given the natur e of the se proce ed ings in
whi ch the opportunity for tes ting of evid ence is limi ted. We think it is important to recor d however
that a number of the submi ssions dea l with incident s other than thos e detai led in paragraph 173 of
the trial Jud ge's reason s, and the dissec tion of individual incident s and par ts of the evidence of
those incidents without examinat ion, as her Honour did , of the cumu lative effec t of all of the
evidence does not acc urately reflect the reality of the dome stic violence, which on the corro borated
ev idence, the trial Judge fo und to be ser ious and concer ning.
117. Senior counse l for the mother addressed each of the asse rtion s made in coun sel for the fat her 's
detailed written submi ssions ora lly.
118. Senio r couns el for the mother submitted that her Honour 's reaso ning was full y exposed in her
jud gment. He fwther sub mitted that the trial Jud ge avoided "t he error of treatin g adverse credit
findin gs on other issues as necessa rily de terminative" (tran scrip t, 17 Augus t 2010, p 62) . He went
on to note that the ev idence given by the mother had not been accepted by the trial Jud ge in so me
insta nces , but rather her Hon our had adopted a course of makin g findin gs "cleteu nined by the
existence of co rroborat ive evidence" (transcr ipt , 17 Augu st 2010, p 63).
J 19. Thu s he submitt ed that her Honour had dete rmin ed the issue apply ing an approp riate standa rd of
proof in dea ling with each of the injuri es suffered
222a. by the mother, that the moth er 's injur ies had been
hllp ://www.au stl ii.edu .au/c gi-bin/sinod isp/au/cascs/c th/Fam CA FC/2 0 I 0/22 1.ht 111
I?stcm=O&syuo n y 111
s=O&qucry =t itle(lrnrri s%20and %20 Harr is%20)

24/J 2

27-FA-15-499

I0/23/201_8

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harri s & Har ris [20 I OJ FamCAF C 22 1; (5 November 20 10)

observed by medical professionals, and there was no dispute, notwithstandin g his apology, that the
father admitted the tlu·eat made on 15 December 2008 to k ill the moth er.
120. In respect of the corroborating evidence , particular emphasis was placed by senior counsel for the
mother on the clinical notes of the social worker to whom the mother was referred at Westmead
Hospital. We agree that the history reported to the soc ial worker by tbe mother and the socia l
worker's observations of the mother , made at a time prior to the parties ' reconciliation and retlffn to
Norway, was cogent coD"oborative eviden ce of the domestic violence and its effect on the mother
and the tTial Judg e was entitled to place significant weight on that ev idence.
121. Senior counsel for the mother referred us to the statement of p.rincipie in Wctrren v Coom bes 1979]
HCA 9; _(1979) 142 CLR 53 l. We accept the s ubmissions of the mother's senior counsel tha t the
inferen ces drawn by the tJ'ial Jud ge were open to her on the evid ence .
122. We do not accept the submis sion of counsel for the father that there was a disjunction between her
Honom 's recounting of the evidence of incident s of domestic violence and the summary of find ings
which appeared in paragraph 173 of her Hono ur 's reasons and that each of them , albeit in different
categories, was not without some deficiency.
123. Jt is apparent to us that her Honour placed significant weight on incidents of dome stic violence
which were independently co rroborated in accordance with the approach endorsed in Pat1ayotide s
and applying the s tandard of proof required bys 140 of the Evidence Acl 1995 (Cth), having regard
to the seriousness of the allegations made . In so concluding we consider that her Honour 's
acceptance of the moth er 's evidence of dome stic violence in 2007 was corroborated by her
attendance at the crisis centJe, and her findings in respe ct of the incident of 20 November 2007
were corrobornted by ho spital not es and to an extent by the father's mother's evidence. The seriou s
incident of l 4 Ma y 2008 which resulted in the fra cture of the mother' s arm was corroborated by the
hospital reco rds, as was the moth er's versioJ1of the second injury to her arm . Similarly the
evidence of the incident of 18 September 2008 was corroborated by hospital notes . The father 's
threat to kill the mother, the child and her parents was not denied by the father. While we accept the
corroborative evidence relied on to support the attempted strangulati on of the moth er and bruising
to her face was hearsay evidence and deserving of no or little weight , we do not think the inclusion
of that injury in paragraph 173 of her Honour's reason s should be considered to impugn the balance
of her findln gs.
124 . As we have already observed, the task which her Hon our undertook was to evaluate, and wher e
appropriate, dra w inference s from the evidence before her.
125. The chronology of the independentl y corroborated violence considered overall led her Honour to
the conclusions she reached . As we have already noted the inferences drawn by the trial Judge were
open to her. Thu s we are satisfied the grounds asserting error in findings of fact and the standa rd of
proof appli ed have no merit.

r

GRAVE RIS K TO THE CHILD OR PLACING THE CHILD IN AN INTOLERABLE
SITUATION

126. The gravamen of the father's complaint is the trial Judge , havin g found com parabl e prot ectio ns
under the law in both Norway and Australia, then had no basis for findiJ1g the mother wo uld not be
protected in Norway, and thus the child would not be subject of grave risk of physical or
psychologi cal harm.
127. Counsel fo r the father pointed out to us that although while in Au stralia the mother had been given
advice by the social worker from Westmead Hospital she had not taken up that advice. He
submi tted , as a res ult of the trial Jud ge 's approach in co nside 1ing the return of both the mothe r and
child to Norway, she had fa iled to assess as a distinct issue the risk to the child of return. Counsel
went on to subm it, at paragraph 159 of his written submissions:
The findings of Her Honour are subm itted to imp enni ssib ly have regard to the poss ibility of expos me of
the child to harm not as a consequence of the child 's return , but rather as a consequence" of that which
might emerge at a futur e time , if after ret urn an unsa tisfactory situati on is allowed to per sist without
alterati on": see Zafiropoul os and Centra l State Authority L2006 ] FamCA 466; .(2006) FLC 93 -264 at
80,490. (father 's submi ssio ns, p 36)
128. At paragraph J75 of her reasons, the trial Judge recorded the contention made on behalf of the State
Central Auth ority that:

223a.

hi Ip:I/www.a u slIii .cd u .aulcgi- biu/si noelist>/au/cases/tlh/Fam CA FC/20 I 0/22 1.h Iml ?stem=O&syuouyms =O&query=title(harris %20and%20H arri s%20)

25132

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [20101 FamCAFC 22 1: (5 No vcmbcr 2010)

... 'At its highest, the mother's case must be that if she and the father lived together in the future , the child
might be at risk of witnessing or being caught up in domestic violence . As the father has indicated that he
has no wish to resume the relationship, an d has suggested minimising contact between the parents, there
is no risk of harm to the ch ild.'
129. Although, at paragraph 178 , the trial Judg e explain ed she had not accepted the mother' s evidence
that the father was physically violent to the chi ld , she went on to note there had been serious verba l
and physical violence between the parents fo llowing the chi ld 's birth while he was in their care.
He r Honam went on to record that:
... While the child probably did not see the father injure the mother, the Likelihood is that he overheard
some pe rhaps all. Even though he was not directly involved, his presence in the home during violent
altercations between his parents p laced him in a highly risky situation . ... (paragrap h 178)
130. Her Honour thus co nclud ed:
... Because the chi ld was so young and dependant upon the mother (from whom he had never been
separated) as his primary care r, that she was so seriously abused and injured within his hearing was
psychologically abusive of him . (paragraph 178)
131. Her Honou r went on to note that the type of violence was suc h that it contd easi ly occur in a
situation " into wh ich the child was drawn".
132. Having made these findings, her Honour then turn ed to cons ider what might happen if the child
retu rned to Norway. There is no dispute that her Honour correctly recorded the provisions of the
relevant Norwegian legis lation , no r is there any challenge to her conclus io n that Norway has "a
well struct ured legislative and community framework for dealing with family law cases which
involve allegations of domestic violence" (reasons, paragraph 181).
133. The trial Judge , having referred in som e detail to the protections available in both Norway and
Australia, noted that, up until the date of the hearing, there bad been no reporti ng to relevant
authorities of the abuse in Norway , and in Australia reporting by the social worke r from Westrnead
Hospital had been ineffective. Her Honour's findings on this topic are found at paragraph 189
which we now set out in full :
Although on return to Norway the mother wou ld be likely to seek police protection and order s which on
their face would protect her and the child from the father and keep the child safe, I am not satisfied the
orde rs would achieve their intended effect. For the child, the reality wou ld be that he would primarily be
reliant upon a personally isolated primary carer who historically has been unable to protect him from the
risk of harm discussed earlier. T he mother's per sonal isolation increase s the grav ity of risk of harm to the
child . This is because her isolation wou ld mea n that there wo uld be few people intimately invo lved in her
and the chi ld 's life who could them selves intervene if her will to take further necessary action failed her.
Tile evidence suggests that the viole nce whic h the father inflicted upon the mother ceased primarily
becau se the mother moved to ano ther country . There is a real risk that the type of violence which the
father may inflict is not amenable to the type of constraint s which the interim orders and the crimin al law
would impo se. In this regard it is noteworthy that even after the mother had remov ed herse lf and the child
from Norway the father's tlu·eats to her continued. His threat to kill her is a threat with the potentia l of the
gravest consequences to her and the child.Tam not co nfident that the father's apo logy and his failure to
act in accorda nce with the threat , means it has abat ed.
134. Her Honour's crucial finding s on the topic are found at 190. After referring to her concern about the
ability of the father' s family to provide appropriate support for the mother her Honour concluded:
... [n sho rt , the totality of tbe evidence persuade s me that if the chi ld returned to Norway with the mother
there exi sts a grave risk of grave physic al harm to the mot her and a risk of comme nsurate severity of
phys ica l and psychologi cal harm to the child . While in Au stralia domestic viol ence has rarely been found
to bring this defence into play (see Murr ay v Director of Fam ily Ser vices ACT I J 993] Fan1CA 103;
.(1993) FLC 92-4 16, Zafiropoulo s and the Secretary of the Departm ent of Human Ser vices State Centra l
Author ity 12006] FamCA 466 ; .(2006) FLC 93 -264 ). I am persuaded that this is one of tho se rare oc casions
where the facts support such an outcom e . (paragraph 190) .

224a.
htt p://www.a.us1Iii.cdu .au/cgi-hiu/sinod isp/au/cascs/c th/FamCA 1-'C/20 I 0/22 I .html ?stem=O&synonyms=O&q ucry=t itle( harris%20 and %20 Harris%20)

26/32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harr is & Harris [2010] FamCAFC 221; (5 November 2010)

135. Her Honour thereafter considered whether the father's family would be able lo provide the
necessary emotional and practical support for the mother and found they would not.
l 36. At her commencement of discussion of "Grave risk of ha tm or an intolerable situation" at
paragraph 139 and following of her reasons, the trial Judge had set out the principles enunciated by
Gaudron, Gummow and Hayne JJ in DP v Commonwealth Central Authority, at paragraphs 40 to
43 of their rea sons. We now set out tho se paragraphs and think it is also appropriate to include
paragraphs 44 and 45:
40. So far as reg 16(3)(b) is concerned, the fu-st tasl< of the Fami ly Court is to determine whether
the evidence establishes that 'there is a grave risk that lhis or herl return ... would expose the
child to physical or psychological harm or otherwise place the child in an intolerable
situation'. lf it does or if, on the evidence, one of the other conditions i.o reg 16 is sa tisfied,
the discretion to refuse an order for return is enlivened. There may be many matters that bear
upon the exercise of that discretion. In particular, there will be cases where, by moulding the
conditions on which return may occur, the discretion will properly be exercised by making an
order for return on those conditions, notwithstanding that a case of grave risk might
otherwise have been established. Ensuring not only that there will be judicial proceedings in
the country of return but also that there will be suitable interim arrangements for the child
may loom large at this point in the inquiry. lf that is to be done, however, care must be taken
to ensure that the conditions are such as will be met voluntarily or, if not met voluntarily , can
readily be enforced.
'Narrow construction'?
41. Tn the judgment of the Full Court of the Family Court which gives rise to the first of the matters
now under consideration (DP v Commonwealth Central Authority) it was said that there is a 'strong
line of authority both within and out of Australia, that the reg 16(3)(b) and (d) exceptions are to be
narrowly construed' . Exactly what is meant by saying that reg 16(3)(b ) is to be narrowly construed
is not self-evident. On its face reg 16(3)(b) presents no difficu lt question of construction and it is
not ambiguous. The burden of proof is plainly imposed on the person who opposes return. What
must be established is clearly identified: that there is a grave risk that the return of the child would
expose the child to certain types of harm or otherwise place the chi ld in 'an intolerable situation'.
That requires some prediction, based on the evidence, of what may happen if the child is returned .
In a case where the person opposing return raises the exceplion, a court cannot avoid making that
prediction by repeating that it is not for the courts of the com1try to which or in which a child has
been removed or retained to inquire into the best interests of the child. The exception requires
courts to make the kind of inquiry and prediction that will inevitably involve some consideration of
the interests of the child.
42. Necessarily there will seldom be any certa inty about the prediction . It is essential, how eve r, to
observe that certainty is not required: what is required is persuasion that there is a risk which
warrants the qua! itativ e description 'grave'. Leaving aside the refer ence to 'intolerable situation',
and confining attention to harm, the risk that is relevant is not limited to harm that will actually
occur, it extends to a risk that the return would expose the chi ld to harm.
43. Because what is to be establi shed is a grave risk of exposure to future harm, it may well be true to
say that a court will not be persu aded of that without some clear and compelling evidence. The bare
assertion, by the person opposing return , of fears for the child may well not be sufficient to
persuade the court that there is a real risk of exposure to harm .
44. The se considerations, however, do not warrant a conclusion that reg 16(3)( b) is to be given a
'narrow' rather than a ' broad ' construction. There is , in these circumstance s, no evi dent choice to
be made between a 'narrow' and 'broad' construction of the regulation. If that is what is meant by
saying that it is to be given a 'narrow constrnction' it must be rejected . The exception is to be given
the meaning its words require .
45. That is not to say, however , that reg 16(3)(b) will find frequent application. It is well-nigh
inevitable that a child, taken from one country to anoth er without the agreement of one parent, will
suffer disruption, uncertainty and anxiety. That disruption, unce rtainty and anxiety will recur, and
may well be magnifi ed , by having to return Lo the co untry of habitua l res idence. Regulation 16(3)
(b) and Art 13(b) of the Convention intend to refer to more than this kind of resu lt when they speak
of a grave risk to the child of exposure to phy sica l or psyc hological harm on return. (footnotes
omitted, original emphasis)

225a.

help://www .ausclii .ed u .au/cgi -bin/si nod isp/au/cases/crh/ I 'am CA FC/20 l 0/221. hi ml?ste m=O&syaon yms=0&q uery=t ille( ha rris%20and %201 laJTis%20)

27/J 2

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [2010] Fam CAFC 221 ; (5 November2010 )

137. The principles clearly set out how the grave risk and intolerable situation defences are to be
considered, and paragraph 45 emphasises the limitations on reliance on those defences .
138. We accept the submission made on behalf of the father that the authorities both in Australia and
overseas on the question of grave risk or intolerable situation do not readily admit a clear statement
of principle but rather tend , understandably , to turn on the facts before a tria l Judge dealing with a
return application .
139 . Tn Zafiropoulos & The Secretary of the Department of Human Services State Central Authority ,
Kay, Coleman and Warnick JJ conducted an extensive review of the cases dealing with the grave
risk exception to return and concluded , at 80,507:
...ultimately the final decision appears to come back to the words of Gleeson CJ in DP v Cth Central
Authority l2001 I HCA 39; .(2001) 206 CLR 401, 407-408, at par 9 that:
' The meaning of the regulation is not diffi cult to understand. The problem in a given case is more likely
to be found in making required judgment. That is no t a problem of construction, it is a problem of
application."
140 . The problem of application is that it may often involve a careful balancing of relevant
considerations having regard to the purpose for which the Convention was established , and the
giving due recognition of the systems and protections afforded by the country from which the child
was removed or wrongfully retained. Appropriate recognition must be afforded to the serious and
invidious nature of domestic violence , its effect on the victim and the corresponding actual or
potential effect on a child, or the consequences of requiring the returning child (and perhaps a
primary care giver) being isolated and living in impoveri shed circumstances until parenting
proceedings are dete1mined.
141. In these circumstances, we see little utility in discussing cases where a return has been refused on
the basis of grave risk of phy sica l or psychological hann and those where , notwith standing
evidence of domestic violence , grave risk bas not been found or, if found , the discretion to dismi ss
the application has not been exerc ised. We note those cases range from extreme domestic violence
perpetrated on both a mother and child such as in Re: F (A Minor: Abduction: Rights of Custody
Abroad) .(1995) 3 All ER 641 to facts such as found in Zafiropoulo s .
142. We think the problems which confront a judge such as confronted the trial Judge in this case were
eloquently explained by Hale LJ (as her Lady ship then was) in her dissenting judgment in TB v JB
(Abduction : grav e risk of harm) 12001] 2 FLR 515 at paragraph s 43 & 44 and 57 & 59 as foll ows:
[43] ... when the Hague Convention was first drafted, the paradigm abductor was not the children's
primary carer, but the other parent who ' snatched' them away from her. Hence a deliberate distinction
was drawn between rights of custody and rights of acces s. Summary return was not the remedy to protect
mer e right s of access. Now, however , in 72 % of cases, the abductor is the primary carer : the parent who
has always looked after the children, upon whom the children rely for all their basic needs, and with
whom their main security lies. The other parent is using the Hague Convention es sentially to protect his
right s of access. He can do this because "right s of custody" include the right to veto travel abroad, and
most such parent s now enjoy that right. But return to the home country may be a sledge hammer to crack.
a nut, because however much the children need contact with the other parent , they need a secure happy
home with a competent and caring parent even more. There is often good reason to believe that the ho me
country will allow them all to emigrate . It is therefore regarded as a real risk by the Hague Conference
that spurious Art 13(b) defen ces will be raised in such cases: there is equally a real risk that the courts of
the requ ested states will either succumb too readily to such defen ces , out of the kindness of their heart s
and a natural relu ctance to do anything which doe s not appear to them to be in the best interests of the
children , or alternativel y become unsympatheti c and fail to recogni se those few whi ch should succeed.

f44] It is important to remember that the risk s in que stion are those faced by the children , not by the
parent. But thos e risk s may be quite different depending upon whether they ar e returning to the home
country where the primary carer is the 'left behind ' parent or whether they are returning to a hom e
country wh ere their primary carer will herself face sever e difficulties in providin g properly for their
needs . Primary careJS who have fled from abu se and maltreatment should no t be expe cted to go back to it ,
if th.is will hav e a se riously detrimental eff ect upon the childr en . We are now more con sci o us of the
effe cts of su ch treatment, not only on the imm ediat e victim s but also on the children who witness it ...
226a.

h Ltp://ww w.ausl Iii.edu .au/cg i-bi n/s inodisp/a u/case s/cth/ Fa mCA FC/2 0 I 0/22 1.ht ml ?slem=O&s ynon yms=O&query=Ii IIe(harr is%20a nd %201-la rris%20)

28/32

27-FA-15-499

10/23/20 18

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Ha rris & Harris 12010] Fam CA FC 2·2 1: (5 Novembe r 2010)

[571 But it cannot be the policy of the Conven tion that children should be returned to a co untry where , for
whatever reason , they are at grave risk of harm, unle ss they can be adequate !y protec ted from that harm .
Usually , of coms e , it is re asona ble to expect that th e home country wi ll be ab le to pro vide such
protection . But in this particu lar case, it.is the totalit y of the situation in which the c hildren fou nd
them selves, a combination of seriou s psyc hologi cal and economic pressu res , which creates the risk. A
protection order, were it to be readily available, wo uld not solve all their problems ...

f59l ... It wou ld requir e more than a simple protection order in New Zealand to guard the childr en again st
the risks involved here ...
J43. While we are not troubled by the overall findi ngs of her Hon our in respect of domestic violence , we
are less than satisfi ed her Hono ur 's co nclusion of grave risk of ph ys ical and psychologi ca l harm to
the child, which her Honour fo und in paragraph ·190, was open to her. Her Honour had reje cted the
mother's evidence that the father had phy sically harmed the child. The evidence wa s that the parties
would not be living together in Norway, nor was there evidence that the father had ever breached a
dome stic violence order which co uld have led to a conclu sio n such an order wou ld not adequately
protect the moth er and chi ld .
144.Whi le we readily accept that if future violence occ urred in the presence of the chi ld it could be
psycho logica lly damaging to him , her Honour did not separat ely assess that risk and the ri sk of
physical ha rm to the child but rather conflated those risk s. Al thou gh our conclu sion may seem
sema ntic the risk of eit her physical or psycholo gical harm (or both) to the child which must be
established by the person op posing return , as indicated in paragrap h 55 in DP v Commonwealth
Centra l Autho rit y, and at para graph 57 of Ha le Ll 's reaso n s in TB v J B (Abduction : grave ri sk of
harm) , are qualified by the adjective "grave".
145. As will be short ly see n , notwithstanding our co nclusi ons that her Honour 's conflated findin g of
grave risk of physical and psychological harm to the child was unsafe, her Honour went on to
consider separately the defence of into lerab le situation .
146. The trial Judge dealt with the intolera ble situation defe nce commencing at para grap h 191 of her
reasons . Her Honour recited the support which tl1e fatber proposed to give to the moth er, whi ch
included payin g the rent on an apa rtme nt for one month and support for the mother and chi ld in the
sum of NOK 4,000 .00, together with ongoin g suppmt ofNOK 4 ,000 .00 each month for the child
until an administrative OJ co urt decision dete1mined his leve l of ongoing child supp ort. Th e trial
Judge then discussed the evidence from the Roya l M inistry of Ju stice and the Police and conclude d
that the mothe r would not be eligib le for financi al support as s he had not been resident in No rway
for thr ee years pr io r to making app lication for such support.
J 47. The trial Judg e noted the father's contention that the mot her co uld supp ort herself by getting work
in Norway. H oweve r, her Honour co ncluded thal she was not satisfied the work the mother
prev iously undertook in No rway wo uld provide her with s ufficient supp lementary income to bridge
the gap betwee n her approximate rental costs and what the father said he would pay .
148. Havin g referred to the fact that the mother was in rece ipt of social sec urit y benefits i11Au strali a, the
trial Judg e said she acce pted the moth er 's evidence she had few financial suppo rts and "that she and
the child would be in a financially extrem ely vulnerabl e po sition were the child ordered to return to
Norway" (reaso ns, parag raph 194) .
149. Her Ho nour set out her conclusions on intolerable situation al paragra ph 195 of her reaso ns as
follows :
I am persua ded that the child and the moth er if the child were to be ordere d to be return ed to Norway,
would be placed in an intolerabl e situation. That is, from the child 's p erspective, not only witho ut
provision of basic esse ntials but reliant up on th e mother as his prim ary care r who wou ld almo st certainly
be isolat ed and terrified . Tn short, there is com pelltn g ev idence the mother gen uinely and reaso nably
believe s her life is at risk from lhe father if she returns to Norway. The serjous ness of the past dom es tic
violence and abuse discussed above when combin ed with his lhreat to kill her would place her in an
intolerable sit uation . Becau se of the child 's reliance upon her fo r the entirety of bjs physica l. and

227a.
hit p://www.austl ii .cd 11.au/cg i-bi n/s i no<lisp/a u/cases/c t h/FamCA l'C/20 I 0/22 1.ht ml?sicm=O&synon yms =0&q uery =Iit lc( lmrri s%20aurl %2 0 Harris%20)

29/32

27-FA-15-499

10/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harri s & Harris [2010] FamCAFC 22 1; (5 November 2010)

psychological □eeds, these factors add to my satisfaction that a return order would also place him in an
intolerable situation .
150. We conclude that findings which underpinned her Honour 's conclusion that the mother and child
would be placed in an intolerable situation if a return to Norway was ordered were well open to her
on the evidence. We a]so think it is of significance that the State Central Authority , after havin g the
benefit of her Honour 's reasons , determined not to file an appeal.
151 . Her Honour then, having found the defences were made out, considered whether, in the exercise of
her discretion, a return should be ordered. Having considered the ability of the father to participate
in the parenting proceedings in Australia commenced by the mother and considered the child's
present living arrangements, her Honour concluded as follows :
... Until the father arrives in Australia the risk of harm to the mother and child from his domestic violence
is virtually non -existent. While upon his arrival the risk increases, that the mother and child resid e with
her parents moderates this risk ... (paragraph 199)
152. The learned authors Beaumont and McLevy refer to the intolerable situation defence at p 151-154
of their monograph. Although we accept the cases cited therein (and bearing in mind the book was
published in 1999 and reprinted in 2004 such that it doe s not contain discussion of more recent
decisions) , generally concluded where social security benefits were available in the place of
habitual residence , that although children's standard of living may be reduced, that reduction could
not be said, of itself , to constitute an intolerable situation , the facts in this case were different in that
social security benefits were not available to the mother in Norway.
153 . We do not discern any error in the exercise of discretion by the trial Judge in the circumstances of
this case. lt was open to her Honour to find on the evidence the mother was not eligible for social
security benefits in Norway , and based on her past emp loyment unlikely to be able to m eet her
housing and other expenses, notwithstanding the receipt of child support by the father , and that she
would be in a vulnerable financial situation .
154 . Given the past attitude of the father's fam i ly we are satisfied her Honour was correct in finding the
mother would be without neces sary support emotionaUy, and would be isolated. Corroboration for
that finding had earlier been made by the trial Judge in her referen ce to the soc ial worker's notes .
155. The task in which the trial Judge engaged was that averted to by Gaudron, Gummow and Hayne JJ
in DP v Commonwealth Central Authority at paragraph 41, that is, the task her Honour engaged in
was the making of "some prediction, based on the evidence, of what may happen if the child [was]
returned " (original emphasis). Further, as noted by Gaudron, Gumm ow and Hayne JJ, that did
involve some consideration of the interests of the child. We disce rn n o error by the trial Judge.
Accordingly, this ground which challenges the intol erab le situation "defence" is without medt.

CONDITIONS
156. Counsel for the father submitt ed that the trial Judge had failed to adequately consider the
und ertakings offered by the father and failed to adequately consider condition s which would afford
appropriate protections to the mother on her return to Norway.
157. Counsel for the father sub mitted that the trial Judge could have prevented, until the Norwegian
courts were seized of the matter , any contact between the father, mother and child.
158. Although counsel for the father referred us to the dissenting judgm ent of Kirby Jin DP v
Commonwealth Central Authority at paragraphs 147 and 148, we think it is also imp ortant to
co nsider the comments of the majority at paragraph 40 of the same judgment where their Honour s
said "l_eJnsuring not only that there will be judicial proc eeding s in the country of return but also that
there will be suitable interim arrangements for the child may loom large at this point in the inquiry .
If that is to be done, however, care mu st be taken to ensure that the co ndition s are such as will be
voluntarily or, if not met voluntarily, can rea dily be enforced" (see also the comments of the Full
Court in McDona ld & Dire ctor -Ge neral , Department of Community Services (NSW) 1"20071
FamCA 1400; .(2006) FLC 93 -297 and Department of Co mmunity Services & Frampton 12007 J
FamCA 1064; .(2007) FLC 93-340)..,
159 . We think the comments of Brennan CJ, Daw son, Toohey, Gaudron, McHugh and Gummow JJ in
De L v Director-General , New South \\ales Department of Community Services at 662 are

228a.
hllp://www.aust Iii.edu .au/ cgi-bi n/si nodi sp/au/ca ses/c th/Fa111CAFC/20 I 0/22 I .h I ml?stc m=O&syno nym s=0&q uery=tit le(lmrri s%20and %20 Harris%20)

30/3 2

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [2010 1 FamCAF C 22 1; (5 November2010)

10/23/2018

particularly relevant to this matter. Their Honours, after refen-ing to Canadian and English
decisions, exp lained:
It is impossible to identify any specific and detailed cr iter ia which govern the exercise of the power
whereby the Court may impose such condi tions on the removal of the chi ld ' as the court considers to be
appropriate to give effect to the Convention'. Many of the criteria which may be app licable in a particu lar
case are illustrated in the above passages from the Ca nad ian and English decisions. The basic proposition
is that , lik e other disc retionar y powers given in such terms, the Co urt has to exe rcise disc retio n judicially,
having regard to the subjec t matter , scope and purpose of the Regulations. (footnote omitted)
160. There is no suggestion that the trial Judge's recording of the father's proposals for financial support
on the mother's ret urn were anything but accurately recorded by her Honour.
161. Her Honour's co nclusion on the question of conditions is set out in paragraph 200 of her reasons as
fo llows:
As must be clear from my findings made in consideration of the defences I am not sat isfied that it i.s
possible to cons tru ct enforceable conditions for tbe chi ld 's return which wou ld moderate the grav ity of
the risk of harm to the child to a level which wo uld reaso nab ly address his safety needs or place him in
anything other than an intolerable situation.
162. Prior to reaching these conclu sions her Honour had extensive ly canvassed the evidence in relation
to the incidents of domestic violence, and lega l and other support which wo uld be available to the
mother on her return . We have alread y discussed her Honour 's conclus ions that the mother wo uld
be in a financ iall y vulne rable position no twithstanding the offers of support made by the father.
163. We are satisfied her Honour thoroughly canvassed and took into account the ava ilability of
protective orde rs which cou ld be made in favour of the mother in Norway . We accept her Honour's
concl usion, that she could not craft conditions whic h wou ld overcome the vulnerabi lity suffe red by
the mother as a result of the prior domestic violence, or which would res ult in satisfactory living
arran gemen ts for the mother and the child where the mother who bad no access to social secur ity
benefits and would be iso lated with lack of family support, was open to her on the evidence.
Accordingly we sa tisfied this comp laint is not established.
164. We think it important tha t we again emphas ise in dealing with this ground that the State Centra l
Aut hority chose not to appeal ber Honour's orders , nor did they participate in the appeal. Thu s we
did not have the benefit of any submi ssio ns on the type of cond itions, if any, which co uld have
a Ueviated risk of harm to the child or the cbiJd being placed in an into lerab le situation . We may
infer the State Centra l Authority too found her Honour 's reasoning on intolerable situation, and
lack of conditions whic h cou ld overcome that situat ion, satisfactory.
165 . No ground of appea l having been established , the father 's appeal must be dismissed.

COSTS
166. At the co nclusion of the appea l we so ught submissions from each party in respect of cost s . Senior
counse l for the mother sought , in the event the appeal was dismissed , that the fathe r pay the
mother's costs. Sen ior coun sel for the mother adv ised us the mother was on legal aid , a relevant
factor for us to take into account.
L67 . The father's co uns el sought if the appea l was dismis sed that no order for cost s should be made
having regard to the ciJ·c um stances of the case and the nature of the is sues agitated.
168. Sect ion ll 7AA of the Act dea ls with cost s in respec t of proceedi n gs under the regulation s. We did
not have the benefit of argument as to whe ther thi s section app lies in the case of an appea l or only
at first instance . However , as we will now exp lain , that cons ideration is irrelevant to our
de ter min ation. Section 117 AA provide s as follows :

(1) In proceedings under regulations made for the pu rp oses of Pa rt XllIAA, the court can onl y make
order as to costs (other than orders as to sec urity for costs):

m1

(a) in favo ur of a party who has been substantially successful in the pro ceeding s; and
(b) agains t a person or body who holds or held an offi ce or appoi ntm ent under those regulations and is a
party to the proceed ings in that capacity .
229a.
bltp:/ /www .ausllii .edu .au/cg i-bi nlsi nodi sp/au/c ases/c l hll'am CA FC/20 I 0/22 1.ht mI?s te,n=O&syno IIyms=:O&q ucry= Iilie( harri s%2 0an d%20 Harri s%2 0)

3 I/3 2

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

Harris & Harris [2010] FamCAFC 221; (5 November 2010)

L0/23/20l8

(2) However, the order can only be made in respect of a part of the proceedings if, during that part , the
party against whom the order is to be made asserted a meaning or operation of this Act or those
regulations that the court considers:
(a) is not reasonable given the terms of the Act or regulations; or
(b) is not convenien t to give effect to Australia's obliga tions under the Convention concerned, or to obtain
for Australia the benefits of that Convent ion .
(3) In proceedings under regulations made for the purposes of sectio11 I l LB, the court can also make an
order as to costs that is:
(a) against a party who has wrongfully removed or retained a child , or wrongfully prevented the exerc .ise
of right s of access (within the meaning of the Convention referred to in that sectio n) to a child; and
(b) in respec t of the necessary expenses incurred by the person who made the application, under that
Convention, concerning the chi ld .
169. Whether we were dete1rnining costs under this provision or the costs under s 117 of the Act, we are

satisfied in the circumstances of this case that there should be no order for costs, and each party
should pay their own costs of and incidental to the proceedings.

I certify that the preceding one hundred and sixty nine (169) paragraphs are a tme copy of the
reasons for judgment of the Honourable Full Court delivered on SNovember 2010
Associate:
Date: 5 November 2010

AustLil: 5:JlP.
xtlght PoliCY.I Disclaimers I Privacy PolicY.I Feedback
URL: http: //www.austl ii .edu.a u/au/cases/ct h/FamCAFC/20 I0/221 .html

230a.
http://www.auslIii .edu.au/cgi-hin/s inodisp/nu/cascs/cth/ FamCAFC/20 I0/22 1.h1111l?stcm=O&synonyms=0&q ucry=lit Ie(harris%20a nd%20 Harris%20)

32/32

27-FA-15-499

I0/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

INCADAT I Harris v. Harris (2010) f'amCAFC 221

CaseLawSearchNew search
CASE Downloadfull text EN 0
CaseName

INCADATreference

Harrisv. Harris (2010)FamCAFC221

HC/1:/AU 1119

Court Country

AUSTRALIA

Name

FamilyCourtof Australia

Level

AppellateCourt

Judge(s)

BryantCJ, Finnand BolandJJ.

Statesinvolved Requesting

NORWAY

State
Requested

AUSTRALIA

State

Decision Date

5 November2010

Status

Final

Grounds

GraveRisk-Art. 13(1)(b) I Undertakings I Roleof the Central
Authorities- Arts 6 - 10 I ProceduralMatters

Order
HCarticle(s)

Appealdismissed,returnrefused

13(1)(b)

Considered
HCarticle(s)

13(1)(b)

ReliedUpon
Other
provisions
AuthoritiesI

Beazleyv. McBarron[2009] NZHC 37; C. v. C. (Minor: Abduction:

Casesreferred

Rightsof Custody)[1989]2 All ER465;C.D.J. v. V.A.J. (1998)197

to

CLR172;CentralAuthorityv. Houwert[2007]ZASCA88; [2007] SCA
88 (RSA);De L. v. Director-General,
NewSouthWalesDepartmentof
CommunityServices (1996)187 CLR640;De Lewinskiand LegalAid
Commissionof New SouthWalesv. Director-General,NewSouth
WalesDepartmentof CommunityServices (1997)(1997)FLC92-737;

231a.

hllps://www.incadal.co m/cu/case/ 1119

114

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

INCADAT I Harris v. Harri s (20 10J FarnCA FC 221

10/23/2018

Departmentof CommunityServices& Frampton{2007)FLC93-340;
Director-General
NSWDepartmentof CommunityServices& JLM
(2001)FLC93-090;D.P.v. Commonwealth
CentralAuthority(2001)
206 CLR401;Laingv. CentralAuthority(1999)151 FLR416;24 Fam
Department
LR555;(1999)FLC92-849;McDonald& Director-General,
of CommunityServices(NSW)(2006)FLC93-297;Murrayv. Director
of FamilyServicesACT(1993)FLC92-416;M.W. v. Director-General,
Deptof CommunityServices(2008)39 FamLR1; Panayo
t ides v.
Panayotides(1997)FLC92-733;Pennellov. Pennello[2003]ZASCA
147;[2004]1 All SA32 (SCA);Quarmby& Anorv. Director-General
,
Departmentof CommunityServices(NSW)(2005)34 FamLR8; ReF.
(A Minor:Abduction:Rightsof CustodyAbroad)(1995)3 All ER641;
: Child'sObjections)(2006)FLC93-277;T.B.
ReF.(HagueConvention
v. J.B. (Abduction:graverisk of harm)[2001]2 FLR515;Warrenv.
Coombes(1979)142CLR531;Zafiropoulos& The Secretaryof the
Departmentof HumanServicesStateCentralAuthority(2006)FLC93264.
Published
in

http://www.austlii.edu.au/cgibin/ sinodisp/au/cases/ct h/ FamCAFC/2010/221.html?
stem=0&synonyms=0&query=title(harris%20and%
20Harris%20)C?

INCADAT
comment•

Exceptions
to Return
Economic Factors

GraveRiskof Harm

Australianand NewZealandCaseLaw

Implementation
& Application
Issues
Measuresto Facilitatethe

Undertakings

Returnof Children

SUMMARY Summaryavailablein EN I FR
Facts Theapplicationconcerneda child born in 2007in Norwayto an Australianmotheranda
Norwegianfather.The parentshadmarriedin Australiain November2006 andmovedto
Norwayin December2006. Exceptfor holidaysin Australia,this is wherethey lived until
the child'sremovalin November2008.
Themarriagewas characterisedby domesticviolence. On27 November2008the
motherleft Norwaywith the child withoutthe father'sknowledgeand travelledto
Australia.Thefather appliedfor the returnof the child on 19 March2009.

232a.
https;//ww w.incadat.com/cn /casc/ l l l 9

2/4

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

IN CA DAT I Harris v, Harris f20JOJ FamCA FC 22 1

J0/23/2018

Ruling Removalwrongfulandreturnrefused;Article 13(1)(b) hadbeenprovedto the standard
requiredunderthe Convention.

Grounds GraveRisk- Art. 13{1)(b)
Themotherallegedvariousincidentsof physicalandverbalabusecommencingin
February2006. Theseincludedbeingpunchedin the face,jabbedin the eye,pushed
againsta wall andstrangled.As a resultof the father'sviolence,she brokeherarm
twice andexperiencedhaematomaon herarm andaroundhereye.Duringa telephone
conversationin December2008the fatherthreatenedto kill the mother,the child and
herparents.
TheCourtacceptedthe trial judge'sfindingsof abuseexceptfor the mother'sallegation
that the fatherattemptedto strangleher.This was basedon hearsayevidencefrom a
workerat the crisis centrewhichthe motherattended.Thetrial judgewaswrongto
attach"reasonableweight" to this unswornstatement.However,
the inclusionof this
incidentin the trial judge'sfindingsof fact did not undermineheroverallconclusionthat
the father hadverballyandphysicallyabusedthe mother.
TheCourtcriticisedthe trial judgefor conflatingthe risk of psychologicalharmandthe
risk of physicalharmto the child.Thetrial judgehadrejectedthe mother'sallegation
that the fatherhadphysicallyharmedthe child but determinedthat violenceagainstthe
motherin earshotof the childwas sufficientto causea graverisk of psychological
harm.Herconclusionthat returningthe child to Norwaywouldexposehimto a grave
risk of physicalandpsychologicalharmwasthereforeunsafe.
Notwithstanding
the Court'sconcerns,it acceptedthe trial judge's findingthat returning
the childto Norwaywouldplacehim in an intolerablesituation. Themotherwouldbe in
a financiallyprecariouspositionin Norway.Shewouldnot be entitledto socialsecurity
benefitsandanyearningsbasedon her pastemploymentwouldbe unlikelyto meetthe
shortfallbetweenher housingandothercosts andthe child supportprovidedbythe
father.
Furthermore,
shewouldbe withoutemotionalsupport,isolatedandfearfulof the
father'sviolencefollowinghis threatto kill her.In addition,the Courtregardedt he
decisionof the StateCentralAuthoritynot to appealas persuasive
. As the childwas
dependenton the motherfor all his needs, a returnto Norwaywouldplacehim in an
intolerablesituation.

Undertakings
TheCourtacceptedthe conclusionof the trial judgethat no undertakingswouldbe
sufficientto mitigatethe vulnerabilityandfinancialhardshipof the motherandthus

233a.

h1tps://www.iucadat.co111/c
nlcasc/ Ll19

'.l/4

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

INCADAT I Harr is v. Harris 12010] l'am CA FC 221

J0/23/20 18

preventthe child being placedin an intolerable situationon his return to Norway.

Roleof the CentralAuthorities- Arts6 - 10
Australiawasthe only ContractingStatewherethe Central Authorityappliedas the
applicant.Hencethe fatherwasnot a partyto the proceedingsat first instance,the
applicationbeingmadeby the CentralAuthority. However,the CentralAuthority declined
to appealagainstthe decision. As a result, the father broughtthe appeal in his own
name.

Procedural
Matters
Thefather allegedthat he hadbeendeniedproceduralfairnessbeforethe trial judge
because,without his knowledgeor consent,the proceedingshad beenconducted'on
the papers'andwithout anycross-exami
nation.
TheCourtacceptedthat the father hadreceivedinitially misleadingand perhaps
deficientinformationfrom the CommonwealthCentralAuthoritybut was not satisfied
that the advicereceived,taken as a whole, deniedhim proceduralfairness. An e-mail
from the CentralAuthority'scounselclarifiedwhat otherwise might havebeen
misleading.
Therewas no obligationon a trial judgeto go beyondthe case presentedby the father
andto requireevidencethat he was awarethat, if independentlyrepresented,he may
instructcounselto seekcross-examinationof the party opposingreturn.
Counselfor the CentralAuthoritymadeit clearin an e-mailto the fatherthat the case
would be conducted "on the papers" andthat cross-examinationof the motherwas
unlikelyto causeherto depart from her evidence.Thedecisionnot to cross-examine the
evidenceof the parentswas madeby both counselsandcould havebeenoverruledby
the trial judge, had shethoughtit essential.
Authorsof the summary:
JamieYule& PeterMcEleavy

INCADATcomment•

> EconomicFactors

> Australian andNewZealandCase Law
> Undertakings

234a.
hllps://www.incadat.com/cn/casc/11 19

414

Shults v. Shults, Not Reported in N.W.2d (2012)

2012 WL 254496
Only the Westlaw citation is currently available.
NOTICE: THIS OPINION IS DESIGNATED AS
UNPUBLISHED AND MAY NOT BE CITED EXCEPT
AS PROVIDED BY MINN. ST. SEC. 480A.08(3).

application for a Norwegian divorce license precluded
wife's Minnesota dissolution proceeding and, in any
event, the Minnesota dissolution proceeding preceded the
Norwegian proceeding and the Minnesota proceeding
should have been given precedence; and (c) should have
allowed wife to proceed in Minnesota on a forum non
conveniens basis. We reverse and remand.

Court of Appeals of Minnesota.
In re the Marriage of Elizabeth Mary
SHULTS, petitioner, Appellant,
v.
Fount LeRon SHULTS, Respondent,
Ramsey County, intervenor, Respondent.
No. A11–935.
|
Jan. 30, 2012.
Ramsey County District Court, File No. 62–FA–10–2324.
Attorneys and Law Firms
Valerie Ann Downing Arnold, Arnold Rodman &
Pletcher PLLC, Bloomington, MN, for appellant.
Gerald O. Williams, Williams Divorce & Family Law,
P.A., Woodbury, MN, for respondent Shults.
John Choi, Ramsey County Attorney, Patrick M. Hest,
Assistant County Attorney, St. Paul, MN, for respondent
county.
Considered and decided by HUDSON, Presiding Judge;
PETERSON, Judge; and STONEBURNER, Judge.

UNPUBLISHED OPINION
PETERSON, Judge.
*1 In this appeal from a district court order dismissing
appellant-wife's petition to dissolve the parties' marriage,
wife argues that the district court (a) erred in ruling
that wife did not accomplish service of her petition
on August 31, 2010, under Minnesota Law and
the Hague Service Convention; (b) misunderstood
Norwegian law when it ruled that respondent-husband's

FACTS
The parties were married in 1984, and they have three
children. Only the youngest child was a minor when
the dissolution proceeding began. During the marriage,
husband earned two doctorate degrees, and wife stayed
home to care for the children. In 2006, the family relocated
from Minnesota to Norway.
In 2009, wife and the minor child returned to Minnesota.
Soon after, the parties decided to divorce. Under
Norwegian law, before a dissolution may be granted, the
parties must file for and be granted a legal separation and
live apart for at least one year. The parties submitted a
joint application for legal separation in Norway, and, on
August 31, 2009, they were granted a separation license.
In July 2010, husband applied for a divorce license in
Norway. No hearing was held regarding the issuance of
the divorce license. 1 Dissolution of the marriage was
the sole purpose of the divorce-license proceeding under
Norwegian law, and no adjudication of child custody,
property, or spousal maintenance was contemplated.
On August 27, 2010, wife filed a summons and a petition
for dissolution of marriage in Ramsey County District
Court. An affidavit of personal service, filed on September
29, 2010, states that the affiant served the summons and
petition on husband on August 31, 2010, by placing
copies of the documents in husband's mailbox in Norway
according to Norwegian law. Husband claims that the
documents were placed in the wrong mailbox. A second
affidavit of personal service, filed on October 18, 2010,
states that, on October 8, 2010, the affiant served wife's
summons and petition for dissolution on husband by
handing the documents to him personally in Norway,
which is considered due and proper service under the laws
of Norway.

235a. U.S. Government Works.
WESTl.AW © 2018 Thomson Reuters. No claim to original

1

Shults v. Shults, Not Reported in N.W.2d (2012)

On September 30, 2010, the parties were granted a divorce
license in Norway. In an October 4, 2010 letter, husband
notified the Minnesota District Court that the parties were
granted a divorce license in Norway on September 30,
2010.
A district court referee determined that Minn.Stat.
§ 518.11(a) (2010) required that wife's summons and
petition be served upon husband personally and that
placing the summons and petition in husband's mailbox
was not personal service. The referee concluded that
the district court lacked jurisdiction over the Minnesota
dissolution proceeding because the Minnesota proceeding
was commenced by personal service of the summons
and petition on husband on October 8, 2010, which
was after the proceeding in Norway was commenced
and concluded. The district court confirmed the referee's
order, and wife moved for reconsideration.
*2 Upon the motion for reconsideration, the
referee found that “[t]he Minnesota divorce proceeding
commenced October 8, 2010, when the Summons and
Petition for Dissolution of Marriage were personally
served upon Husband.” The referee further found that
when the Minnesota proceeding commenced, there was
a pending proceeding in Norway, the divorce had
already been granted, and the Norwegian court has
jurisdictional primacy. In an attached memorandum, the
referee explained:
Minnesota
law,
not
the
Hague
Convention,
controls
commencement of a dissolution
proceeding. Personal service—that
is, service in hand delivered to
the person of the Respondent (not
substitute service, not abode service,
not service by mail or service by
publication)—is necessary wherever
in the world that person may be
found, unless that person is in a war
zone, failed state, or in some other
manner beyond personal service. In
such case, upon proper application
the Court approves service by
alternate means.

The referee recommended that the motion to reconsider
be denied, and the district court adopted the
recommendation.

DECISION
This court reviews legal issues concerning jurisdiction
de novo. McLain v. McLain, 569 N.W.2d 219, 222
(Minn.App.1997), review denied (Minn. Nov. 18, 1997).
The Minnesota marital-dissolution statute provides:
(a) Unless a [dissolution] proceeding is brought by
both parties, copies of the summons and petition
[for dissolution of marriage] shall be served on the
respondent personally.
(b) When service is made out of this state and within
the United States, it may be proved by the affidavit
of the person making the same. When service is made
without the United States it may be proved by the
affidavit of the person making the same, taken before
and certified by any United States minister, charge
d'affaires, commissioner, consul or commercial agent,
or other consular or diplomatic officer of the United
States appointed to reside in such country, including
all deputies or other representatives of such officer
authorized to perform their duties; or before an officer
authorized to administer an oath with the certificate of
an officer of a court of record of the country wherein
such affidavit is taken as to the identity and authority
of the officer taking the same.
Minn.Stat. § 518.11 (2010).
Under section 518.11(a), wife was required to serve the
summons and petition on husband personally. And under
section 518.11(b), because husband was served outside
the United States, wife was permitted to prove service by
the affidavit of the person who made the service if the
affidavit was taken before and certified by one of several
specifically identified officials. But section 518.11 does not
specify how personal service is to be effected.
The Minnesota Rules of Civil Procedure specify how
personal service is to be made when the person served is
outside the United States. The rules state:

236a. U.S. Government Works.
WESTl.AW © 2018 Thomson Reuters. No claim to original

2

Shults v. Shults, Not Reported in N.W.2d (2012)

Unless otherwise provided by law, service upon an
individual other than an infant or an incompetent
person, may be effected in a place not within the state:
*3 (1) by any internationally agreed means reasonably
calculated to give notice, such as those means
authorized by the Hague Convention on the Service
Abroad of Judicial and Extrajudicial Documents[.]
Minn. R. Civ. P. 4.04(c).
There is no dispute that personal service of wife's
dissolution petition upon husband was required and
that husband was served outside the United States.
The United States Supreme Court has considered when
service is compatible with the Convention on Service
Abroad of Judicial and Extrajudicial Documents in
Civil and Commercial Matters, November 15, 1965, 20
U.S.T. 361 (Hague Service Convention). Volkswagenwerk
Aktiegnesellschaft v. Schlunk, 486 U.S. 694, 108 S.Ct.
2104, 100 L.Ed.2d 722 (1988). In Schlunk, the Supreme
Court explained:
The Hague Service Convention
is a multilateral treaty that was
formulated in 1964 by the Tenth
Session of the Hague Conference
of Private International Law.
The Convention revised parts of
the Hague Conventions on Civil
Procedure of 1905 and 1954. The
revision was intended to provide a
simpler way to serve process abroad,
to assure that defendants sued in
foreign jurisdictions would receive
actual and timely notice of suit, and
to facilitate proof of service abroad.

Service] Convention pre-empts inconsistent methods of
service prescribed by state law in all cases to which it
applies.” Id. at 699, 108 S.Ct. at 2108. Finally, the Supreme
Court explained that “[i]f the internal law of the forum
state defines the applicable method of serving process as
requiring the transmittal of documents abroad, then the
Hague Service Convention applies.” Id. at 700, 105 S. Ct
at 2108. Thus, because husband was in Norway when wife
attempted service, the applicable method of service under
Minn.Stat. § 518.11 and Minn. R. Civ. P. 4.04(c) required
the transmittal of documents abroad, and the district
court erred in determining that the Hague Convention
does not control the manner of service. See Hammond
v. Hammond, 708 S.E.2d 74, 79 (N.C.2011) (stating that
Hague Service Convention “procedures must be followed
in all cases where there is occasion to transmit judicial
or extrajudicial document for service abroad”) (quotation
omitted).
Because we hold that the district court erred in
determining that the Hague Convention does not control
the manner of service, we reverse and remand for a
determination whether wife's attempted service on August
31, 2010, complied with the Hague Service Convention
and, if it did, whether the district court has jurisdiction.
We decline to address wife's additional arguments
regarding the nature and effect of the proceedings in
Norway and whether Minnesota is a convenient forum
for the dissolution action because those issues have not
been addressed by the district court. See Thiele v. Stich,
425 N.W.2d 580, 582 (Minn.1988) (stating that “reviewing
court must generally consider only those issues that
the record shows were presented and considered by the
[district] court in deciding the matter before it” (quotation
omitted)).
*4 Reversed and remanded.

Id. at 698, 108 S.Ct. at 2107.
The Supreme Court explained further that “[b]y virture of
the Supremacy Clause, U.S. Const., Art. VI, the [Hague

All Citations
Not Reported in N.W.2d, 2012 WL 254496

Footnotes

1

The parties dispute whether wife was served with husband's application for the divorce license. In a January 21, 2011 letter
to the district court referee, husband's counsel asserts that the Norwegian court notified wife of the divorce proceeding

237a. U.S. Government Works.
WESTl.AW © 2018 Thomson Reuters. No claim to original

3

Shults v. Shults, Not Reported in N.W.2d (2012)
with a document dated September 2, 2010. In our review of the file, we have not found any document from the Norwegian
court that notifies wife of the divorce-license proceeding.

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

238a. U.S. Government Works.
© 2018 Thomson Reuters. No claim to original

4

27-FA-15-499

L0/23/2018

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

LNCADAT I CA Paris , 13 avril 20J2 , No de RG 12/06 17

CaseLawSearchNew search
CASE Nofull text available
CaseName CA Paris, 13 avril 2012, No de RG12/0617

INCADATreference

Court

HC/E/ FR1189
Country

FRANCE

Name

Courd'appelde Paris,Pole1, chambre1

Level

AppellateCourt

Judge(s)

Perie(president),Chadeville(presidente,delegueea la protectionde
l'enfance),Guihal(conseillere)

Statesinvolved

Requesting

BELGIUM

State
Requested

FRANCE

State

Decision Date

13 April 2012

Status

Subjectto appeal

Grounds

Removaland Retention· Arts 3 and 12 I GraveRisk· Art. 13(1)(b)

I Objectionsof the Childto a Return·Art. 13(2)
Order
HCarticle(s)

Appealallowed,returnrefused

13(1)(b) 13(2)

Considered
HCarticle(s)

13(1)(b) 13(2)

ReliedUpon
Other

Art. 11 BrusselsIla Regulation(CouncilRegulation(EC)No

provisions

2201/2003 of 27 November2003)

I
Authorities
Casesreferred
to
Published
in

INCADAT
commentht1ps://w ww.i11
cada 1.com/en/case/ 1189

EXHIBIT

Exceptions
to Return

239a.

2/3

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

INCA DAT I CA Pa ris, 13 avr il 2012, No de RG 12/ 0617

10/23/20 18

GraveRiskof Harm

PrimaryCarer Abductions

Child'sObjection

NatureandStrengthof Objection

SUMMARY Summaryavailablein EN I FR
Facts Thecaseconcernedtwo girls, bornin 1998and2000,amongfour siblings. Their two
elderbrotherswereof full age. Thefamily lived in Belgium.In 2010,the parents
divorced;parentalauthoritywasthenexercisedjointly but the daughters'residence was
set at their father'shomein ~elgium.
In June2011, the fathermovedto Francewith his daughters. On20 March2012, a ruling
at first instance orderedthe children's returnto Belgium.Thefather appealedagainst
that ruling.

Ruling Appealallowed; returnrefused.Thedaughters objectedto a returnthat exposedthemto
a graverisk of danger,whereasno adequatemeasures had beentaken in Belgium.

Grounds Removal
andRetention- Arts3 and12
The Courtheldthat since custodywas exercised jointly and the motherobjectedto the
transferof the daughters' principalresidenceto France
, their removalhad been
wrongful.

GraveRisk- Art. 13(1)(b)
The Courtreferredto Article 13 of the 1980 Hague ChildAbductionConvention and to
Article 11 of Brussels Ila Regulation(CouncilRegulation (EC)No2201/2003 of 27
November2003), andin particularArticle 11(4) where undera court may not refuse to
ordera child'sreturnpursuantto Article13(1)(b) of the Conventionif it is established
that adequatemeasureshavebeentakento secure its protectionafterthe return.

It observed that the fatherhadmovedto France with his partner,the latter'schild,their
child, and his owndaughters.Hehadfoundemployme
nt there. Accordingly,a return to
Belgiumwith his daughterscould not be contemplated. As a result,the childrencould
only be returnedto the motheror to a care entity.
But it was establishedthat the material conditions of the mother'slivingwere
incompatible with carefor the daughters (two-roomaccommoda
tion, wherethe two
brothersof full age,oneof whomwas veryviolent, also lived),andthat the mother's

240a.

hllps://w ww.incada L.c om/en/case/ 1189

2/3

27-FA-15-499

Filed in District Court
State of Minnesota
11/9/2018 1:33 PM

INCADAT I CA Paris, 13 avril 2012 , No de RG 12/06 17

10/23/2 018

homedid not offer a suitablementalandeducationalenvironment.
TheCourt also pointedout that in the divorceproceedings,
the Belgiancourts had set
the children'sprincipalresidencewith the fatheron a provisionalbasis.
It concludedthat the fatherhadprovedthat returningthe childrento the motherwould
exposethemto a gravephysicalandmentalrisk whereasthe PublicProsecutor'sOffice
hadnot establishedthat adequatemeasureshad beentakento securethe children's
protectionaftertheir return.

Objections
of the Childto a Return- Art. 13(2)
TheCourtobservedthat the girls,then aged11 and 13,hadbeeninterviewedin the
lower-courtproceedings,and on that occasion hadclearlystatedtheirwish to live with
their father.

Authorof thesummary:
AudeFiorini

INCADATcomment~

> PrimaryCarerAbductions

> NatureandStrengthof Objection

241a.
b11ps://www.incada1.com/e11
/case/ 1189

3/3

CONVENTION ON THE CIVIL ASPECTS
OF INTERNATIONAL CHILD ABDUCTION
(Concluded 25 October 1980)
The States signatory to the present Convention,
Firmly convinced that the interests of children are of paramount importance in
matters relating to their custody,
Desiring to protect children internationally from the harmful effects of their wrongful
removal or retention and to establish procedures to ensure their prompt return to the
State of their habitual residence, as well as to secure protection for rights of access,
Have resolved to conclude a Convention to this effect, and have agreed upon the
following provisions Article 1
The objects of the present Convention are –
a) to secure the prompt return of children wrongfully removed to or retained
in any Contracting State;
and
b) to ensure that rights of custody and of access under the law of one
Contracting State are effectively respected in the other Contracting States.
[***]
Article 13
Notwithstanding the provisions of the preceding Article, the judicial or
administrative authority of the requested State is not bound to order the return of
the child if the person, institution or other body which opposes its return establishes
that –
a) the person, institution or other body having the care of the person of the
child was not actually exercising the custody rights at the time of removal or
retention, or had consented to or subsequently acquiesced in the removal or
retention; or
b) there is a grave risk that his or her return would expose the child to physical
or psychological harm or otherwise place the child in an intolerable situation.
The judicial or administrative authority may also refuse to order the return of
the child if it finds that the child objects to being returned and has attained an
age and degree of maturity at which it is appropriate to take account of its
views.

242a.

In considering the circumstances referred to in this Article, the judicial and
administrative authorities shall take into account the information relating to the
social background of the child provided by the Central Authority or other competent
authority of the child's habitual residence.
[***]
Article 16
After receiving notice of a wrongful removal or retention of a child in the sense of
Article 3, the judicial or administrative authorities of the Contracting State to which
the child has been removed or in which it has been retained shall not decide on the
merits of rights of custody until it has been determined that the child is not to be
returned under this Convention or unless an application under this Convention is not
lodged within a reasonable time following receipt of the notice.
[***]

243a.

1​

MINNESOTA STATUTES 2020​

518.552​

518.552 MAINTENANCE.​
Subdivision 1. Grounds. In a proceeding for dissolution of marriage or legal separation, or in a proceeding​
for maintenance following dissolution of the marriage by a court which lacked personal jurisdiction over​
the absent spouse and which has since acquired jurisdiction, the court may grant a maintenance order for​
either spouse if it finds that the spouse seeking maintenance:​
(a) lacks sufficient property, including marital property apportioned to the spouse, to provide for​
reasonable needs of the spouse considering the standard of living established during the marriage, especially,​
but not limited to, a period of training or education, or​
(b) is unable to provide adequate self-support, after considering the standard of living established during​
the marriage and all relevant circumstances, through appropriate employment, or is the custodian of a child​
whose condition or circumstances make it appropriate that the custodian not be required to seek employment​
outside the home.​
Subd. 2. Amount; duration. The maintenance order shall be in amounts and for periods of time, either​
temporary or permanent, as the court deems just, without regard to marital misconduct, and after considering​
all relevant factors including:​
(a) the financial resources of the party seeking maintenance, including marital property apportioned to​
the party, and the party's ability to meet needs independently, including the extent to which a provision for​
support of a child living with the party includes a sum for that party as custodian;​
(b) the time necessary to acquire sufficient education or training to enable the party seeking maintenance​
to find appropriate employment, and the probability, given the party's age and skills, of completing education​
or training and becoming fully or partially self-supporting;​
(c) the standard of living established during the marriage;​
(d) the duration of the marriage and, in the case of a homemaker, the length of absence from employment​
and the extent to which any education, skills, or experience have become outmoded and earning capacity​
has become permanently diminished;​
(e) the loss of earnings, seniority, retirement benefits, and other employment opportunities forgone by​
the spouse seeking spousal maintenance;​
(f) the age, and the physical and emotional condition of the spouse seeking maintenance;​
(g) the ability of the spouse from whom maintenance is sought to meet needs while meeting those of​
the spouse seeking maintenance; and​
(h) the contribution of each party in the acquisition, preservation, depreciation, or appreciation in the​
amount or value of the marital property, as well as the contribution of a spouse as a homemaker or in​
furtherance of the other party's employment or business.​
Subd. 3. Permanency of award. Nothing in this section shall be construed to favor a temporary award​
of maintenance over a permanent award, where the factors under subdivision 2 justify a permanent award.​
Where there is some uncertainty as to the necessity of a permanent award, the court shall order a​
permanent award leaving its order open for later modification.​

Official Publication of the State of Minnesota​
Revisor of Statutes​

244a.

518.552​

MINNESOTA STATUTES 2020​

2​

Subd. 4. Reopening maintenance awards. Section 518.145, subdivision 2, applies to awards of spousal​
maintenance.​
Subd. 5. Private agreements. The parties may expressly preclude or limit modification of maintenance​
through a stipulation, if the court makes specific findings that the stipulation is fair and equitable, is supported​
by consideration described in the findings, and that full disclosure of each party's financial circumstances​
has occurred. The stipulation must be made a part of the judgment and decree or a post-decree stipulated​
order. The parties may restore the court's authority or jurisdiction to award or modify maintenance through​
a binding stipulation.​
Subd. 6. Cohabitation. (a) Spousal maintenance may be modified pursuant to section 518A.39,​
subdivision 2, based on the cohabitation by the maintenance obligee with another adult following dissolution​
of the marriage. The modification may consist of a reduction, suspension, reservation, or termination of​
maintenance. In determining if maintenance should be modified due to cohabitation, the court shall consider:​
(1) whether the obligee would marry the cohabitant but for the maintenance award;​
(2) the economic benefit the obligee derives from the cohabitation;​
(3) the length of the cohabitation and the likely future duration of the cohabitation; and​
(4) the economic impact on the obligee if maintenance is modified and the cohabitation ends.​
(b) The court must not modify a maintenance award based solely on cohabitation if a marriage between​
the obligee and the cohabitant would be prohibited under section 517.03, subdivision 1, clause (2) or (3). A​
modification under this subdivision must be precluded or limited to the extent the parties have entered into​
a private agreement under subdivision 5.​
(c) A motion to modify a spousal maintenance award on the basis of cohabitation may not be brought​
within one year of the date of entry of the decree of dissolution or legal separation that orders spousal​
maintenance, unless the parties have agreed in writing that a motion may be brought or the court finds that​
failing to allow the motion to proceed would create an extreme hardship for one of the parties.​
History: 1978 c 772 s 51; 1979 c 259 s 26; 1982 c 535 s 1; 1985 c 266 s 2; 1986 c 444; 1988 c 668 s​
19; 1989 c 248 s 7; 2015 c 30 art 1 s 8; 2016 c 132 s 1​

Official Publication of the State of Minnesota​
Revisor of Statutes​

245a.

1​

MINNESOTA STATUTES 2020​

518D.302​

518D.302 ENFORCEMENT UNDER HAGUE CONVENTION.​
Under sections 518D.301 to 518D.317 a court of this state may enforce an order for the return of the​
child made under the Hague Convention on the Civil Aspects of International Child Abduction as if it were​
a child custody determination.​
History: 1999 c 74 s 2​

Official Publication of the State of Minnesota​
Revisor of Statutes​

246a.

1​

MINNESOTA STATUTES 2020​

518D.207​

518D.207 INCONVENIENT FORUM.​
(a) A court of this state which has jurisdiction under this chapter to make a child custody determination​
may decline to exercise its jurisdiction at any time if it determines that it is an inconvenient forum under the​
circumstances and that a court of another state is a more appropriate forum. The issue of inconvenient forum​
may be raised upon motion of a party, the court's own motion, or request of another court.​
(b) Before determining whether it is an inconvenient forum, a court of this state shall consider whether​
it is appropriate for a court of another state to exercise jurisdiction. For this purpose, the court shall allow​
the parties to submit information and shall consider all relevant factors, including:​
(1) whether domestic violence has occurred and is likely to continue in the future and which state could​
best protect the parties and the child;​
(2) the length of time the child has resided outside this state;​
(3) the distance between the court in this state and the court in the state that would assume jurisdiction;​
(4) the relative financial circumstances of the parties;​
(5) any agreement of the parties as to which state should assume jurisdiction;​
(6) the nature and location of the evidence required to resolve the pending litigation, including testimony​
of the child;​
(7) the ability of the court of each state to decide the issue expeditiously and the procedures necessary​
to present the evidence; and​
(8) the familiarity of the court of each state with the facts and issues in the pending litigation.​
(c) If a court of this state determines that it is an inconvenient forum and that a court of another state is​
a more appropriate forum, it shall stay the proceedings upon condition that a child custody proceeding be​
promptly commenced in another designated state and may impose any other condition the court considers​
just and proper.​
(d) A court of this state may decline to exercise its jurisdiction under this chapter if a child custody​
determination is incidental to an action for marriage dissolution or another proceeding while still retaining​
jurisdiction over the marriage dissolution or other proceeding.​
History: 1999 c 74 s 7​

Official Publication of the State of Minnesota​
Revisor of Statutes​

247a.

TITLE 22. FOREIGN RELATIONS AND INTERCOURSE
CHAPTER 97. INTERNATIONAL CHILD ABDUCTION REMEDIES

22 USC § 9001 et. seq.
(International Child Abduction
Remedies Act – ICARA)

implementation of the Convention in the
United States.
(2) The provisions of this Act are in
addition to and not in lieu of the
provisions of the Convention.
(3) In enacting this Act the Congress
recognizes-(A) the international character of the
Convention; and
(B) the need for uniform international
interpretation of the Convention.
(4) The Convention and this Act
empower courts in the United States to
determine only rights under the
Convention and not the merits of any
underlying child custody claims.

§ 9001. Findings and
declarations
(a) Findings. The Congress makes the
following findings:
(1) The international abduction or
wrongful retention of children is harmful
to their well-being.
(2) Persons should not be permitted to
obtain custody of children by virtue of
their wrongful removal or retention.
(3) International abductions and
retentions of children are increasing,
and
only
concerted
cooperation
pursuant to an international agreement
can effectively combat this problem.
(4) The Convention on the Civil
Aspects
of
International
Child
Abduction, done at The Hague on
October 25, 1980, establishes legal
rights and procedures for the prompt
return of children who have been
wrongfully removed or retained, as well
as for securing the exercise of visitation
rights. Children who are wrongfully
removed or retained within the meaning
of the Convention are to be promptly
returned unless one of the narrow
exceptions set forth in the Convention
applies. The Convention provides a
sound treaty framework to help resolve
the problem of international abduction
and retention of children and will deter
such wrongful removals and retentions.

§ 9002. Definitions
For the purposes of this Act-(1) the term "applicant" means any
person
who,
pursuant
to
the
Convention, files an application with the
United States Central Authority or a
Central Authority of any other party to
the Convention for the return of a child
alleged to have been wrongfully
removed
or
retained
or
for
arrangements for organizing or securing
the effective exercise of rights of access
pursuant to the Convention;
(2) the term "Convention" means the
Convention on the Civil Aspects of
International Child Abduction, done at
The Hague on October 25, 1980;
(3) the term "Parent Locator Service"
means the service established by the
Secretary of Health and Human
Services under section 453 of the Social
Security Act (42 U.S.C. 653);
(4) the term "petitioner" means any
person who, in accordance with this
Act, files a petition in court seeking
relief under the Convention;

(b) Declarations. The Congress makes
the following declarations:
(1) It is the purpose of this Act to
establish
procedures
for
the

International Child Abduction Remedies Act
248a.

1

(5) the term "person" includes any
individual, institution, or other legal
entity or body;
(6) the term "respondent" means any
person against whose interests a
petition is filed in court, in accordance
with this Act, which seeks relief under
the Convention;
(7) the term "rights of access" means
visitation rights;
(8) the term "State" means any of the
several States, the District of Columbia,
and any commonwealth, territory, or
possession of the United States; and
(9) the term "United States Central
Authority" means the agency of the
Federal Government designated by the
President under section 7(a) [22 USCS
§ 9006(a)].

(d) Determination of case. The court in
which an action is brought under
subsection (b) shall decide the case in
accordance with the Convention.
(e) Burdens of proof.
(1) A petitioner in an action brought
under subsection (b) shall establish by a
preponderance of the evidence-(A) in the case of an action for the
return of a child, that the child has been
wrongfully removed or retained within
the meaning of the Convention; and
(B) in the case of an action for
arrangements for organizing or securing
the effective exercise of rights of
access, that the petitioner has such
rights.
(2) In the case of an action for the
return of a child, a respondent who
opposes the return of the child has the
burden of establishing-(A) by clear and convincing
evidence that one of the exceptions set
forth in article 13b or 20 of the
Convention applies; and
(B) by a preponderance of the
evidence that any other exception set
forth in article 12 or 13 of the
Convention applies.

§ 9003. Judicial remedies
(a) Jurisdiction of the courts. The courts
of the States and the United States
district courts shall have concurrent
original jurisdiction of actions arising
under the Convention.
(b) Petitions. Any person seeking to
initiate judicial proceedings under the
Convention for the return of a child or
for arrangements for organizing or
securing the effective exercise of rights
of access to a child may do so by
commencing a civil action by filing a
petition for the relief sought in any court
which has jurisdiction of such action
and which is authorized to exercise its
jurisdiction in the place where the child
is located at the time the petition is
filed.

(f) Application of the Convention. For
purposes of any action brought under
this Act-(1) the term "authorities", as used in
article 15 of the Convention to refer to
the authorities of the state of the
habitual residence of a child, includes
courts and appropriate government
agencies;
(2) the terms "wrongful removal or
retention" and "wrongfully removed or
retained", as used in the Convention,
include a removal or retention of a child
before the entry of a custody order
regarding that child; and
(3) the term "commencement of
proceedings", as used in article 12 of
the Convention, means, with respect to

(c) Notice. Notice of an action brought
under subsection (b) shall be given in
accordance with the applicable law
governing notice in interstate child
custody proceedings.

International Child Abduction Remedies Act

2
249a.

the return of a child located in the
United States, the filing of a petition in
accordance with subsection (b) of this
section.

With respect to any application to the
United States Central Authority, or any
petition to a court under section 4 [22
USCS § 9003], which seeks relief under
the
Convention,
or
any
other
documents or information included with
such application or petition or provided
after such submission which relates to
the application or petition, as the case
may be, no authentication of such
application, petition, document, or
information shall be required in order for
the application, petition, document, or
information to be admissible in court.

(g) Full faith and credit. Full faith and
credit shall be accorded by the courts
of the States and the courts of the
United States to the judgment of any
other such court ordering or denying
the return of a child, pursuant to the
Convention, in an action brought under
this Act.
(h) Remedies under the Convention not
exclusive. The remedies established by
the Convention and this Act shall be in
addition to remedies available under
other laws or international agreements.

§ 9006.
Authority

United

States

Central

(a) Designation. The President shall
designate a Federal agency to serve as
the Central Authority for the United
States under the Convention.

§ 9004. Provisional remedies
(a) Authority of courts. In furtherance of
the objectives of article 7(b) and other
provisions of the Convention, and
subject to the provisions of subsection
(b) of this section, any court exercising
jurisdiction of an action brought under
section 4(b) of this Act [42 USCS §
11630(b)] may take or cause to be taken
measures under Federal or State law,
as appropriate, to protect the well-being
of the child involved or to prevent the
child's further removal or concealment
before the final disposition of the
petition.

(b) Functions. The functions of the
United States Central Authority are
those ascribed to the Central Authority
by the Convention and this Act.
(c) Regulatory authority. The United
States Central Authority is authorized to
issue such regulations as may be
necessary to carry out its functions
under the Convention and this Act.
(d) Obtaining information from Parent
Locator Service. The United States
Central Authority may, to the extent
authorized by the Social Security Act
[42 USCS §§ 301 et seq.], obtain
information from the Parent Locator
Service.

(b) Limitation on authority. No court
exercising jurisdiction of an action
brought under section 4(b) [22 USCS §
9003(b)] may, under subsection (a) of
this section, order a child removed from
a person having physical control of the
child unless the applicable requirements
of State law are satisfied.

(e) Grant authority. The United States
Central Authority is authorized to make
grants to, or enter into contracts or
agreements
with,
any
individual,
corporation, other Federal, State, or
local agency, or private entity or
organization in the United States for

§ 9005. Admissibility of documents

International Child Abduction Remedies Act
250a.

3

purposes
of
accomplishing
its
responsibilities under the Convention
and this Act.

motor
vehicles,
management.

or

(f) Limited liability of private entities
acting under the direction of the United
States Central Authority.
(1) Limitation on liability. Except as
provided in paragraphs (2) and (3), a
private entity or organization that
receives a grant from or enters into a
contract or agreement with the United
States
Central
Authority
under
subsection (e) of this section for
purposes of assisting the United States
Central Authority in carrying out its
responsibilities and functions under the
Convention and this Act, including any
director, officer, employee, or agent of
such entity or organization, shall not be
liable in any civil action sounding in tort
for damages directly related to the
performance of such responsibilities
and functions as defined by the
regulations issued under subsection (c)
of this section that are in effect on
October 1, 2004.
(2) Exception for intentional, reckless,
or other misconduct. The limitation on
liability under paragraph (1) shall not
apply in any action in which the plaintiff
proves
that
the
private
entity,
organization, officer, employee, or agent
described in paragraph (1), as the case
may be, engaged in intentional
misconduct or acted, or failed to act,
with actual malice, with reckless
disregard to a substantial risk of
causing injury without legal justification,
or for a purpose unrelated to the
performance of responsibilities or
functions under this Act.
(3) Exception for ordinary business
activities. The limitation on liability
under paragraph (1) shall not apply to
any alleged act or omission related to
an ordinary business activity, such as
an
activity
involving
general
administration or operations, the use of

§ 9007. Costs and fees

personnel

(a) Administrative costs. No department,
agency, or instrumentality of the Federal
Government or of any State or local
government may impose on an
applicant any fee in relation to the
administrative
processing
of
applications submitted under the
Convention.
(b) Costs incurred in civil actions.
(1) Petitioners may be required to bear
the costs of legal counsel or advisors,
court costs incurred in connection with
their petitions, and travel costs for the
return of the child involved and any
accompanying persons, except as
provided in paragraphs (2) and (3).
(2) Subject to paragraph (3), legal fees
or court costs incurred in connection
with an action brought under section 4
[22 USCS § 9003] shall be borne by the
petitioner unless they are covered by
payments from Federal, State, or local
legal assistance or other programs.
(3) Any court ordering the return of a
child pursuant to an action brought
under section 4 [22 USCS § 9003] shall
order the respondent to pay necessary
expenses incurred by or on behalf of
the petitioner, including court costs,
legal fees, foster home or other care
during the course of proceedings in the
action, and transportation costs related
to the return of the child, unless the
respondent establishes that such order
would be clearly inappropriate.
§ 9008. Collection, maintenance, and
dissemination of information
(a) In general. In performing its functions
under the Convention, the United States
Central Authority may, under such

International Child Abduction Remedies Act

4
251a.

conditions as the Central Authority
prescribes by regulation, but subject to
subsection (c), receive from or transmit
to any department, agency, or
instrumentality
of
the
Federal
Government or of any State or foreign
government, and receive from or
transmit to any applicant, petitioner, or
respondent, information necessary to
locate a child or for the purpose of
otherwise implementing the Convention
with respect to a child, except that the
United States Central Authority-(1) may receive such information from
a Federal or State department, agency,
or instrumentality only pursuant to
applicable Federal and State statutes;
and
(2) may transmit any information
received
under
this
subsection
notwithstanding any provision of law
other than this Act.
(b) Requests for information. Requests
for information under this section shall
be submitted in such manner and form
as the United States Central Authority
may prescribe by regulation and shall
be accompanied or supported by such
documents as the United States Central
Authority may require.
(c)
Responsibility
of
government
entities. Whenever any department,
agency, or instrumentality of the United
States or of any State receives a
request from the United States Central
Authority for information authorized to
be provided to such Central Authority
under subsection (a), the head of such
department, agency, or instrumentality
shall promptly cause a search to be
made of the files and records
maintained by such department,
agency, or instrumentality in order to
determine whether the information
requested is contained in any such files
or records. If such search discloses the
information requested, the head of such

department, agency, or instrumentality
shall
immediately
transmit
such
information to the United States Central
Authority, except that any such
information the disclosure of which-(1) would adversely affect the national
security interests of the United States or
the law enforcement interests of the
United States or of any State; or
(2) would be prohibited by section 9 of
title 13, United States Code;
shall not be transmitted to the Central
Authority.
The
head
of
such
department, agency, or instrumentality
shall, immediately upon completion of
the requested search, notify the Central
Authority of the results of the search,
and whether an exception set forth in
paragraph (1) or (2) applies. In the event
that the United States Central Authority
receives
information
and
the
appropriate
Federal
or
State
department, agency, or instrumentality
thereafter notifies the Central Authority
that an exception set forth in paragraph
(1) or (2) applies to that information, the
Central Authority may not disclose that
information under subsection (a).
(d) Information available from Parent
Locator Service. To the extent that
information which the United States
Central Authority is authorized to obtain
under the provisions of subsection (c)
can be obtained through the Parent
Locator Service, the United States
Central Authority shall first seek to
obtain such information from the Parent
Locator Service, before requesting such
information directly under the provisions
of subsection (c) of this section.
(e) Recordkeeping. The United States
Central
Authority
shall
maintain
appropriate records concerning its
activities and the disposition of cases
brought to its attention.

International Child Abduction Remedies Act

5
252a.

§ 9009. Office of Children's Issues
(a) Director requirements. The Secretary
of State shall fill the position of Director
of the Office of Children's Issues of the
Department of State (in this section
referred to as the "Office") with an
individual of senior rank who can ensure
long-term continuity in the management
and policy matters of the Office and has
a strong background in consular affairs.
(b) Case officer staffing. Effective April
1, 2000, there shall be assigned to the
Office of Children's Issues of the
Department of State a sufficient number
of case officers to ensure that the
average caseload for each officer does
not exceed 75.
(c) Embassy contact. The Secretary of
State shall designate in each United
States diplomatic mission an employee
who shall serve as the point of contact
for matters relating to international
abductions of children by parents. The
Director of the Office shall regularly
inform the designated employee of
children of United States citizens
abducted by parents to that country.
(d) Reports to parents.
(1) In general. Except as provided in
paragraph (2), beginning 6 months after
the date of enactment of this Act
[enacted Nov. 29, 1999], and at least
once every 6 months thereafter, the
Secretary of State shall report to each
parent who has requested assistance
regarding an abducted child overseas.
Each such report shall include
information on the current status of the
abducted child's case and the efforts by
the Department of State to resolve the
case.
(2) Exception. The requirement in
paragraph (1) shall not apply in a case
of an abducted child if-(A) the case has been closed and

the Secretary of State has reported the
reason the case was closed to the
parent who requested assistance; or
(B) the parent seeking assistance
requests that such reports not be
provided.
§ 9010.
group

Interagency

coordinating

The Secretary of State, the Secretary of
Health and Human Services, and the
Attorney General shall designate
Federal employees and may, from time
to time, designate private citizens to
serve on an interagency coordinating
group to monitor the operation of the
Convention and to provide advice on its
implementation to the United States
Central Authority and other Federal
agencies. This group shall meet from
time to time at the request of the United
States Central Authority. The agency in
which the United States Central
Authority is located is authorized to
reimburse such private citizens for
travel and other expenses incurred in
participating at meetings of the
interagency coordinating group at rates
not to exceed those authorized under
subchapter I of chapter 57 of title 5,
United States Code [5 USCS §§ 5701 et
seq.], for employees of agencies.
§
9011.
appropriations

Authorization

of

There are authorized to be appropriated
for each fiscal year such sums as may
be necessary to carry out the purposes
of the Convention and this Act.

International Child Abduction Remedies Act

6
253a.

